APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court of
Appeals for the Federal Circuit
(May 1, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Decision of the United States
International Trade Commission
(October 27, 2017) . . . . . . . . . . . . App. 39
Appendix C Statutes
15 U.S.C. § 1125 . . . . . . . . . . . . .
19 U.S.C. § 1334 . . . . . . . . . . . . .
19 U.S.C. § 1337 . . . . . . . . . . . . .
21 U.S.C. § 321 . . . . . . . . . . . . . .

App. 43
App. 55
App. 56
App. 74

Appendix D Verified Complaint Under Section 337
of the Tariff Act of 1930, As Amended
in the United States International
Trade Commission
(August 30, 2017) . . . . . . . . . . . . App. 96
Appendix E Letter to Hon. Lisa R. Barton, U.S.
International Trade Commission from
the Department of Health & Human
Services, Food and Drug Administration
(October 6, 2017) . . . . . . . . . . . . App. 232

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1247
[Filed May 1, 2019]
________________________________
AMARIN PHARMA, INC.,
)
AMARIN PHARMACEUTICALS )
IRELAND LTD.,
)
Appellants
)
)
v.
)
)
INTERNATIONAL TRADE
)
COMMISSION,
)
Appellee
)
)
ROYAL DSM NV, DSM MARINE )
LIPIDS PERU S.A.C., DSM
)
NUTRITIONAL PRODUCTS LLC, )
DSM NUTRITIONAL PRODUCTS )
CANADA, INC., PHARMAVITE
)
LLC, NORDIC NATURALS, INC., )
NORDIC PHARMA, INC.,
)
Intervenors
)
________________________________ )
Appeal from the United States International Trade
Commission in Investigation No. 337-TA-3247.

App. 2
2018-114
________________________________
IN RE: AMARIN PHARMA, INC.,
AMARIN PHARMACEUTICALS
IRELAND LTD.,
Petitioners
________________________________

)
)
)
)
)

On Petition for Writ of Mandamus to the United
States International Trade Commission in No. 337-TA3247.
______________________
Decided: May 1, 2019
______________________
ASHLEY CHARLES PARRISH, King & Spalding LLP,
Washington, DC, argued for appellants and petitioners.
Also represented by LISA MOLOT DWYER, JESSE
SNYDER, JEFFREY MARK TELEP.
HOUDA MORAD, Office of the General Counsel,
United States International Trade Commission,
Washington, DC, argued for appellee and respondent.
Also represented by DOMINIC L. BIANCHI, WAYNE W.
HERRINGTON.
MARK S. DAVIES, Orrick, Herrington & Sutcliffe
LLP, Washington, DC, argued for intervenors Royal
DSM NV, DSM Marine Lipids Peru S.A.C., DSM
Nutritional Products LLC, DSM Nutritional Products
Canada, Inc., Pharmavite LLC. Also represented by
JORDAN COYLE, THOMAS KING-SUN FU; ANDREW D.
SILVERMAN, New York, NY; ANNETTE LOUISE HURST,
ROBERT SHWARTS, San Francisco, CA.

App. 3
JOSEPH FORREST BUSA, Appellate Staff, Civil
Division, United States Department of Justice,
Washington, DC, argued for amicus curiae United
States. Also represented by JOSEPH H. HUNT, SCOTT R.
MCINTOSH.
ANDREW F. PRATT, Venable LLP, Washington, DC,
for intervenors Nordic Naturals, Inc., Nordic Pharma,
Inc.
DEANNA TANNER OKUN, Adduci, Mastriani &
Schaumberg, LLP, Washington, DC, for amici curiae
Council for Responsible Nutrition, Global Organization
for EPA and DHA Omega-3S. Also represented by
ASHA ALLAM, PAUL M. BARTKOWSKI, PAULINA MARIA
STAROSTKA.
______________________
Before PROST, Chief Judge, WALLACH and HUGHES,
Circuit Judges.
Opinion for the court filed by Chief Judge PROST.
Dissenting opinion filed by Circuit Judge WALLACH.
PROST, Chief Judge.
Amarin Pharma, Inc. (“Amarin”) appeals the
decision of the International Trade Commission
(“Commission”), which determined not to institute an
investigation and, accordingly, dismissed Amarin’s
complaint. The Commission held that Amarin’s
complaint failed to allege a cognizable claim based on
an unfair method of competition or unfair act under 19
U.S.C. § 1337(a)(1)(A). We affirm.

App. 4
I
Amarin markets Vascepa® capsules, a prescription
drug that consists of 1 gram of eicosapentaenoic acid
(the omega-3 acid commonly known as “EPA”) in a 1gram capsule. The EPA in Vascepa® is in ethyl ester
form and is synthetically produced from fish oil.
Amarin obtained approval from the Food and Drug
Administration (“FDA”) to market and sell Vascepa®,
which is designed to reduce triglyceride levels in adult
patients with severe hypertriglyceridemia. Vascepa® is
the only purified ethyl ester E-EPA product sold in the
United States as an FDA-approved drug.
On August 30, 2017, Amarin filed under oath a
complaint alleging violations under § 337 of the Tariff
Act of 1930, as amended. J.A. 4–114 (Compl.). The
complaint alleges that certain companies were falsely
labeling and deceptively advertising their imported
synthetically produced omega-3 products as (or for use
in) “dietary supplements,” where the products are
actually “new drugs” as defined in the Food, Drug, and
Cosmetic Act (“FDCA”) that have not been approved for
sale or use in the United States. J.A. 9 ¶ 1.
Specifically, Amarin articulated two claims in its
complaint: (1) that the importation and sale of the
articles is an unfair act or unfair method of competition
under § 337 because it violates § 43(a) of the Lanham
Act, 15 U.S.C. § 1125(a), see J.A. 31–56 ¶¶ 53–105; and
(2) that importation of the articles violates the Tariff
Act “based upon the standards set forth in the FDCA,”
see J.A. 56 ¶ 106. By way of relief, Amarin’s complaint
seeks an order under § 337(d) that would exclude
synthetically produced omega-3 products from entry

App. 5
into the United States, as well as a cease-and-desist
order under § 337(f) to prohibit the proposed
respondents from importing, using, or selling
synthetically produced omega-3 products. J.A. 112–13
¶¶ D–F.
After Amarin filed its complaint, the FDA
submitted a letter urging the Commission not to
institute an investigation and instead to dismiss
Amarin’s complaint. J.A. 627–37. In the FDA’s view,
the FDCA prohibits private enforcement actions,
including unfair trade practice claims that seek to
enforce the FDCA. J.A. 630. The FDA contended that
the FDCA precludes any claim that would “require[]
the Commission to directly apply, enforce, or interpret
the FDCA.” J.A. 631. The FDA further contended that
the Commission should decline to institute an
investigation based on principles of comity to the FDA.
J.A. 629.
On October 27, 2017, the Commission issued its
decision declining to institute an investigation and
dismissing the complaint. J.A. 1–3. The Commission
reasoned that Amarin’s allegations are precluded by
the FDCA. Id.; see also POM Wonderful LLC v. CocaCola Co., 573 U.S. 102, 109 (2014) (“Private parties
may not bring [FDCA] enforcement suits.” (citing 21
U.S.C. § 337)).
In December 2017, Amarin filed in this court a
petition for review and, separately, a petition for a writ
of mandamus. We consolidated the two cases. Royal
DSM NV, DSM Marine Lipids Peru S.A.C., DSM
Nutritional Products LLC, and Pharmavite LLC
(collectively, “DSM”); and Nordic Natural, Inc. and

App. 6
Nordic Pharma, Inc. (collectively, “Nordic”) (both, “the
Intervenors”) intervened in the appeal. ECF Nos. 14,
23, 25, 49.
II
At the outset, we begin by confirming that we have
jurisdiction to review the Commission’s decision in this
case. We then address Amarin’s argument that the
Commission has a mandatory, non-discretionary duty
to institute an investigation when presented with a
complaint under oath. Finally, we address whether the
Commission correctly determined that Amarin’s
allegations are precluded by the FDCA.
A
Amarin contends that we have appellate jurisdiction
under 28 U.S.C. § 1295(a)(6), but the Intervenors and
the Commission disagree.
Our jurisdictional statute gives this court exclusive
jurisdiction “to review the final determinations of the
United States International Trade Commission relating
to unfair practices in import trade, made under section
337 of the Tariff Act of 1930 (19 U.S.C. [§] 1337).”
§ 1295(a)(6). “Final determinations appealable under
§ 1295(a)(6) are specified in § 1337(c) . . . .” Crucible
Materials Corp. v. ITC, 127 F.3d 1057, 1060 (Fed. Cir.
1997).
The Intervenors and the Commission argue that the
only “final determinations” subject to appellate review
are those listed in § 1337(c). Intervenors’ Br. 18–19;
Commission’s Br. 52–56. And these decisions, according

App. 7
to the Intervenors, can only be made “as a result of an
investigation.” Intervenors’ Br. 19.
The question as to our jurisdiction in this case is
resolved by our decision in Amgen Inc. v. ITC, 902 F.2d
1532 (Fed. Cir. 1990). In Amgen, the complainant
alleged that a company violated § 337 by importing
articles made by a patented process. See 19 U.S.C.
§ 1337(a)(1)(B)(ii). The Commission instituted an
investigation. Amgen, 902 F.2d at 1534. Ultimately,
however, the Commission dismissed the complaint
because the patent at issue did not contain a process
claim, which the Commission considered to be a
jurisdictional prerequisite for an investigation under
§ 1337(a)(1)(B)(ii). Id. at 1535.
On appeal in Amgen, we first addressed our
jurisdiction under 28 U.S.C. § 1295(a)(6). Interpreting
19 U.S.C. § 1337(c), we recognized that § 1337(c) “has
been interpreted as requiring a ‘final determination
decision on the merits, excluding or refusing to exclude
articles from entry’ under section 1337(d), (e), (f) or (g).”
Id. (quoting Block v. ITC, 777 F.2d 1568, 1571 (Fed.
Cir. 1985)). But instead of adopting the rigid approach
Intervenors argue for in this case, we concluded that
the Commission’s decision was “intrinsically a final
determination, i.e., a determination on the merits,” thus
making it appealable under § 1295(a)(6). Id. (emphasis
in original).
In reaching that conclusion, we carefully explained
the difference between our holding there and our
earlier holding in Block, a case in which we held that a
Commission order was not a final determination. In
Block, the Commission initiated an investigation on its

App. 8
own motion. The Commission later terminated that
investigation after the patent at issue was amended
during reexamination. See id. As we explained in
Amgen, “nothing in the termination Order [in Block]
prejudiced the Commission or any private party in a
future proceeding.” Id. Unlike in Block, however, the
Commission order in Amgen “clearly reach[ed] the
merits of [the] complaint and determinatively decide[d]
[the complainant’s] right to proceed in a section 1337
action.” Id. We further explained that “any future
action brought by [the complainant] would necessarily
raise the same issue, and would presumably be
dismissed for the same reason.” Id. at 1536.
As in Amgen, the Commission’s decision not to
institute in this case is “intrinsically a final
determination, i.e., a determination on the merits.” See
id. at 1535 (emphasis in original). Here, the
Commission declined to institute an investigation
because the claims were precluded by the FDCA and,
therefore, the complaint failed to state a cognizable
claim under § 337. See J.A 1–3. As in Amgen, this
decision “clearly reach[ed] the merits of [the] complaint
and determinatively decide[d] [Amarin’s] right to
proceed in a section 1337 action.” See id.; see also
Import Motors, Ltd., Inc. v. ITC, 530 F.2d 940, 946–47
(CCPA 1976) (analyzing the right to appeal a
Commission order by asking whether the order “has
the operative effect of a ‘final determination under
subsection (d) or (e)’” and noting that “[s]ubstance, not
form, must control”). Any future complaint brought by
Amarin alleging these same facts “would necessarily
raise the same issue” and “would presumably be
dismissed for the same reason”—i.e., for lack of a

App. 9
private right of action to enforce the FDCA. See Amgen,
902 F.2d at 1536.1 In other words, as discussed below,
as long as Amarin’s complaint is based on proving
violations of the FDCA (at least where the FDA has not
provided guidance as to whether the articles violate the
FDCA), Amarin’s claims will be precluded. The
Commission’s decision is therefore intrinsically a final
determination that effectively denies Amarin’s request
for relief under § 337(d) and (f).2
We are unpersuaded by the Intervenors’ and the
Commission’s argument that a final determination can
1

The Commission’s decision to dismiss the complaint presented a
pure question of law regarding FDCA preclusion. Based on that
holding, Amarin was in no way free to file another complaint on
the same grounds, as the dissent suggests. See Dissent at 12. Our
recognition of the possibility that Amarin’s complaint may not be
precluded in the future, under a different set of facts (i.e., where
FDA has provided guidance as to whether these particular articles
violate the FDCA) does not make the Commission’s determination
“without prejudice.” Indeed, that future possibility would not have
existed but for our ability to review and narrow the Commission’s
even broader preclusion holding through this appeal.
2

The dissent’s attempt to characterize the Commission’s decision
in this case as an order under § 1337(b), rather than as effectively
being an order under § 1337(d) or (e), cannot be reconciled with
Amgen. Amgen also did not involve a formal order under § 1337(d),
(e), (f), or (g). Regardless, and as the dissent recognizes, see Dissent
at 11–12, we held in Amgen that the substance of the
Commission’s analysis meant that it “should have dismissed on the
merits.” 902 F.2d at 1536. But a dismissal on the merits would still
not produce a formal order under § 1337(d), (e), (f), or (g). Instead,
as our predecessor court emphasized in Import Motors, what
matters is that the order “ha[s] the same operative effect, . . . as a
final determination under subsections (d) and (e). Substance, not
form, must control.” 530 F.2d at 945–46.

App. 10
be made only after institution. See Intervenors’ Br. 3;
Commission’s Br. 52. Although the decision in Amgen
occurred after institution, the court’s reasoning in that
case was not based on that procedural detail. See
Amgen, 902 F.2d at 1535. Instead, the court’s analysis
focused on the operative effect of the Commission
decision. See id.; Import Motors, 530 F.2d at 946–47
(“Substance, not form, must control.”).
The dissent makes essentially the same argument,
contending that a “final determination” can exist only
after institution. Dissent at 4–5, 7, 11. But this
approach elevates form over substance. The dissent’s
approach would require the Commission to formally
institute an investigation—which requires publication
of notice in the Federal Register—just long enough for
the Commission to issue the same dismissal order it
already issued in this case. There is no indication from
the statutory text or context that Congress intended
such rigid formality.
Because the Commission’s decision is intrinsically
a final determination on the merits that has the
operative effect of denying Amarin’s request for relief
under § 337(d) and (f), the decision is a “final
determination” under § 337(c). We therefore have
jurisdiction to review that decision under 28 U.S.C.
§ 1295(a)(6).
Having found our jurisdiction proper, we need not
address Amarin’s alternative argument for

App. 11
jurisdiction—that we have authority to compel agency
action under 5 U.S.C. § 706(1).3
B
We next address Amarin’s argument that the
Commission had a mandatory duty to institute an
investigation in this case. Amarin contends that 19
U.S.C. § 1337(b)(1) imposes a non-discretionary duty on
the Commission to institute an investigation when
presented with a complaint under oath. See
§ 1337(b)(1) (“The Commission shall investigate any
alleged violation of this section on complaint under
oath or upon its initiative.”).
The relevant statutory scheme contemplates certain
scenarios in which the Commission need not institute
an investigation. See § 1337(b)(3) (stating, for example,
that the Commission “may institute” under specified
circumstances); see also § 1330(d)(5) (stating that an
investigation shall occur if “one-half of the number of
commissioners voting agree that the investigation
should be made”). The Commission Rules also
contemplate non-institution. Rule 210.10 provides that

3

It is unclear whether Amarin is also arguing that we may review
the decision via mandamus aside from § 706(1). Indeed, Amarin
states that “[t]he judicial review provisions of the Administrative
Procedure Act have effectively displaced the need for courts to
issue writs of mandamus when asked to review agency decisions.”
Appellant’s Br. 26 (emphasis added). Regardless, to the extent
Amarin contends that some other basis for mandamus review is
warranted, Amarin has failed to explain how it would satisfy the
traditional mandamus requirements. See Cheney v. U.S. Dist.
Court for D.C., 542 U.S. 367, 380–81 (2004) (listing the three
requirements that must be satisfied before a writ may issue).

App. 12
“[t]he Commission shall determine whether the
complaint is properly filed and whether an
investigation should be instituted on the basis of the
complaint.” 19 C.F.R. § 210.10(a)(1) (emphases added).
That Rule further explains that “[i]f the Commission
determines not to institute an investigation on the
basis of the complaint, the complaint shall be
dismissed.” 19 C.F.R. § 210.10(c); see also 19 C.F.R.
§ 210.9(a) (“Upon receipt of a complaint alleging
violation of section 337 . . . [t]he Commission shall
examine the complaint for sufficiency and compliance
with the applicable sections of this chapter.”).
The question remains, then, in what circumstances
may the Commission decline to institute an
investigation? Our precedent recognizes at least one
such circumstance. See Syntex Agribusiness, Inc. v.
ITC, 659 F.2d 1038 (CCPA 1981). In Syntex, our
predecessor court held that the Commission was
correct to dismiss a complaint without instituting an
investigation where the complaint contained
insufficient factual allegations to support a
monopolization or conspiracy claim. Id. at 1044. The
court framed the issue in that case as whether the
complaint was a “‘complaint’ within the meaning of
section 337.” Id. at 1041. Noting the absence of a
definition of “complaint,” the court recognized that a
complaint must comply with then-Commission Rule
210.20, which set forth requirements for a complaint
under § 337, including a requirement that the
complaint include a statement of the facts constituting
the alleged acts of monopolization and conspiracy. Id.

App. 13
at 1042.4 The court explained that its disposition was
based on the complaint’s failure to comply with the
requirements set forth in that Commission Rule.
Although Amarin appears to raise a broader
argument regarding whether the Commission has
discretion generally not to institute an investigation,
we need not address that question here. Instead, we
simply hold, consistent with Syntex, that the
Commission may decline to institute an investigation
where a complaint fails to state a cognizable claim
under § 337.
The facts alleged as the basis for Amarin’s
complaint demonstrate that Amarin’s allegations are
based entirely on violations of the FDCA. As we explain
below, claims based on such allegations are precluded
by the FDCA, at least where the FDA has not yet
provided guidance as to whether violations of the
FDCA have occurred. Thus, under the facts of this case,
where Amarin’s complaint fails to state a cognizable
claim for relief, the Commission did not err in its
decision not to institute.
C
We next address the Commission’s holding that
Amarin’s complaint “does not allege an unfair method
of competition or unfair act cognizable under 19 U.S.C.
§ 1337(a)(1)(A), as required by the statute and the
Commission’s rules.” J.A. 1. The Commission explained
that “the Lanham Act allegations in this case are
4

The Commission Rule at issue in Syntex has since been recodified as Commission Rule 210.12.

App. 14
precluded by the Food, Drug and Cosmetic Act,” and
that “the Food and Drug Administration is charged
with the administration of the FDCA.” J.A. 1. As
explained below, we agree.
As relevant here, the FDCA authorizes the FDA to
regulate drugs and dietary supplements. Introducing a
“new drug,” 21 U.S.C. § 321(p), into interstate
commerce requires FDA approval, id. § 355(a). Dietary
supplements, however, do not require pre-market
approval.
The FDCA provides the United States with “nearly
exclusive enforcement authority.” POM Wonderful LLC
v. Coca-Cola Co., 573 U.S. 102, 109 (2014); see also 21
U.S.C. § 337(a) (“Except as provided in subsection (b),
all such proceedings for the enforcement, or to restrain
violations, of this chapter shall be by and in the name
of the United States.”); Buckman Co. v. Plaintiffs’ Legal
Comm., 531 U.S. 341, 349 n.4 (2001) (“The FDCA
leaves no doubt that it is the Federal Government
rather than private litigants who are authorized to file
suit for noncompliance with the medical device
provisions . . . .”). Private parties may not bring suits to
enforce the FDCA. POM Wonderful, 573 U.S. at 109
(citing 21 U.S.C. § 337).
Given the lack of a private right to enforce the
FDCA, other circuit courts have grappled with the
extent to which private parties’ claims under § 43(a) of
the Lanham Act are limited by the FDCA. See
PhotoMedex, Inc. v. Irwin, 601 F.3d 919 (9th Cir. 2010);
Alpharma, Inc. v. Pennfield Oil Co., 411 F.3d 934 (8th
Cir. 2005); cf. Sandoz Pharm. Corp. v. RichardsonVicks, Inc., 902 F.2d 222 (3d Cir. 1990).

App. 15
For example, in PhotoMedex, the Ninth Circuit
affirmed a grant of summary judgment in favor of a
defendant as to a Lanham Act false advertising claim
based on allegations that the defendant misrepresented
that its product had received FDA clearance. 601 F.3d
at 922. That case involved the FDCA’s 510(k) clearance
process, and the court focused heavily on the details of
that statutory scheme in reaching its holding. In short,
the defendant had received 510(k) clearance for its
earlier device, but the plaintiff argued that based on
significant changes to the device, the defendant should
have made a new 510(k) submission to obtain market
clearance for the updated product. Id. at 926. In
reaching its conclusion, the court emphasized that “[i]t
is significant that under the regulatory structure
established by the FDA for the medical devices at issue
in this case, clearance to market a given device did not
necessarily require an affirmative statement of
approval by the FDA.” Id. Further, the court explained
that even though the FDA had been aware of the
alleged need for a new clearance, the FDA had never
taken the position that the products had not been
properly cleared. In sum, the court held that “[b]ecause
the FDCA forbids private rights of action under that
statute, a private action brought under the Lanham
Act may not be pursued when, as here, the claim would
require litigation of the alleged underlying FDCA
violation in a circumstance where the FDA has not itself
concluded that there was such a violation.” Id. at 924
(emphasis added).5
5

The court limited its holding, reasoning that “we do not suggest
that the Lanham Act can never support private party claims
involving FDA approval or clearance of drugs or medical devices.”

App. 16
The Eighth Circuit employed similar reasoning in
Alpharma. 411 F.3d at 939–41. There, the district court
granted a defendant’s motion to dismiss a plaintiff’s
Lanham Act claim that was based on alleged
misrepresentation of the uses for which a drug had
been approved. Id. at 935–36. The Eighth Circuit
reversed, reasoning that because the FDA had given
guidance on the precise dispute between the parties,
the plaintiff’s claim in this particular case did not
require a “preemptive determination” of how the FDA
would interpret and enforce its own regulations. Id. at
940; see also PhotoMedex, 601 F.3d at 929
(summarizing Alpharma and noting that, there, “FDA
explicitly made clear that it had not given the
defendant’s product the affirmative approval required
for expanding its list of permissible uses” and thus “the
plaintiff could bring a Lanham Act claim based on the
defendant’s false statements in its advertisement that
the uses had been approved”).
In its complaint, Amarin includes two separate
bases for its § 337 claims. First, Amarin alleges that
respondents’ labeling or advertisements about the
articles is false or misleading, in violation of § 43(a) of
the Lanham Act, such that importation of those articles
is an “unfair act” under § 337 of the Tariff Act. See J.A.
31–56 ¶¶ 53–105 (Compl.). This claim is based on the

Id. at 924. Giving an example, the court stated that if “it was clear
that an affirmative statement of approval by the FDA was
required before a given product could be marketed and that no
such FDA approval had been granted, a Lanham Act claim could
be pursued for injuries suffered by a competitor as a result of a
false assertion that approval had been granted.” Id. at 924–25.

App. 17
allegation that labeling the products as “dietary
supplements” is literally false because the products
“cannot meet the definition of ‘dietary supplement’ in
Section 201(ff) of the FDCA.” J.A. 33 ¶ 60 (Compl.).
And, the claim is further based on the allegation that
the products “are actually unapproved ‘new drugs’
under the FDCA.” J.A. 47 (Compl.). Amarin’s complaint
relies on these alleged FDCA violations to support key
elements of its Lanham Act false-advertising claim. See
J.A. 55 ¶¶ 102–03 (applying these allegations to the
elements of a false advertising claim). In other words,
proving the Lanham Act claim in this case requires
proving violations of the FDCA.
The second claim in Amarin’s complaint alleges that
the respondents’ importation and sale of the products
constitute unfair acts or unfair methods of competition
under § 337 based on the standards set forth in the
FDCA. J.A. 56 ¶ 106; see J.A. 56–59 (Compl.). For
example, Amarin alleges that the products are
“misbranded drugs in violation of the standards set
forth in Section 502 of the FDCA, [21 U.S.C.] § 352, and
adulterated drugs, in violation of Section 501 of the
FDCA, id. § 351.” J.A. 57 ¶ 107. Every allegation
supporting this claim rests on an alleged violation of
the FDCA.
In sum, Amarin’s two § 337 claims are based on the
same factual allegations—that respondents’ products
do not meet the definition of “dietary supplement” in
the FDCA, see 21 U.S.C. § 321(ff), and are instead
unapproved “new drugs” under the FDCA. E.g., J.A.
33–34 ¶¶ 60–61; J.A. 47–49 ¶¶ 84–87; J.A. 56 ¶ 106.

App. 18
The case before us bears much resemblance to
PhotoMedex, and we consider the Ninth Circuit’s
reasoning in that case persuasive. In our case, the
alleged violations of § 337 are based entirely on—and
could not exist without—the FDCA. Because private
parties are prohibited from enforcing the FDCA, the
same concerns expressed in PhotoMedex apply here.
See PhotoMedex, 601 F.3d at 924. We note, however,
that a major concern of the court in PhotoMedex was
that proceeding with the Lanham Act claim would
“require litigation of the alleged underlying FDCA
violation in a circumstance where the FDA has not
itself concluded that there was such a violation.” Id.
The court in PhotoMedex appears to have been
concerned with adjudicating FDCA violations for the
first time via a Lanham Act claim, rather than via the
FDA. See id.; id. at 928 (noting that the court’s decision
was consistent with other decisions “refusing to allow
private actions under the Lanham Act premised on
enforcement determinations that the FDA and other
regulatory agencies did not themselves make” (emphasis
added)); see also Alpharma, 411 F.3d at 935–37;
Sandoz, 902 F.2d at 231 (noting that what the FDCA
“do[es] not create directly, the Lanham Act does not
create indirectly, at least not in cases requiring original
interpretation of these Acts or their accompanying
regulations”).
As in PhotoMedex (and unlike in Alpharma),
affirmative FDA approval is not required in the dietary
supplement context. Instead, manufacturers self-police.
And as in PhotoMedex (and unlike in Alpharma), the
FDA has not provided guidance as to whether the
products at issue in this case should be considered

App. 19
“new drugs” that require approval. Given this lack of
guidance, we see no need to go further than the court
in PhotoMedex did. We therefore hold that a
complainant fails to state a cognizable claim under
§ 337 where that claim is based on proving violations of
the FDCA and where the FDA has not taken the
position that the articles at issue do, indeed, violate the
FDCA. Such claims are precluded by the FDCA.
We note that this limited holding is consistent with
the Commission’s arguments in its briefing, which
indicated that Amarin’s claims are precluded at least
until the FDA has provided guidance as to whether the
products at issue are dietary supplements. See, e.g.,
Commission’s Br. 58 (suggesting that “Amarin is free
to file a new complaint once the FDA issues sufficient
guidance with respect to the accused products such
that the Commission is not required to interpret the
FDCA in the first instance and Amarin’s claims are
otherwise no longer precluded by the FDCA”). We also
note that the United States, as amicus, appears to seek
a broader ruling—that all such claims are precluded
regardless of whether the FDA has provided guidance.
As explained above, we need not address that broader
question here, as the FDA has not provided guidance as
to whether the products at issue properly qualify as
“dietary supplements.”
Despite Amarin’s heavy reliance on POM Wonderful
LLC v. Coca-Cola Co., 573 U.S. 102 (2014), that recent
decision does not alter our analysis. There, the plaintiff
sued a competitor under § 43 of the Lanham Act,
alleging that the label on one of the defendant’s
products was deceptive and misleading. Id. at 106. The

App. 20
product at issue was a juice blend sold with a label
featuring the words “pomegranate blueberry” more
prominently than the words “flavored blend of 5 juices.”
Id. at 106, 110. Despite the prominence of the names of
those two juices, the product actually contained just
0.3% pomegranate juice and 0.2% blueberry juice. Id.
at 110. The plaintiff alleged that this labeling (and
other features) mislead consumers into thinking that
the juice blend contained primarily pomegranate and
blueberry juices. Id. The issue in the case was whether
a private party could bring a Lanham Act claim
challenging a food label as misleading, where that food
label was regulated by the FDCA. The Ninth Circuit
held that the plaintiff’s Lanham Act claim was
precluded by the FDCA, which forbids misbranding of
food, including by misleading labeling. Id. The
Supreme Court reversed, holding instead that the
Lanham Act claim in that case was not precluded.
Amarin views POM Wonderful as rejecting the view
that the FDCA precludes Lanham Act claims. But this
reads POM Wonderful too broadly. Although POM
Wonderful held that the FDCA does not categorically
preclude a Lanham Act claim based on a product (e.g.,
a label) that is regulated by the FDCA, the court did
not open the door to Lanham Act claims that are based
on proving FDCA violations. The allegations
underlying the Lanham Act claim in POM Wonderful
did not require proving a violation of the FDCA itself.
See id. at 117 (“But POM seeks to enforce the Lanham
Act, not the FDCA or its regulations.”). This stands in
stark contrast to the allegations in our case, which are
based solely on alleged violations of the FDCA’s
requirements.

App. 21
Amarin also relies on this court’s decision in
Allergan, Inc. v. Athena Cosmetics, Inc., 738 F.3d 1350
(Fed. Cir. 2013). But Allergan was a pre-emption
case—not a preclusion case. As the Supreme Court
explained in POM Wonderful, “[i]n pre-emption cases,
the question is whether state law is pre-empted by a
federal statute, or in some instances, a federal agency
action.” POM Wonderful, 573 U.S. at 111. Meanwhile,
in cases where a cause of action under one federal
statute is alleged to be precluded by the provisions of
another federal statute, “the state-federal balance does
not frame the inquiry,” and the “‘presumption against
pre-emption’ has no force.” Id. (internal citation
omitted). In Allergan, we simply held that the FDCA
did not preempt certain state law claims based on
violations of state law requirements that paralleled
FDCA requirements. Allergan, 738 F.3d at 1354–56.
That analysis has no bearing on this case.
In short, although Amarin presents its claims as
violations of the Tariff Act, in reality those claims
constitute an attempt to enforce requirements of the
FDCA through the remedies provided under the Tariff
Act. Because private parties have no such enforcement
authority, Amarin’s allegations fail to state a
cognizable claim for relief.6

6

Although the Intervenors argue that the Commission should
receive Chevron deference for its interpretation of § 337 with
respect to the preclusion issue in this case, see Intervenors’ Br.
54–68, the Commission does not. The United States, as amicus,
also does not argue in favor of Chevron deference.

App. 22
III
For the foregoing reasons, we hold that we have
appellate jurisdiction to review the Commission’s
decision not to institute an investigation in this case.
Exercising that jurisdiction, we hold that the
Commission correctly held that Amarin’s complaint
fails to present a cognizable claim under § 337. The
decision is therefore affirmed and the petition for
mandamus is denied as moot.
AFFIRMED
WALLACH, Circuit Judge, dissenting.
It is axiomatic that “the power which [C]ongress
possess[es] to create [c]ourts of inferior jurisdiction,
necessarily implies the power to limit the jurisdiction
of those [c]ourts to particular objects.” United States v.
Hudson, 11 U.S. (7 Cranch) 32, 33 (1812); see Lockerty
v. Phillips, 319 U.S. 182, 187 (1943) (explaining that
Congress may “withhold[] jurisdiction from [lower
courts] in the exact degrees and character which to
Congress may seem proper for the public good”
(emphasis added) (internal quotation marks and
citations omitted)). The statute is clear: Congress
limited our subject-matter jurisdiction “to review the
final determinations of the United States International
Trade Commission [(‘ITC’)] . . . made under [19 U.S.C.
§ 1337 (2012)1],” 28 U.S.C. § 1295(a)(6) (2012)

1

Section 1337 addresses, inter alia, “[u]nfair methods of
competition and unfair acts in the importation of articles . . . into
the United States.” 19 U.S.C. § 1337(a)(1)(A). Section 1337 is part

App. 23
(emphasis added), by defining an ITC “final
determination” as a determination made “under
subsection (d), (e), (f), or (g) of [§ 1337],” 19 U.S.C.
§ 1337(c) (emphasis added).
Although I agree with the majority’s conclusion that
the ITC did not err in declining to institute an
investigation into the complaint under § 1337 brought
by Appellants-Petitioners Amarin Pharma, Inc. and
Amarin Pharmaceuticals Ireland Ltd. (together,
“Amarin”), see J.A. 4–114 (Complaint), I disagree with
the majority’s approach, for it fails to give due respect
to Congress’s choice to limit our appellate jurisdiction.
As the ITC’s decision not to institute was made
pursuant to § 1337(b), I believe that we lack appellate
jurisdiction; however, I would instead exercise
mandamus jurisdiction and conclude that Amarin has
not demonstrated that the “extraordinary remedy” of
issuing a writ of mandamus is appropriate. Gulfstream
Aerospace Corp. v. Mayacamas Corp., 485 U.S. 271, 289
(1988). Because I would dismiss Amarin’s appeal and
deny its petition for a writ of mandamus, I respectfully
dissent.
DISCUSSION
I. Congress Limited Our Appellate Jurisdiction
Congress conferred upon us exclusive jurisdiction
“to review the final determinations of the [ITC] relating
to unfair practices in import trade, made under
[§ 1337].” 28 U.S.C. § 1295(a)(6). Relevant here,
of the Tariff Act of 1930 (“Tariff Act”). See Pub. L. No. 71-361,
§ 337, 46 Stat. 590, 703–04 (codified at 19 U.S.C. §§ 1304 et seq.).

App. 24
§ 1337(c) employs the term “final determination” and
states that “[a]ny person adversely affected by a final
determination of the [ITC] under subsection (d), (e), (f),
or (g) of [§ 1337] may appeal such determination . . . to
the United States Court of Appeals for the Federal
Circuit.” In interpreting these statutes, we have said
that “[f]inal determinations appealable under
§ 1295(a)(6) are specified in § 1337(c).” Crucible
Materials Corp. v. U.S. Int’l Trade Comm’n, 127 F.3d
1057, 1060 (Fed. Cir. 1997).
II. We Lack Appellate Jurisdiction to Review the
ITC’s Decision Not to Institute an Investigation
Amarin filed its Complaint, which alleges, inter
alia, that Royal DSM NV et al. (“Intervenors”) have
“falsely labeled[] and/or promoted for use” synthetically
produced omega-3 products (“the Accused Products”),
labelled “as dietary supplements,” even though they
“are actually unapproved new drugs under the Federal
Food, Drug and Cosmetic Act (‘FDCA’),” 21 U.S.C.
§§ 301 et seq. (2012), thereby violating “Section 43(a) of
the Lanham Act, 15 U.S.C. § 1125(a) [(2012)], and the
standards established by the FDCA,” J.A. 9 (internal
quotation marks omitted). The Commissioners of the
ITC voted not to institute an investigation, see J.A. 681,
and sent a letter to Amarin’s counsel notifying it of that
decision, J.A. 1–2; see 19 C.F.R. § 210.10(c) (2018) (“If
the [ITC] determines not to institute an investigation
on the basis of the complaint, the complaint shall be
dismissed, and the complainant and all proposed
respondents will receive written notice of the [ITC]’s
action and the reason(s) therefor.”). The ITC stated it
“has determined not to institute an investigation based

App. 25
on the [C]omplaint . . . and has dismissed the
[C]omplaint.” J.A. 1. According to the ITC, the
“[C]omplaint does not allege an unfair method of
competition or an unfair act cognizable under . . .
§ 1337(a)(1)(A), as required by the statute and the
[ITC]’s rules.” J.A. 1. The ITC reasoned “that the
Lanham Act allegations in this case are precluded by
the [FDCA],” and that “the Food and Drug
Administration [(‘FDA’)] is charged with the
administration of the FDCA.” J.A. 1.
The ITC’s Decision Not to Institute is not an
appealable final determination. An appealable final
determination is an ITC determination made “under
subsection (d), (e), (f), or (g) of [§ 1337].” 19 U.S.C.
§ 1337(c). Subsections (d)–(g) pertain to determinations
on exclusion orders, see id. § 1337(d)–(e), (g), and ceaseand-desist orders, see id. § 1337(f)–(g).2 Amarin
contends that the ITC’s Decision Not to Institute is a
final determination under either § 1337(d) or (f). See
Appellants’ Br. 20; see Oral Arg. at 1:37–55,
http://oralarguments.cafc.uscourts.gov/default.aspx?fl
=2018-1247.mp3 (disclaiming reliance on § 1337(e) or
(g)). Each subsection contemplates determinations
made by the ITC post-initiation of an investigation.
Subsection (d) explicitly provides that the ITC’s
determination to exclude articles will be made “as a
result of an investigation.” 19 U.S.C. § 1337(d)(1)
(emphasis added); see id. § 1337(c) (directing that a
“determination under subsection (d) or (e) . . . shall be
2

Section 1337(g) governs determinations rendered pursuant to a
default and thereby relates to both exclusion and cease-and-desist
orders. See 19 U.S.C. § 1337(g)(1)–(2).

App. 26
made on the record after notice and opportunity for a
hearing”). Subsection (f) sets forth that the ITC’s
determination to issue a cease-and-desist order is “[i]n
addition to, or in lieu of, taking action” pursuant to
other statutory provisions that involve an initiated
investigation, i.e., taking action “under subsection (d),”
which involves a completed investigation, “or
[subsection] (e),” id. § 1337(f)(1), which covers the ITC’s
determination to exclude articles made “during the
course of an investigation,” id. § 1337(e)(1).
Here, the ITC neither initiated an investigation,
decided whether a violation of § 1337 occurred, nor
determined whether to issue an exclusion or cease-anddesist order. See J.A. 1–2. In Block v. United States
International Trade Commission, we held that the
“ITC’s decision to terminate its investigation as ‘abated’
[was not] an appealable ‘final determination.’” 777 F.2d
1568, 1570 (Fed. Cir. 1985); see id. at 1571. The ITC
terminated the investigation because, following the
U.S. Patent and Trademark Office’s reexamination
relating to an allegedly-infringed patent, the
reexamined claims were substantively changed. Id. at
1570. There, the ITC’s termination decision “did not
rule on the merits,” so its “action could not intrinsically
be a final determination within the meaning of . . .
§ 1337(c) because it was not a decision to exclude or
refuse to exclude articles from entry under . . .
§ 1337(d), (e), or (f).” Id. at 1571 (emphasis added).
Similarly, the Decision Not to Institute did not render
a decision on whether to exclude the allegedly
mislabeled products or issue a cease-and-desist order.
See J.A. 1–2. The ITC refused institution of an

App. 27
investigation and dismissed the Complaint, without
reaching the requested relief. See J.A. 1–2.
Rather than placing the ITC’s authority to
investigate in subsections (d), (e), (f), or (g), of § 1337,
Congress located that authority in subsection (b).
Section 1337(b) authorizes the ITC to “investigate any
alleged violation of [§ 1337] on complaint under oath or
upon its initiative,” 19 U.S.C. § 1337(b)(1), and
contemplates instances where the ITC “shall
terminate, or not institute, any investigation” or
“suspend its investigation,” id. § 1337(b)(3) (emphasis
added); see VastFame Camera, Ltd. v. Int’l Trade
Comm’n, 386 F.3d 1108, 1112, 1113 (Fed. Cir. 2004)
(explaining that § 1337(b) “gives the [ITC] general
authority to investigate violations of the statute”).
Congress indicated its intent to make § 1337(b)
determinations, such as the Decision Not to Institute,
non-appealable through its exclusion of subsection (b)
from the list of final determinations in § 1337(c). See
Marx v. Gen. Revenue Corp., 568 U.S. 371, 392 (2013)
(“[T]he expressio unius, exclusio alterius canon, . . .
instructs that when Congress includes one possibility
in a statute, it excludes another by implication.”); cf.
United States v. Erika, 456 U.S. 201, 207 (1982) (“In
the context of the statute’s precisely drawn provisions,
this omission provides persuasive evidence that
Congress deliberately intended to foreclose further
review of such claims.” (emphasis added)).3 Had

3

Case law, while not expressly deciding the issue, supports this
conclusion. See BASR P’ship v. United States, 795 F.3d 1338, 1342
(Fed. Cir. 2015) (consulting case law to construe a statute). In
Syntex Agribusiness, Inc. v. United States International Trade

App. 28
Congress intended to make non-institution decisions
appealable, it merely needed to include them in its list
of determinations that would be considered final in
§ 1337(c). Given that Congress decided not to adopt this
“obvious alternative,” “the natural implication is that
[it] did not intend” for such decisions under § 1337(b) to
be appealable. Lozano v. Montoya Alvarez, 572 U.S. 1,
16 (2014). “We cannot revisit that choice.” Id.
The statutory context further reveals that Congress
did not contemplate appealability of an ITC noninstitution decision. See Digital Realty Tr., Inc. v.
Somers, 138 S. Ct. 767, 777 (2018) (acknowledging that
courts may rely upon a statute’s “purpose and design”
to “corroborate” their understanding of the statutory
text); Block v. Cmty. Nutrition Inst., 467 U.S. 340, 349
(1984) (“[T]he presumption favoring judicial review of
administrative action may be overcome by inferences of
intent drawn from the statutory scheme as a whole.”).
In fact, § 1337(b)(1) covers the procedures for
commencing and conducting an investigation, and
details that, “[u]pon commencing any such
investigation, the [ITC] shall publish notice thereof in
the Federal Register.” Moreover, “the [ITC] shall,
within 45 days after an investigation is initiated,
Commission, the ITC decided not to institute an investigation
pursuant to § 1337 and accordingly dismissed a complaint. See 659
F.2d 1038, 1040 (CCPA 1981). The complainant first petitioned our
predecessor court for a writ of mandamus based on the ITC’s
refusal to investigate and later filed an appeal from the ITC’s
decision. Id. at 1041. Our predecessor court, by separate order,
“dismissed [the complainant’s] . . . appeal on the ground that there
had been no final determination by [the] ITC, which is essential for
jurisdiction of the court.” Id. (emphases added).

App. 29
establish a target date for its final determination.” 19
U.S.C. § 1337(b)(1) (emphases added). Through this
language, Congress established two separate types of
ITC determinations—a decision whether to institute an
investigation and, separately, a final determination,
i.e., those made under subsections (d), (e), (f), or
(g)—and clarified that a final determination is
rendered after an institution decision. See id.
Similarly, § 1337(j) provides that, when the ITC
“determines that there is a violation of [§ 1337] . . . or
. . . [ha]s reason to believe that there is such a
violation,” it shall, inter alia, “transmit to the President
a copy of such determination and the action taken
under subsection (d), (e), (f), (g), or (i)[4] of [§ 1337].” Id.
§ 1337(j)(1), (j)(1)(B). The President then has the option
“for policy reasons” to “disapprove[ of] such
determination” within sixty days, id. § 1337(j)(2), and,
if not disapproved or if approved, the “determination
shall become final,” id. § 1337(j)(4) (emphasis added).
Such determinations that are submitted to the
President become final well after an investigation is
complete. See id. § 1337(b), (j). Tellingly, Congress has
conferred jurisdiction explicitly over certain
administrative decisions not to institute an
investigation, elsewhere in the Tariff Act. Congress
explained that “an interested party . . . may commence
an action in the United States Court of International
Trade [(‘CIT’)]” challenging “a determination by [the

4

Section 1337(i) authorizes the ITC, “[i]n addition to taking action
under subsection (d),” to “issue an order providing that any article
imported in violation of the provisions of [§ 1337] be seized and
forfeited to the United States” in certain situations.

App. 30
U.S. Department of Commerce] . . . not to initiate an
investigation” related to antidumping and
countervailing duty proceedings. 19 U.S.C.
§ 1516a(a)(1), (a)(1)(A) (emphasis added); see 28 U.S.C.
§ 1581(c) (conferring the CIT with “exclusive
jurisdiction” over actions commenced pursuant to
§ 1516a). Congress did not confer such jurisdiction in
§ 1337.
The legislative history does not support the
majority’s conclusion. See Thunder Basin Coal Co. v.
Reich, 510 U.S. 200, 207, 209–12 (1994) (consulting
legislative history for statutory interpretation).
Although the original version of § 1337 did not define
an ITC final determination by reference to specific
subsections, see Tariff Act § 337, 46 Stat. at 703–04,
Congress amended § 1337(c) and added that “[a]ny
person adversely affected by a final determination of
the [ITC] under subsection (d) or (e) may appeal such
determination,” Trade Act of 1974, Pub. L. No. 93-618,
§ 341(a), 88 Stat. 1978, 2054.5 When Congress inserted
this language, the Senate Finance Committee
recognized it was “extend[ing] the right to judicial
review of final [ITC] determinations.” S. Rep. No. 931298, at 197 (1974) (Conf. Rep.). It provided that “[b]y
final determination, as used in this section, the
Committee means a[n ITC] determination which has
been referred to the President under [the predecessor to
current § 1337(j)], and has been approved by the

5

Congress later amended this language to include additional
subsections under the definition of an ITC final determination.
See, e.g., Trade Agreements Act of 1979, Pub. L. No. 96-39,
§ 1105(c), 93 Stat. 144, 311 (adding subsection (f)).

App. 31
President or has not been disapproved . . . after referral
of the determination.” Id. (emphases added). This
appears to be the only time in the legislative history
Congress expounded its understanding of the term
final determination in § 1337. Nowhere does Congress
equate a non-institution decision to a final
determination. See id.
While this court has acknowledged that § 1337
“provides for judicial review of both positive and
negative determinations,” we should be careful not to
expand the scope of the term final determination to
include determinations beyond those contemplated by
Congress. Amgen, Inc. v. U.S. Int’l Trade Comm’n, 902
F.2d 1532, 1535 (Fed. Cir. 1990) (footnote omitted); see
Imp. Motors, Ltd. v. U.S. Int’l Trade Comm’n, 530 F.2d
940, 945 (CCPA 1976) (explaining that § 1337(c)
“indicate[s] an intent to provide appeal of such an
unfavorable decision”). I find no support for the
proposition that Congress intended a non-institution
decision to be an appealable final determination.
Accordingly, I do not believe that the ITC’s Decision
Not to Institute is a final determination under
§ 1337(c).
Apparently recognizing that it is not a final
determination as defined by § 1337(c), the majority
sweeps the ITC’s Decision Not to Institute under our
jurisdiction by holding that it is intrinsically a final
determination, based on Amgen. See Maj. Op. 6–9. In
Amgen, the ITC dismissed a complaint for lack of
subject-matter jurisdiction because the patent-at-issue
did “not contain any process patent claims,” which the
ITC considered “a jurisdictional prerequisite.” 902 F.2d

App. 32
at 1535. We exercised appellate jurisdiction and
vacated and remanded the ITC’s dismissal,
determining that the dismissal “should have been
phrased as a dismissal on the merits.” Id. at 1537.6
There, the ITC’s determination that the patent’s claims
“do not, in fact, cover a process [as required by statute]
. . . clearly reache[d] the merits of [the] complaint and
determinatively decide[d the complainant’s] right to
proceed in a [§] 1337 action.” Id. at 1535. The court
recognized that “the jurisdictional requirements of [§]
1337 mesh with the factual requirements necessary to
prevail on the merits,” and explained that “the fact that
[the complainant] was later unable to sustain these
allegations [regarding whether its patent covered a
process] is not material to the issue of jurisdiction.” Id.
at 1536.
The majority’s reliance on Amgen is misplaced.
Amgen did not involve a determination made pursuant

6

Amgen’s statement that “when a decision is intrinsically a final
determination, i.e., a determination on the merits, then that
decision is appealable under [§] 1337(c),” traces back to our
predecessor court’s decision in Import Motors. Amgen, 902 F.2d at
1535 (emphasis omitted) (citing, inter alia, 530 F.2d at 944). Even
under this interpretation of “final determination,” the ITC’s
determination must be made “under subsection (d), (e), (f), or (g)”
because the statutory language cabins the types of final
determinations that are appealable. 19 U.S.C. § 1337(c); see Import
Motors, 530 F.2d at 944 (recounting that an earlier version of
§ 1337, “[s]trictly interpreted[,] . . . refers to a final administrative
decision on the merits, excluding or refusing to exclude articles
from entry under subsection (d) or (e)”). Amgen does not expand
our jurisdiction to determinations made under different
subsections of § 1337, nor could it. See Lozano, 572 U.S. at 16
(recognizing that we are bound by Congress’s choice).

App. 33
to § 1337(b); instead, the ITC in that case “conduct[ed]
a full investigation” before dismissing the complaint.
Id. at 1534. The majority dismisses this fact by stating
“the court’s reasoning in [Amgen] was not based on that
procedural detail” but “focused on the operative effect
of the [ITC] decision.” Maj. Op. 8. That is hardly a
procedural detail; this fact, coupled with § 1337(c)’s
precise definition of a final determination,
fundamentally limits Amgen’s holding. See 19 U.S.C.
§ 1337(c). The majority criticizes “this approach [as]
elevat[ing] form over substance.” Maj. Op. 9. There is
a “general principle that agencies with statutory
enforcement responsibilities enjoy broad discretion in
allocating investigative and enforcement resources.”
Torrington Co. v. United States, 68 F.3d 1347, 1351
(Fed. Cir. 1995). The majority fails to give due respect
to Congress’s choice, thereby placing “this court in the
position of routinely second-guessing the [ITC]’s
decisions [on non-institution] . . . , a role for which [we]
are ill-suited and one that could be quite disruptive of
[the ITC]’s effort to establish enforcement priorities.”
Id.
In addition, Amgen determined that the ITC
improperly characterized its dismissal as jurisdictional
on the process patent claim issue, but we explained
that the substance of its analysis meant it “should have
dismissed on the merits.” 902 F.2d at 1536 (footnote
omitted). By contrast, the ITC’s two-page Decision Not
to Institute, which dismissed on jurisdictional grounds,
does not purport to, nor in fact does, reach the merits
of Amarin’s Complaint; rather, it recognizes that the
FDCA vests the FDA with primacy over such claims.
See J.A. 1–2. Amarin is not barred from seeking relief;

App. 34
for instance, the ITC did not find that Amarin failed to
“pro[ve] . . . an element of the cause of action,” such as
finding the Intervenors did not falsely label their
accused products and therefore did not commit an
unfair act under § 1337(a). Engage Learning, Inc. v.
Salazar, 660 F.3d 1346, 1354 (Fed. Cir. 2011) (citation
omitted); see Block, 777 F.2d at 1571 (dismissing for
lack of appellate jurisdiction where the ITC did not
make a “finding as to whether . . . § 1337 was
violated”); J.A. 1–2. As in Block, the ITC’s Decision Not
to Institute is not “the equivalent of a final
determination,” as it was “without prejudice,” because
it did not make findings on the merits, and Amarin is
“free to” file another complaint. 777 F.2d at 1571; see
id. (rejecting the argument that the ITC’s “order . . .
involved the denial of substantive rights”); Amgen, 902
F.2d at 1535 (distinguishing Block and recognizing
there that the court “found the lack of any findings by
the [ITC] to be critical; nothing in the termination
[o]rder prejudiced the [ITC] or any private party in a
future proceeding” (emphasis added) (citation
omitted)). Indeed, the ITC represents, on appeal, that
its dismissal is “without prejudice.” Appellee’s Br. 57.
The ITC notes that “Amarin is free to file a new
complaint once the FDA issues sufficient guidance with
respect to the [A]ccused [P]roducts such that the [ITC]
is not required to interpret the FDCA in the first
instance and Amarin’s claims are otherwise no longer
precluded by the FDCA.” Id. at 58 (footnote omitted);
see Imp. Motors, 530 F.2d at 947 & n.13 (relying on an
ITC representation made on appeal regarding whether
a party could participate in the second stage of a § 1337
investigation). The majority implicitly recognizes that
Amarin may eventually re-file. See Maj. Op. 7–8 (“[A]s

App. 35
long as Amarin’s [C]omplaint is based on proving
violations of the FDCA (at least where the FDA has not
provided guidance as to whether the articles violate the
FDCA), Amarin’s claims will be precluded.” (emphasis
added)).7 Accordingly, I conclude that the ITC’s
Decision Not to Institute is not an appealable final
determination within the meaning of § 1337(c).
III. We Should Exercise Mandamus Jurisdiction and
Deny Amarin’s Petition
Intervenors argue that we lack mandamus
jurisdiction to review Amarin’s Petition, see
Intervenors’ Br. 34–37, because we may not “use
mandamus to obtain jurisdiction over agency decisions
otherwise beyond [our] reach,” id. at 36. Amarin and
the ITC contend that we have mandamus jurisdiction.
See Appellants’ Br. 25–27; Appellee’s Br. 51–52. I agree
with Amarin and the ITC.
Pursuant to the All Writs Act, we “may issue all
writs necessary or appropriate in aid of” our
jurisdiction. 28 U.S.C. § 1651(a). Therefore, our
“authority to issue writs of mandamus is restricted by
statute to those cases in which the writ is in aid of
[appellate] jurisdiction.” Roche v. Evaporated Milk
Ass’n, 319 U.S. 21, 25 (1943). “The authority is not
limited to issuance of the writ where the court already
had jurisdiction on appeal; rather, the authority

7

Because the dismissal is without prejudice and Amarin can refile, the majority need not be concerned that the ITC would
unnecessarily be required “to formally institute . . . just long
enough . . . to issue the same dismissal order it already issued in
this case.” Maj. Op. 9.

App. 36
extends to those cases which are within its appellate
jurisdiction although no appeal has been perfected.” In
re Princo Corp., 478 F.3d 1345, 1351 (Fed. Cir. 2007)
(internal quotation marks and citation omitted).
I believe we have jurisdiction to consider Amarin’s
Petition, which seeks mandamus relief. Section 1295(a)
gives us “exclusive jurisdiction . . . (6) to review the
final determinations of the [ITC] . . . made under
[§ 1337].” See 19 U.S.C. § 1337(c) (defining “a final
determination”). If the ITC were to erroneously refuse
to initiate an investigation, we might consequently be
divested of appellate jurisdiction over a matter which
we should have had jurisdiction following ITC’s
institution and final determination. See id.; 28 U.S.C.
§ 1295(a)(6). Review over such matters is necessary as
an exercise of “limited judicial power to preserve th[is]
court’s jurisdiction.” FTC v. Dean Foods Co., 384 U.S.
597, 604 (1966). Amarin’s Petition asks whether the
ITC is required to initiate an investigation under the
governing statute. See, e.g., Appellants’ Br. 38 (“The
Tariff Act imposes a non-discretionary duty on the
[ITC] to institute investigations into alleged unfair
trade practices and methods of competition.”); see id. at
39 (relying on § 1337(b)). Accordingly, we retain
mandamus jurisdiction, which, under these
circumstances, is “necessary to protect [our]
prospective jurisdiction.” Telecomms. Research &
Action Ctr. v. FCC, 750 F.2d 70, 76 (D.C. Cir. 1984);
see, e.g., Syntex, 659 F.2d at 1041 (considering, but
ultimately denying, a petition for writ of mandamus
where petitioner sought “to compel [the] ITC to
institute an investigation”); cf. In re Cypress
Semiconductor Corp., 321 F. App’x 964, 965 (Fed. Cir.

App. 37
2009) (exercising jurisdiction over, but ultimately
denying, a petition for writ of mandamus seeking to
compel the ITC “to halt its investigation”).
Heckler v. Chaney does not require a different
result. See 470 U.S. 821 (1985); see also Intervenors’
Br. 26–27, 35 (citing Heckler to argue the ITC’s
Decision Not to Institute is immune from judicial
review). Although Heckler held that “an agency’s
decision not to take enforcement action should be
presumed immune from judicial review,” 470 U.S. at
832, the Supreme Court did not address “a refusal by
the agency to institute proceedings based solely on the
belief that it lacks jurisdiction,” id. at 833 n.4, or a
“decision [that] is predicated solely on the agency’s
interpretation of a statute,” Int’l Union, United Auto.,
Aerospace & Agric. Implement Workers of Am. v. Brock,
783 F.2d 237, 245 n.10 (D.C. Cir. 1986). However, as
discussed above, the Petition challenges the ITC’s
interpretation of § 1337 and the FDCA, see Appellants’
Br. 38–39, 50, and the ITC refused to institute because
it lacked jurisdiction over Amarin’s Complaint, see J.A.
1. Thus, I would exercise mandamus jurisdiction over
Amarin’s Petition, but agree with the majority’s
conclusion that Amarin has failed to demonstrate that
it is entitled to the extraordinary relief of mandamus.
See Maj. Op. 9 n.3, 9–18.8
8

To the extent there remains a question about whether we have
mandamus jurisdiction, the ITC’s failure to institute an
investigation would not evade judicial review. Instead, the
Administrative Procedure Act (“APA”), 60 Stat. 237 (1946) (codified
in scattered sections of 5 U.S.C. (2012)), provides that “[a] person
. . . adversely affected” by “final agency action[s] for which there is
no other adequate remedy in a court” may seek review of that

App. 38
CONCLUSION
Through § 1337(c), Congress expressly defined a
final determination of the ITC and thereby precisely
drew the limits of our appellate jurisdiction. The
majority disregards the text of the statute and
Congress’s intent by holding that a § 1337(b) noninstitution determination is appealable, even though
Congress expressly defined a final determination as
one made under § 1337(d)–(g). Because I believe we
must follow Congress’s directive, I respectfully dissent.

action, 5 U.S.C. §§ 702, 704. Under this type of action, a reviewing
court may “compel agency action unlawfully withheld,” id. § 706(1),
for example the ITC’s failure to institute an investigation.
Therefore, if appellate and mandamus jurisdiction are lacking in
this court, Amarin may be able to raise an APA challenge in
district court. See Norton v. S. Utah Wilderness All., 542 U.S. 55,
64 (2004) (holding “a claim under § 706(1) can proceed only where
a plaintiff asserts that an agency failed to take a discrete agency
action that it is required to take”). It is useful to note that § 1337(c)
expressly contemplates APA review of certain types of
determinations. See 19 U.S.C. § 1337(c) (stating that ITC
“determinations under subsections (d), (e), (f), and (g) . . . with
respect to its findings on the public health and welfare, competitive
conditions in the United States economy, the production of like or
directly competitive articles in the United States, and United
States consumers, the amount and nature of bond, or the
appropriate remedy shall be reviewable in accordance with [§] 706”
and “[d]eterminations . . . under subsections (e), (f), and (j) . . . with
respect to forfeiture of bonds and under subsection (h) . . . with
respect to the imposition of sanctions for abuse of discovery or
abuse of process shall also be reviewable in accordance with [§]
706”).

App. 39

APPENDIX B

UNITED STATES INTERNATIONAL TRADE
COMMISSION
WASHINGTON, D.C. 20436
October 27, 2017
Jeffrey M. Telep, Esq.
KING & SPALDING LLP
1700 Pennsylvania Avenue, NW
Suite 200
Washington, DC 20006-4706
Re:

Complaint Filed by Amarin Pharma, Inc. and
Amarin Pharmaceuticals Ireland Ltd.
Concerning Certain Synthetically Produced,
Predominantly EPA Omega-3 Products in Ethyl
Ester or Re-esterified Triglyceride Form (Docket
No. 3247)

Dear Mr. Telep:
Under Commission Rules 210.9, 210.10 and
210.12(a)(2), (3) and (8), 19 C.F.R. §§ 210.9, 210.10,
210.12(a)(2), (3) and (8), the Commission has
determined not to institute an investigation based on

App. 40
the complaint filed on behalf of Amarin Pharma, Inc.
and Amarin Pharmaceuticals Ireland Ltd. (collectively
“Amarin”) concerning Certain Synthetically Produced,
Predominantly EPA Omega-3 Products in Ethyl Ester
or Re-esterified Triglyceride Form, and has dismissed
the complaint.
Amarin’s complaint does not allege an unfair
method of competition or an unfair act cognizable
under 19 U.S.C. § 1337(a)(1)(A), as required by the
statute and the Commission’s rules. The Commission
notes that the Lanham Act allegations in this case are
precluded by the Food, Drug and Cosmetic Act
(“FDCA”). The Commission also notes that the Food
and Drug Administration is charged with the
administration of the FDCA.
Documents relating to this institution
determination, including comments from the
complainant, proposed respondents, and the public, can
be found on the Commission’s Electronic Document
Information System (EDIS) under Docket Number
3247.
Sincerely,
/s/ Lisa R. Barton
Lisa R. Barton
Secretary to the Commission
cc: Proposed respondents

App. 41

UNITED STATES INTERNATIONAL TRADE
COMMISSION
WASHINGTON, DC 20436
CO84-PP-001
October 27, 2017

CONCURRING MEMORANDUM
TO:

THE SECRETARY1

FROM:

Commissioner Meredith M. Broadbent
MMB

SUBJECT: Complaint of Amarin Pharma, Inc.
concerning Certain Synthetically
Produced, Predominantly EPA Omega-3
Products in Ethyl Ester or Re-Esterified
Triglyceride Form (Docket No. 3247)
Commissioner Broadbent concurs with the
Commission’s finding that Amarin’s complaint does not
allege an unfair method of competition or an unfair act

1

This is a public document to be filed in EDIS.

App. 42
under section 337(a)(1)(A) of the Tariff Act of 1930, as
amended, 19 U.S.C. § 1337(a)(1)(A). She notes,
however, that she does not reach the issue of whether
properly pleaded claims based on the Food, Drug, and
Cosmetic Act may be cognizable under section
337(a)(1)(A).

App. 43

APPENDIX C
15 U.S.C. § 1125. False designations of origin,
false descriptions, and dilution forbidden
(a) Civil action
(1) Any person who, on or in connection with any
goods or services, or any container for goods, uses in
commerce any word, term, name, symbol, or device,
or any combination thereof, or any false designation
of origin, false or misleading description of fact, or
false or misleading representation of fact, which-(A) is likely to cause confusion, or to cause
mistake, or to deceive as to the affiliation,
connection, or association of such person with
another person, or as to the origin, sponsorship,
or approval of his or her goods, services, or
commercial activities by another person, or
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial
activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be damaged
by such act.
(2) As used in this subsection, the term “any
person” includes any State, instrumentality of a
State or employee of a State or instrumentality of a

App. 44
State acting in his or her official capacity. Any
State, and any such instrumentality, officer, or
employee, shall be subject to the provisions of this
chapter in the same manner and to the same extent
as any nongovernmental entity.
(3) In a civil action for trade dress infringement
under this chapter for trade dress not registered on
the principal register, the person who asserts trade
dress protection has the burden of proving that the
matter sought to be protected is not functional.
(b) Importation
Any goods marked or labeled in contravention of the
provisions of this section shall not be imported into the
United States or admitted to entry at any customhouse
of the United States. The owner, importer, or consignee
of goods refused entry at any customhouse under this
section may have any recourse by protest or appeal
that is given under the customs revenue laws or may
have the remedy given by this chapter in cases
involving goods refused entry or seized.
(c) Dilution by blurring; dilution by tarnishment
(1) Injunctive relief
Subject to the principles of equity, the owner of a
famous mark that is distinctive, inherently or
through acquired distinctiveness, shall be entitled
to an injunction against another person who, at any
time after the owner’s mark has become famous,
commences use of a mark or trade name in
commerce that is likely to cause dilution by blurring
or dilution by tarnishment of the famous mark,

App. 45
regardless of the presence or absence of actual or
likely confusion, of competition, or of actual
economic injury.
(2) Definitions
(A) For purposes of paragraph (1), a mark is
famous if it is widely recognized by the general
consuming public of the United States as a
designation of source of the goods or services of
the mark’s owner. In determining whether a
mark possesses the requisite degree of
recognition, the court may consider all relevant
factors, including the following:
(i) The duration, extent, and geographic
reach of advertising and publicity of the
mark, whether advertised or publicized by
the owner or third parties.
(ii) The amount, volume, and geographic
extent of sales of goods or services offered
under the mark.
(iii) The extent of actual recognition of the
mark.
(iv) Whether the mark was registered under
the Act of March 3, 1881, or the Act of
February 20, 1905, or on the principal
register.
(B) For purposes of paragraph (1), “dilution by
blurring” is association arising from the
similarity between a mark or trade name and a
famous mark that impairs the distinctiveness of

App. 46
the famous mark. In determining whether a
mark or trade name is likely to cause dilution by
blurring, the court may consider all relevant
factors, including the following:
(i) The degree of similarity between the
mark or trade name and the famous mark.
(ii) The degree of inherent or acquired
distinctiveness of the famous mark.
(iii) The extent to which the owner of the
famous mark is engaging in substantially
exclusive use of the mark.
(iv) The degree of recognition of the famous
mark.
(v) Whether the user of the mark or trade
name intended to create an association with
the famous mark.
(vi) Any actual association between the mark
or trade name and the famous mark.
(C) For purposes of paragraph (1), “dilution by
tarnishment” is association arising from the
similarity between a mark or trade name and a
famous mark that harms the reputation of the
famous mark.
(3) Exclusions
The following shall not be actionable as dilution by
blurring or dilution by tarnishment under this
subsection:

App. 47
(A) Any fair use, including a nominative or
descriptive fair use, or facilitation of such fair
use, of a famous mark by another person other
than as a designation of source for the person’s
own goods or services, including use in
connection with-(i) advertising or promotion that permits
consumers to compare goods or services; or
(ii) identifying and parodying, criticizing, or
commenting upon the famous mark owner or
the goods or services of the famous mark
owner.
(B) All forms of news reporting and news
commentary.
(C) Any noncommercial use of a mark.
(4) Burden of proof
In a civil action for trade dress dilution under this
chapter for trade dress not registered on the
principal register, the person who asserts trade
dress protection has the burden of proving that-(A) the claimed trade dress, taken as a whole, is
not functional and is famous; and
(B) if the claimed trade dress includes any mark
or marks registered on the principal register, the
unregistered matter, taken as a whole, is famous
separate and apart from any fame of such
registered marks.

App. 48
(5) Additional remedies
In an action brought under this subsection, the
owner of the famous mark shall be entitled to
injunctive relief as set forth in section 1116 of this
title. The owner of the famous mark shall also be
entitled to the remedies set forth in sections 1117(a)
and 1118 of this title, subject to the discretion of the
court and the principles of equity if-(A) the mark or trade name that is likely to
cause dilution by blurring or dilution by
tarnishment was first used in commerce by the
person against whom the injunction is sought
after October 6, 2006; and
(B) in a claim arising under this subsection-(i) by reason of dilution by blurring, the
person against whom the injunction is sought
willfully intended to trade on the recognition
of the famous mark; or
(ii) by reason of dilution by tarnishment, the
person against whom the injunction is sought
willfully intended to harm the reputation of
the famous mark.
(6) Ownership of valid registration a complete
bar to action
The ownership by a person of a valid registration
under the Act of March 3, 1881, or the Act of
February 20, 1905, or on the principal register
under this chapter shall be a complete bar to an

App. 49
action against that person, wit
mark, that--

respect to that

(A) is brought by another person under the
common law or a statute of a State; and
(B)(i) seeks to prevent dilution by blurring or
dilution by tarnishment; or
(ii) asserts any claim of actual or likely
damage or harm to the distinctiveness or
reputation of a mark, label, or form of
advertisement.
(7) Savings clause
Nothing in this subsection shall be construed to
impair, modify, or supersede the applicability of the
patent laws of the United States.
(d) Cyberpiracy prevention
(1)(A) A person shall be liable in a civil action by
the owner of a mark, including a personal name
which is protected as a mark under this section, if,
without regard to the goods or services of the
parties, that person-(i) has a bad faith intent to profit from that
mark, including a personal name which is
protected as a mark under this section; and
(ii) registers, traffics in, or uses a domain
name that-(I) in the case of a mark that is
distinctive at the time of registration of

App. 50
the domain name, is identical
confusingly similar to that mark;

or

(II) in the case of a famous mark that is
famous at the time of registration of the
domain name, is identical or confusingly
similar to or dilutive of that mark; or
(III) is a trademark, word, or name
protected by reason of section 706 of Title
18 or section 220506 of Title 36.
(B)(i) In determining whether a person has a
bad faith intent described under subparagraph
(A), a court may consider factors such as, but not
limited to-(I) the trademark or other intellectual
property rights of the person, if any, in
the domain name;
(II) the extent to which the domain name
consists of the legal name of the person or
a name that is otherwise commonly used
to identify that person;
(III) the person’s prior use, if any, of the
domain name in connection with the bona
fide offering of any goods or services;
(IV)
the
person’s
bona
fide
noncommercial or fair use of the mark in
a site accessible under the domain name;
(V) the person’s intent to divert
consumers from the mark owner’s online
location to a site accessible under the

App. 51
domain name that could harm the
goodwill represented by the mark, either
for commercial gain or with the intent to
tarnish or disparage the mark, by
creating a likelihood of confusion as to the
source, sponsorship, affiliation, or
endorsement of the site;
(VI) the person’s offer to transfer, sell, or
otherwise assign the domain name to the
mark owner or any third party for
financial gain without having used, or
having an intent to use, the domain name
in the bona fide offering of any goods or
services, or the person’s prior conduct
indicating a pattern of such conduct;
(VII) the person’s provision of material
and misleading false contact information
when applying for the registration of the
domain name, the person’s intentional
failure to maintain accurate contact
information, or the person’s prior conduct
indicating a pattern of such conduct;
(VIII) the person’s registration or
acquisition of multiple domain names
which the person knows are identical or
confusingly similar to marks of others
that are distinctive at the time of
registration of such domain names, or
dilutive of famous marks of others that
are famous at the time of registration of
such domain names, without regard to
the goods or services of the parties; and

App. 52
(IX) the extent to which the mark
incorporated in the person’s domain name
registration is or is not distinctive and
famous within the meaning of subsection
(c).
(ii) Bad faith intent described under
subparagraph (A) shall not be found in any
case in which the court determines that the
person believed and had reasonable grounds
to believe that the use of the domain name
was a fair use or otherwise lawful.
(C) In any civil action involving the registration,
trafficking, or use of a domain name under this
paragraph, a court may order the forfeiture or
cancellation of the domain name or the transfer
of the domain name to the owner of the mark.
(D) A person shall be liable for using a domain
name under subparagraph (A) only if that
person is the domain name registrant or that
registrant’s authorized licensee.
(E) As used in this paragraph, the term “traffics
in” refers to transactions that include, but are
not limited to, sales, purchases, loans, pledges,
licenses, exchanges of currency, and any other
transfer for consideration or receipt in exchange
for consideration.
(2)(A) The owner of a mark may file an in rem civil
action against a domain name in the judicial district
in which the domain name registrar, domain name
registry, or other domain name authority that

App. 53
registered or assigned the domain name is located
if-(i) the domain name violates any right of the
owner of a mark registered in the Patent and
Trademark Office, or protected under
subsection (a) or (c); and
(ii) the court finds that the owner-(I) is not able to obtain in personam
jurisdiction over a person who would have
been a defendant in a civil action under
paragraph (1); or
(II) through due diligence was not able to
find a person who would have been a
defendant in a civil action under
paragraph (1) by-(aa) sending a notice of the alleged
violation and intent to proceed under
this paragraph to the registrant of the
domain name at the postal and e-mail
address provided by the registrant to
the registrar; and
(bb) publishing notice of the action as
the court may direct promptly after
filing the action.
(B) The actions under subparagraph (A)(ii) shall
constitute service of process.
(C) In an in rem action under this paragraph, a
domain name shall be deemed to have its situs
in the judicial district in which--

App. 54
(i) the domain name registrar, registry, or
other domain name authority that registered
or assigned the domain name is located; or
(ii) documents sufficient to establish control
and authority regarding the disposition of
the registration and use of the domain name
are deposited with the court.
(D)(i) The remedies in an in rem action under
this paragraph shall be limited to a court order
for the forfeiture or cancellation of the domain
name or the transfer of the domain name to the
owner of the mark. Upon receipt of written
notification of a filed, stamped copy of a
complaint filed by the owner of a mark in a
United States district court under this
paragraph, the domain name registrar, domain
name registry, or other domain name authority
shall-(I) expeditiously deposit with the court
documents sufficient to establish the
court’s control and authority regarding
the disposition of the registration and use
of the domain name to the court; and
(II) not transfer, suspend, or otherwise
modify the domain name during the
pendency of the action, except upon order
of the court.
(ii) The domain name registrar or registry or
other domain name authority shall not be
liable for injunctive or monetary relief under
this paragraph except in the case of bad faith

App. 55
or reckless disregard, which includes a
willful failure to comply with any such court
order.
(3) The civil action established under paragraph
(1) and the in rem action established under
paragraph (2), and any remedy available under
either such action, shall be in addition to any other
civil action or remedy otherwise applicable.
(4) The in rem jurisdiction established under
paragraph (2) shall be in addition to any other
jurisdiction that otherwise exists, whether in rem or
in personam.
19 U.S.C. § 1334. Cooperation with other agencies
The commission shall in appropriate matters act in
conjunction and cooperation with the Treasury
Department, the Department of Commerce, the Federal
Trade Commission, or any other departments, or
independent establishments of the Government, and
such departments and independent establishments of
the Government shall cooperate fully with the
commission for the purposes of aiding and assisting in
its work, and, when directed by the President, shall
furnish to the commission, on its request, all records,
papers, and information in their possession relating to
any of the subjects of investigation by the commission
and shall detail, from time to time, such officials and
employees to said commission as he may direct.

App. 56
19 U.S.C. § 1337. Unfair practices in import trade
(a) Unlawful activities; covered industries;
definitions
(1) Subject to paragraph (2), the following are
unlawful, and when found by the Commission to
exist shall be dealt with, in addition to any other
provision of law, as provided in this section:
(A) Unfair methods of competition and unfair
acts in the importation of articles (other than
articles provided for in subparagraphs (B), (C),
(D), and (E)) into the United States, or in the
sale of such articles by the owner, importer, or
consignee, the threat or effect of which is-(i) to destroy or substantially injure an
industry in the United States;
(ii) to prevent the establishment of such an
industry; or
(iii) to restrain or monopolize trade and
commerce in the United States.
(B) The importation into the United States, the
sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of articles that-(i) infringe a valid and enforceable United
States patent or a valid and enforceable
United States copyright registered under
Title 17; or

App. 57
(ii) are made, produced, processed, or mined
under, or by means of, a process covered by
the claims of a valid and enforceable United
States patent.
(C) The importation into the United States, the
sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of articles that infringe
a valid and enforceable United States trademark
registered under the Trademark Act of 1946.
(D) The importation into the United States, the
sale for importation, or the sale within the
United States after importation by the owner,
importer, or consignee, of a semiconductor chip
product in a manner that constitutes
infringement of a mask work registered under
chapter 9 of Title 17.
(E) The importation into the United States, the
sale for importation, or the sale within the
United States after importation by the owner,
importer, or consigner, of an article that
constitutes infringement of the exclusive rights
in a design protected under chapter 13 of Title
17.
(2) Subparagraphs (B), (C), (D), and (E) of
paragraph (1) apply only if an industry in the
United States, relating to the articles protected by
the patent, copyright, trademark, mask work, or
design concerned, exists or is in the process of being
established.

App. 58
(3) For purposes of paragraph (2), an industry in
the United States shall be considered to exist if
there is in the United States, with respect to the
articles protected by the patent, copyright,
trademark, mask work, or design concerned-(A) significant
equipment;

investment

in

plant

and

(B) significant employment of labor or capital; or
(C) substantial investment in its exploitation,
including engineering, research and
development, or licensing.
(4) For the purposes of this section, the phrase
“owner, importer, or consignee” includes any agent
of the owner, importer, or consignee.
(b) Investigation of violations by Commission
(1) The Commission shall investigate any alleged
violation of this section on complain t under oath or
upon its initiative. Upon commencing any such
investigation, the Commission shall publish notice
thereof in the Federal Register. The Commission
shall conclude any such investigation and make its
determination under this section at the earliest
practicable time after the date of publication of
notice of such investigation. To promote expeditious
adjudication, the Commission shall, within 45 days
after an investigation is initiated, establish a target
date for its final determination.
(2) During the course of each investigation under
this section, the Commission shall consult with, and

App. 59
seek advice and information from, the Department
of Health and Human Services, the Department of
Justice, the Federal Trade Commission, and such
other departments and agencies as it considers
appropriate.
(3) Whenever, in the course of an investigation
under this section, the Commission has reason to
believe, based on information before it, that a
matter, in whole or in part, may come within the
purview of part II of subtitle IV of this chapter, it
shall promptly notify the Secretary of Commerce so
that such action may be taken as is otherwise
authorized by such part II. If the Commission has
reason to believe that the matter before it (A) is
based solely on alleged acts and effects which are
within the purview of section 1671 or 1673 of this
title, or (B) relates to an alleged copyright
infringement with respect to which action is
prohibited by section 1008 of Title 17, the
Commission shall terminate, or not institute, any
investigation into the matter. If the Commission
has reason to believe the matter before it is based in
part on alleged acts and effects which are within the
purview of section 1671 or 1673 of this title, and in
part on alleged acts and effects which may,
independently from or in conjunction with those
within the purview of such section, establish a basis
for relief under this section, then it may institute or
continue an investigation into the matter. If the
Commission notifies the Secretary or the
administering authority (as defined in section
1677(1) of this title) with respect to a matter under
this paragraph, the Commission may suspend its

App. 60
investigation during the time the matter is before
the Secretary or administering authority for final
decision. Any final decision by the administering
authority under section 1671 or 1673 of this title
with respect to the matter within such section 1671
or 1673 of this title of which the Commission has
notified the Secretary or administering authority
shall be conclusive upon the Commission with
respect to the issue of less-than-fair-value sales or
subsidization and the matters necessary for such
decision.
(c) Determinations; review
The Commission shall determine, with respect to each
investigation conducted by it under this section,
whether or not there is a violation of this section,
except that the Commission may, by issuing a consent
order or on the basis of an agreement between the
private parties to the investigation, including an
agreement to present the matter for arbitration,
terminate any such investigation, in whole or in part,
without making such a determination. Each
determination under subsection (d) or (e) shall be made
on the record after notice and opportunity for a hearing
in conformity with the provisions of subchapter II of
chapter 5 of Title 5. All legal and equitable defenses
may be presented in all cases. A respondent may raise
any counterclaim in a manner prescribed by the
Commission. Immediately after a counterclaim is
received by the Commission, the respondent raising
such counterclaim shall file a notice of removal with a
United States district court in which venue for any of
the counterclaims raised by the party would exist

App. 61
under section 1391 of Title 28. Any counterclaim raised
pursuant to this section shall relate back to the date of
the original complaint in the proceeding before the
Commission. Action on such counterclaim shall not
delay or affect the proceeding under this section,
including the legal and equitable defenses that may be
raised under this subsection. Any person adversely
affected by a final determination of the Commission
under subsection (d), (e), (f), or (g) may appeal such
determination, within 60 days after the determination
becomes final, to the United States Court of Appeals for
the Federal Circuit for review in accordance with
chapter 7 of Title 5. Notwithstanding the foregoing
provisions of this subsection, Commission
determinations under subsections (d), (e), (f), and (g)
with respect to its findings on the public health and
welfare, competitive conditions in the United States
economy, the production of like or directly competitive
articles in the United States, and United States
consumers, the amount and nature of bond, or the
appropriate remedy shall be reviewable in accordance
with section 706 of Title 5. Determinations by the
Commission under subsections (e), (f), and (j) with
respect to forfeiture of bonds and under subsection (h)
with respect to the imposition of sanctions for abuse of
discovery or abuse of process shall also be reviewable
in accordance with section 706 of Title 5.
(d) Exclusion of articles from entry
(1) If the Commission determines, as a result of an
investigation under this section, that there is a
violation of this section, it shall direct that the
articles concerned, imported by any person violating

App. 62
the provision of this section, be excluded from entry
into the United States, unless, after considering the
effect of such exclusion upon the public health and
welfare, competitive conditions in the United States
economy, the production of like or directly
competitive articles in the United States, and
United States consumers, it finds that such articles
should not be excluded from entry. The Commission
shall notify the Secretary of the Treasury of its
action under this subsection directing such
exclusion from entry, and upon receipt of such
notice, the Secretary shall, through the proper
officers, refuse such entry.
(2) The authority of the Commission to order an
exclusion from entry of articles shall be limited to
persons determined by the Commission to be
violating this section unless the Commission
determines that-(A) a general exclusion from entry of articles is
necessary to prevent circumvention of an
exclusion order limited to products of named
persons; or
(B) there is a pattern of violation of this section
and it is difficult to identify the source of
infringing products.
(e) Exclusion of articles from entry during
investigation except under bond; procedures
applicable; preliminary relief
(1) If, during the course of an investigation under
this section, the Commission determines that there
is reason to believe that there is a violation of this

App. 63
section, it may direct that the articles concerned,
imported by any person with respect to whom there
is reason to believe that such person is violating
this section, be excluded from entry into the United
States, unless, after considering the effect of such
exclusion upon the public health and welfare,
competitive conditions in the United States
economy, the production of like or directly
competitive articles in the United States, and
United States consumers, it finds that such articles
should not be excluded from entry. The Commission
shall notify the Secretary of the Treasury of its
action under this subsection directing such
exclusion from entry, and upon receipt of such
notice, the Secretary shall, through the proper
officers, refuse such entry, except that such articles
shall be entitled to entry under bond prescribed by
the Secretary in an amount determined by the
Commission to be sufficient to protect the
complainant from any injury. If the Commission
later determines that the respondent has violated
the provisions of this section, the bond may be
forfeited to the complainant.
(2) A complainant may petition the Commission for
the issuance of an order under this subsection. The
Commission shall make a determination with
regard to such petition by no later than the 90th
day after the date on which the Commission’s notice
of investigation is published in the Federal
Register. The Commission may extend the 90-day
period for an additional 60 days in a case it
designates as a more complicated case. The
Commission shall publish in the Federal Register

App. 64
its reasons why it designated the case as being more
complicated. The Commission may require the
complainant to post a bond as a prerequisite to the
issuance of an order under this subsection. If the
Commission later determines that the respondent
has not violated the provisions of this section, the
bond may be forfeited to the respondent.
(3) The Commission may grant preliminary relief
under this subsection or subsection (f) to the same
extent as preliminary injunctions and temporary
restraining orders may be granted under the
Federal Rules of Civil Procedure.
(4) The Commission shall prescribe the terms and
conditions under which bonds may be forfeited
under paragraphs (1) and (2).
(f) Cease and desist orders; civil penalty for
violation of orders
(1) In addition to, or in lieu of, taking action under
subsection (d) or (e), the Commission may issue and
cause to be served on any person violating this
section, or believed to be violating this section, as
the case may be, an order directing such person to
cease and desist from engaging in the unfair
methods or acts involved, unless after considering
the effect of such order upon the public health and
welfare, competitive conditions in the United States
economy, the production of like or directly
competitive articles in the United States, and
United States consumers, it finds that such order
should not be issued. The Commission may at any
time, upon such notice and in such manner as it

App. 65
deems proper, modify or revoke any such order,
and, in the case of a revocation, may take action
under subsection (d) or (e), as the case may be. If a
temporary cease and desist order is issued in
addition to, or in lieu of, an exclusion order under
subsection (e), the Commission may require the
complainant to post a bond, in an amount
determined by the Commission to be sufficient to
protect the respondent from any injury, as a
prerequisite to the issuance of an order under this
subsection. If the Commission later determines that
the respondent has not violated the provisions of
this section, the bond may be forfeited to the
respondent. The Commission shall prescribe the
terms and conditions under which the bonds may be
forfeited under this paragraph.
(2) Any person who violates an order issued by the
Commission under paragraph (1) after it has
become final shall forfeit and pay to the United
States a civil penalty for each day on which an
importation of articles, or their sale, occurs in
violation of the order of not more than the greater of
$100,000 or twice the domestic value of the articles
entered or sold on such day in violation of the order.
Such penalty shall accrue to the United States and
may be recovered for the United States in a civil
action brought by the Commission in the Federal
District Court for the District of Columbia or for the
district in which the violation occurs. In such
actions, the United States district courts may issue
mandatory injunctions incorporating the relief
sought by the Commission as they deem

App. 66
appropriate in the enforcement of such final orders
of the Commission.
(g) Exclusion from entry or cease and desist
order; conditions and procedures applicable
(1) If-(A) a complaint is filed against a person under
this section;
(B) the complaint and a notice of investigation
are served on the person;
(C) the person fails to respond to the complaint
and notice or otherwise fails to appear to answer
the complaint and notice;
(D) the person fails to show good cause why the
person should not be found in default; and
(E) the complainant seeks relief limited solely to
that person;
the Commission shall presume the facts alleged in
the complaint to be true and shall, upon request,
issue an exclusion from entry or a cease and desist
order, or both, limited to that person unless, after
considering the effect of such exclusion or order
upon the public health and welfare, competitive
conditions in the United States economy, the
production of like or directly competitive articles in
the United States, and United States consumers,
the Commission finds that such exclusion or order
should not be issued.

App. 67
(2) In addition to the authority of the Commission
to issue a general exclusion from entry of articles
when a respondent appears to contest an
investigation concerning a violation of the
provisions of this section, a general exclusion from
entry of articles, regardless of the source or
importer of the articles, may be issued if-(A) no person appears to contest an
investigation concerning a violation of the
provisions of this section,
(B) such a violation is established by
substantial, reliable, and probative evidence,
and
(C) the requirements of subsection (d)(2) are
met.
(h) Sanctions for abuse of discovery and abuse of
process
The Commission may by rule prescribe sanctions for
abuse of discovery and abuse of process to the extent
authorized by Rule 11 and Rule 37 of the Federal Rules
of Civil Procedure.
(i) Forfeiture
(1) In addition to taking action under subsection
(d), the Commission may issue an order providing
that any article imported in violation of the
provisions of this section be seized and forfeited to
the United States if--

App. 68
(A) the owner, importer, or consignee of the
article previously attempted to import the article
into the United States;
(B) the article was previously denied entry into
the United States by reason of an order issued
under subsection (d); and
(C) upon such previous denial of entry, the
Secretary of the Treasury provided the owner,
importer, or consignee of the article written
notice of-(i) such order, and
(ii) the seizure and forfeiture that would
result from any further attempt to import the
article into the United States.
(2) The Commission shall notify the Secretary of
the Treasury of any order issued under this
subsection and, upon receipt of such notice, the
Secretary of the Treasury shall enforce such order
in accordance with the provisions of this section.
(3) Upon the attempted entry of articles subject to
an order issued under this subsection, the Secretary
of the Treasury shall immediately notify all ports of
entry of the attempted importation and shall
identify the persons notified under paragraph
(1)(C).
(4) The Secretary of the Treasury shall provide-(A) the written notice described in paragraph
(1)(C) to the owner, importer, or consignee of any
article that is denied entry into the United

App. 69
States by reason of an order issued under
subsection (d); and
(B) a copy of such written notice to the
Commission.
(j) Referral to President
(1) If the Commission determines that there is a
violation of this section, or that, for purposes of
subsection (e), there is reason to believe that there
is such a violation, it shall-(A) publish such determination in the Federal
Register, and
(B) transmit to the President a copy of such
determination and the action taken under
subsection (d), (e), (f), (g), or (i), with respect
thereto, together with the record upon which
such determination is based.
(2) If, before the close of the 60-day period
beginning on the day after the day on which he
receives a copy of such determination, the
President, for policy reasons, disapproves such
determination and notifies the Commission of his
disapproval, then, effective on the date of such
notice, such determination and the action taken
under subsection (d), (e), (f), (g), or (i) with respect
thereto shall have no force or effect.
(3) Subject to the provisions of paragraph (2), such
determination shall, except for purposes of
subsection (c), be effective upon publication thereof
in the Federal Register, and the action taken under

App. 70
subsection (d), (e), (f), (g), or (i), with respect thereto
shall be effective as provided in such subsections,
except that articles directed to be excluded from
entry under subsection (d) or subject to a cease and
desist order under subsection (f) shall, until such
determination becomes final, be entitled to entry
under bond prescribed by the Secretary in an
amount determined by the Commission to be
sufficient to protect the complainant from any
injury. If the determination becomes final, the bond
may be forfeited to the complainant. The
Commission shall prescribe the terms and
conditions under which bonds may be forfeited
under this paragraph.
(4) If the President does not disapprove such
determination within such 60-day period, or if he
notifies the Commission before the close of such
period that he approves such determination, then,
for purposes of paragraph (3) and subsection (c)
such determination shall become final on the day
after the close of such period or the day on which
the President notifies the Commission of his
approval, as the case may be.
(k) Period of effectiveness; termination of
violation or modification or rescission of
exclusion or order
(1) Except as provided in subsections (f) and (j), any
exclusion from entry or order under this section
shall continue in effect until the Commission finds,
and in the case of exclusion from entry notifies the
Secretary of the Treasury, that the conditions which

App. 71
led to such exclusion from entry or order no longer
exist.
(2) If any person who has previously been found by
the Commission to be in violation of this section
petitions the Commission for a determination that
the petitioner is no longer in violation of this section
or for a modification or rescission of an exclusion
from entry or order under subsection (d), (e), (f), (g),
or (i)-(A) the burden of proof in any proceeding before
the Commission regarding such petition shall be
on the petitioner; and
(B) relief may be granted by the Commission
with respect to such petition-(i) on the basis of new evidence or evidence
that could not have been presented at the
prior proceeding, or
(ii) on grounds which would permit relief
from a judgment or order under the Federal
Rules of Civil Procedure.
(l) Importation by or for United States
Any exclusion from entry or order under subsection (d),
(e), (f), (g), or (i), in cases based on a proceeding
involving a patent, copyright, mask work, or design
under subsection (a)(1), shall not apply to any articles
imported by and for the use of the United States, or
imported for, and to be used for, the United States with
the authorization or consent of the Government.
Whenever any article would have been excluded from

App. 72
entry or would not have been entered pursuant to the
provisions of such subsections but for the operation of
this subsection, an owner of the patent, copyright,
mask work, or design adversely affected shall be
entitled to reasonable and entire compensation in an
action before the United States Court of Federal
Claims pursuant to the procedures of section 1498 of
Title 28.
(m) “United States” defined
For purposes of this section and sections 1338 and 1340
of this title, the term “United States” means the
customs territory of the United States as defined in
general note 2 of the Harmonized Tariff Schedule of the
United States.
(n) Disclosure of confidential information
(1) Information submitted to the Commission or
exchanged among the parties in connection with
proceedings under this section which is properly
designated as confidential pursuant to Commission
rules may not be disclosed (except under a
protective order issued under regulations of the
Commission which authorizes limited disclosure of
such information) to any person (other than a
person described in paragraph (2)) without the
consent of the person submitting it.
(2) Notwithstanding the prohibition contained in
paragraph (1), information referred to in that
paragraph may be disclosed to-(A) an officer or employee of the Commission
who is directly concerned with--

App. 73
(i) carrying out the investigation or related
proceeding in connection with which the
information is submitted,
(ii) the administration of a bond posted
pursuant to subsection (e), (f), or (j),
(iii) the administration or enforcement of an
exclusion order issued pursuant to subsection
(d), (e), or (g), a cease and desist order issued
pursuant to subsection (f), or a consent order
issued pursuant to subsection (c),
(iv) proceedings for the modification or
rescission of a temporary or permanent order
issued under subsection (d), (e), (f), (g), or (i),
or a consent order issued under this section,
or
(v) maintaining the administrative record of
the investigation or related proceeding,
(B) an officer or employee of the United States
Government who is directly involved in the
review under subsection (j), or
(C) an officer or employee of the United States
Customs Service who is directly involved in
administering an exclusion from entry under
subsection (d), (e), or (g) resulting from the
investigation or related proceeding in connection
with which the information is submitted.

App. 74
21 U.S.C. § 321. Definitions; generally
For the purposes of this chapter-(a)(1) The term “State”, except as used in the last
sentence of section 372(a) of this title, means any State
or Territory of the United States, the District of
Columbia, and the Commonwealth of Puerto Rico.
(2) The term “Territory” means any Territory or
possession of the United States, including the
District of Columbia, and excluding the
Commonwealth of Puerto Rico and the Canal Zone.
(b) The term “interstate commerce” means
(1) commerce between any State or Territory and any
place outside thereof, and (2) commerce within the
District of Columbia or within any other Territory not
organized with a legislative body.
(c) The term “Department” means Department of
Health and Human Services.
(d) The term “Secretary” means the Secretary of
Health and Human Services.
(e) The term “person” includes individual, partnership,
corporation, and association.
(f) The term “food” means (1) articles used for food or
drink for man or other animals, (2) chewing gum, and
(3) articles used for components of any such article.
(g)(1) The term “drug” means (A) articles recognized in
the official United States Pharmacopoeia, official
Homoeopathic Pharmacopoeia of the United States, or
official National Formulary, or any supplement to any

App. 75
of them; and (B) articles intended for use in the
diagnosis, cure, mitigation, treatment, or prevention of
disease in man or other animals; and (C) articles (other
than food) intended to affect the structure or any
function of the body of man or other animals; and
(D) articles intended for use as a component of any
article specified in clause (A), (B), or (C). A food or
dietary supplement for which a claim, subject to
sections 343(r)(1)(B) and 343(r)(3) of this title or
sections 343(r)(1)(B) and 343(r)(5)(D) of this title, is
made in accordance with the requirements of section
343(r) of this title is not a drug solely because the label
or the labeling contains such a claim. A food, dietary
ingredient, or dietary supplement for which a truthful
and not misleading statement is made in accordance
with section 343(r)(6) of this title is not a drug under
clause (C) solely because the label or the labeling
contains such a statement.
(2) The term “counterfeit drug” means a drug
which, or the container or labeling of which, without
authorization, bears the trademark, trade name, or
other identifying mark, imprint, or device, or any
likeness thereof, of a drug manufacturer, processor,
packer, or distributor other than the person or
persons who in fact manufactured, processed,
packed, or distributed such drug and which thereby
falsely purports or is represented to be the product
of, or to have been packed or distributed by, such
other drug manufacturer, processor, packer, or
distributor.
(h) The term “device” (except when used in paragraph
(n) of this section and in sections 331(i), 343(f), 352(c),

App. 76
and 362(c) of this title) means an instrument,
apparatus, implement, machine, contrivance, implant,
in vitro reagent, or other similar or related article,
including any component, part, or accessory, which is-(1) recognized in the official National Formulary, or
the United States Pharmacopeia, or any
supplement to them,
(2) intended for use in the diagnosis of disease or
other conditions, or in the cure, mitigation,
treatment, or prevention of disease, in man or other
animals, or
(3) intended to affect the structure or any function
of the body of man or other animals, and
which does not achieve its primary intended
purposes through chemical action within or on the
body of man or other animals and which is not
dependent upon being metabolized for the
achievement of its primary intended purposes. The
term “device” does not include software functions
excluded pursuant to section 360j(o) of this title.
(i) The term “cosmetic” means (1) articles intended to
be rubbed, poured, sprinkled, or sprayed on, introduced
into, or otherwise applied to the human body or any
part thereof for cleansing, beautifying, promoting
attractiveness, or altering the appearance, and
(2) articles intended for use as a component of any such
articles; except that such term shall not include soap.
(j) The term “official compendium” means the official
United States Pharmacopoeia, official Homoeopathic

App. 77
Pharmacopoeia of the United States, official National
Formulary, or any supplement to any of them.
(k) The term “label” means a display of written,
printed, or graphic matter upon the immediate
container of any article; and a requirement made by or
under authority of this chapter that any word,
statement, or other information appear on the label
shall not be considered to be complied with unless such
word, statement, or other information also appears on
the outside container or wrapper, if any there be, of the
retail package of such article, or is easily legible
through the outside container or wrapper.
(l) The term “immediate container” does not include
package liners.
(m) The term “labeling” means all labels and other
written, printed, or graphic matter (1) upon any article
or any of its containers or wrappers, or
(2) accompanying such article.
(n) If an article is alleged to be misbranded because the
labeling or advertising is misleading, then in
determining whether the labeling or advertising is
misleading there shall be taken into account (among
other things) not only representations made or
suggested by statement, word, design, device, or any
combination thereof, but also the extent to which the
labeling or advertising fails to reveal facts material in
the light of such representations or material with
respect to consequences which may result from the use
of the article to which the labeling or advertising
relates under the conditions of use prescribed in the

App. 78
labeling or advertising thereof or under such conditions
of use as are customary or usual.
(o) The representation of a drug, in its labeling, as an
antiseptic shall be considered to be a representation
that it is a germicide, except in the case of a drug
purporting to be, or represented as, an antiseptic for
inhibitory use as a wet dressing, ointment, dusting
powder, or such other use as involves prolonged contact
with the body.
(p) The term “new drug” means-(1) Any drug (except a new animal drug or an
animal feed bearing or containing a new animal
drug) the composition of which is such that such
drug is not generally recognized, among experts
qualified by scientific training and experience to
evaluate the safety and effectiveness of drugs, as
safe and effective for use under the conditions
prescribed, recommended, or suggested in the
labeling thereof, except that such a drug not so
recognized shall not be deemed to be a “new drug”
if at any time prior to June 25, 1938, it was subject
to the Food and Drugs Act of June 30, 1906, as
amended, and if at such time its labeling contained
the same representations concerning the conditions
of its use; or
(2) Any drug (except a new animal drug or an
animal feed bearing or containing a new animal
drug) the composition of which is such that such
drug, as a result of investigations to determine its
safety and effectiveness for use under such
conditions, has become so recognized, but which has

App. 79
not, otherwise than in such investigations, been
used to a material extent or for a material time
under such conditions.
(q)(1)(A) Except as provided in clause (B), the term
“pesticide chemical” means any substance that is a
pesticide within the meaning of the Federal Insecticide,
Fungicide, and Rodenticide Act, including all active
and inert ingredients of such pesticide.
Notwithstanding any other provision of law, the term
“pesticide” within such meaning includes ethylene
oxide and propylene oxide when such substances are
applied on food.
(B) In the case of the use, with respect to food, of
a substance described in clause (A) to prevent,
destroy, repel, or mitigate microorganisms
(including bacteria, viruses, fungi, protozoa,
algae, and slime), the following applies for
purposes of clause (A):
(i) The definition in such clause for the term
“pesticide chemical” does not include the
substance if the substance is applied for such
use on food, or the substance is included for
such use in water that comes into contact
with the food, in the preparing, packing, or
holding of the food for commercial purposes.
The substance is not excluded under this
subclause from such definition if the
substance is ethylene oxide or propylene
oxide, and is applied for such use on food.
The substance is not so excluded if the
substance is applied for such use on a raw
agricultural commodity, or the substance is

App. 80
included for such use in water that comes
into contact with the commodity, as follows:
(I) The substance is applied in the field.
(II) The substance is applied at a
treatment facility where raw agricultural
commodities are the only food treated,
and the treatment is in a manner that
does not change the status of the food as
a raw agricultural commodity (including
treatment through washing, waxing,
fumigating, and pac k ing s uch
commodities in such manner).
(III) The substance is applied during the
transportation of such commodity
between the field and such a treatment
facility.
(ii) The definition in such clause for the term
“pesticide chemical” does not include the
substance if the substance is a food contact
substance as defined in section 348(h)(6) of
this title, and any of the following
circumstances exist: The substance is
included for such use in an object that has a
food contact surface but is not intended to
have an ongoing effect on any portion of the
object; the substance is included for such use
in an object that has a food contact surface
and is intended to have an ongoing effect on
a portion of the object but not on the food
contact surface; or the substance is included
for such use in or is applied for such use on

App. 81
food packaging (without regard to whether
the substance is intended to have an ongoing
effect on any portion of the packaging). The
food contact substance is not excluded under
this subclause from such definition if any of
the following circumstances exist: The
substance is applied for such use on a
semipermanent or permanent food contact
surface (other than being applied on food
packaging); or the substance is included for
such use in an object that has a
semipermanent or permanent food contact
surface (other than being included in food
packaging) and the substance is intended to
have an ongoing effect on the food contact
surface.
With respect to the definition of the term
“pesticide” that is applicable to the Federal
Insecticide, Fungicide, and Rodenticide Act,
this clause does not exclude any substance
from such definition.
(2) The term “pesticide chemical residue” means a
residue in or on raw agricultural commodity or
processed food of-(A) a pesticide chemical; or
(B) any other added substance that is present on
or in the commodity or food primarily as a result
of the metabolism or other degradation of a
pesticide chemical.
(3) Notwithstanding subparagraphs (1) and (2), the
Administrator may by regulation except a substance

App. 82
from the definition of “pesticide chemical” or
“pesticide chemical residue” if-(A) its occurrence as a residue on or in a raw
agricultural commodity or processed food is
attributable primarily to natural causes or to
human activities not involving the use of any
substances for a pesticidal purpose in the
p r o d u c t i o n , s t o r a g e , p r o c e s s i ng, o r
transportation of any raw agricultural
commodity or processed food; and
(B) the Administrator, after consultation with
the Secretary, determines that the substance
more appropriately should be regulated under
one or more provisions of this chapter other than
sections 342(a)(2)(B) and 346a of this title.
(r) The term “raw agricultural commodity” means any
food in its raw or natural state, including all fruits that
are washed, colored, or otherwise treated in their
unpeeled natural form prior to marketing.
(s) The term “food additive” means any substance the
intended use of which results or may reasonably be
expected to result, directly or indirectly, in its becoming
a component or otherwise affecting the characteristics
of any food (including any substance intended for use
in producing, manufacturing, packing, processing,
preparing, treating, packaging, transporting, or holding
food; and including any source of radiation intended for
any such use), if such substance is not generally
recognized, among experts qualified by scientific
training and experience to evaluate its safety, as
having been adequately shown through scientific

App. 83
procedures (or, in the case of a substance used in food
prior to January 1, 1958, through either scientific
procedures or experience based on common use in food)
to be safe under the conditions of its intended use;
except that such term does not include-(1) a pesticide chemical residue in or on a raw
agricultural commodity or processed food; or
(2) a pesticide chemical; or
(3) a color additive; or
(4) any substance used in accordance with a
sanction or approval granted prior to September 6,
1958, pursuant to this chapter, the Poultry Products
Inspection Act or the Meat Inspection Act of March
4, 1907, as amended and extended;
(5) a new animal drug; or
(6) an ingredient described in paragraph (ff) in, or
intended for use in, a dietary supplement.
(t)(1) The term “color additive” means a material
which-(A) is a dye, pigment, or other substance made
by a process of synthesis or similar artifice, or
extracted, isolated, or otherwise derived, with or
without intermediate or final change of identity,
from a vegetable, animal, mineral, or other
source, and
(B) when added or applied to a food, drug, or
cosmetic, or to the human body or any part

App. 84
thereof, is capable (alone or through reaction
with other substance) of imparting color thereto;
except that such term does not include any
material which the Secretary, by regulation,
determines is used (or intended to be used)
solely for a purpose or purposes other than
coloring.
(2) The term “color” includes black, white, and
intermediate grays.
(3) Nothing in subparagraph (1) of this paragraph
shall be construed to apply to any pesticide
chemical, soil or plant nutrient, or other
agricultural chemical solely because of its effect in
aiding, retarding, or otherwise affecting, directly or
indirectly, the growth or other natural physiological
processes of produce of the soil and thereby
affecting its color, whether before or after harvest.
(u) The term “safe” as used in paragraph (s) of this
section and in sections 348, 360b, 360ccc, and 379e of
this title, has reference to the health of man or animal.
(v) The term “new animal drug” means any drug
intended for use for animals other than man, including
any drug intended for use in animal feed but not
including such animal feed,-(1) the composition of which is such that such drug
is not generally recognized, among experts qualified
by scientific training and experience to evaluate the
safety and effectiveness of animal drugs, as safe
and effective for use under the conditions
prescribed, recommended, or suggested in the

App. 85
labeling thereof; except that such a drug not so
recognized shall not be deemed to be a “new animal
drug” if at any time prior to June 25, 1938, it was
subject to the Food and Drug Act of June 30, 1906,
as amended, and if at such time its labeling
contained the same representations concerning the
conditions of its use; or
(2) the composition of which is such that such drug,
as a result of investigations to determine its safety
and effectiveness for use under such conditions, has
become so recognized but which has not, otherwise
than in such investigations, been used to a material
extent or for a material time under such conditions.
Provided that any drug intended for minor use or
use in a minor species that is not the subject of a
final regulation published by the Secretary through
notice and comment rulemaking finding that the
criteria of paragraphs (1) and (2) have not been met
(or that the exception to the criterion in paragraph
(1) has been met) is a new animal drug.
(w) The term “animal feed”, as used in paragraph (w)1
of this section, in section 360b of this title, and in
provisions of this chapter referring to such paragraph
or section, means an article which is intended for use
for food for animals other than man and which is
intended for use as a substantial source of nutrients in
the diet of the animal, and is not limited to a mixture
intended to be the sole ration of the animal.

1

So in original. Probably should be “paragraph (v)”.

App. 86
(x) The term “informal hearing” means a hearing
which is not subject to section 554, 556, or 557 of Title
5 and which provides for the following:
(1) The presiding officer in the hearing shall be
designated by the Secretary from officers and
employees of the Department who have not
participated in any action of the Secretary which is
the subject of the hearing and who are not directly
responsible to an officer or employee of the
Department who has participated in any such
action.
(2) Each party to the hearing shall have the right at
all times to be advised and accompanied by an
attorney.
(3) Before the hearing, each party to the hearing
shall be given reasonable notice of the matters to be
considered at the hearing, including a
comprehensive statement of the basis for the action
taken or proposed by the Secretary which is the
subject of the hearing and a general summary of the
information which will be presented by the
Secretary at the hearing in support of such action.
(4) At the hearing the parties to the hearing shall
have the right to hear a full and complete statement
of the action of the Secretary which is the subject of
the hearing together with the information and
reasons supporting such action, to conduct
reasonable questioning, and to present any oral or
written information relevant to such action.
(5) The presiding officer in such hearing shall
prepare a written report of the hearing to which

App. 87
shall be attached all written material presented at
the hearing. The participants in the hearing shall
be given the opportunity to review and correct or
supplement the presiding officer’s report of the
hearing.
(6) The Secretary may require the hearing to be
transcribed. A party to the hearing shall have the
right to have the hearing transcribed at his
expense. Any transcription of a hearing shall be
included in the presiding officer’s report of the
hearing.
(y) The term “saccharin” includes calcium saccharin,
sodium saccharin, and ammonium saccharin.
(z) The term “infant formula” means a food which
purports to be or is represented for special dietary use
solely as a food for infants by reason of its simulation
of human milk or its suitability as a complete or partial
substitute for human milk.
(aa) The term “abbreviated drug application” means an
application submitted under section 355(j) of this title
for the approval of a drug that relies on the approved
application of another drug with the same active
ingredient to establish safety and efficacy, and-(1) in the case of section 335a of this title, includes
a supplement to such an application for a different
or additional use of the drug but does not include a
supplement to such an application for other than a
different or additional use of the drug, and
(2) in the case of sections 335b and 335c of this title,
includes any supplement to such an application.

App. 88
(bb) The term “knowingly” or “knew” means that a
person, with respect to information-(1) has actual knowledge of the information, or
(2) acts in deliberate ignorance or reckless
disregard of the truth or falsity of the information.
(cc) For purposes of section 335a of this title, the term
“high managerial agent”-(1) means-(A) an officer or director of a corporation or an
association,
(B) a partner of a partnership, or
(C) any employee or other agent of a
corporation, association, or partnership,
having duties such that the conduct of such officer,
director, partner, employee, or agent may fairly be
assumed to represent the policy of the corporation,
association, or partnership, and
(2) includes persons
responsibility for--

having

management

(A) submissions to the Food and Drug
Administration regarding the development or
approval of any drug product,
(B) production, quality assurance, or quality
control of any drug product, or
(C) research and development of any drug
product.

App. 89
(dd) For purposes of sections 335a and 335b of this
title, the term “drug product” means a drug subject to
regulation under section 355, 360b, or 382 of this title
or under section 262 of Title 42.
(ee) The term “Commissioner”
Commissioner of Food and Drugs.

means

the

(ff) The term “dietary supplement”-(1) means a product (other than tobacco) intended
to supplement the diet that bears or contains one or
more of the following dietary ingredients:
(A) a vitamin;
(B) a mineral;
(C) an herb or other botanical;
(D) an amino acid;
(E) a dietary substance for use by man to
supplement the diet by increasing the total
dietary intake; or
(F) a concentrate, metabolite, constituent,
extract, or combination of any ingredient
described in clause (A), (B), (C), (D), or (E);
(2) means a product that-(A)(i) is intended for ingestion in a form
described in section 350(c)(1)(B)(i) of this title; or
(ii) complies with section 350(c)(1)(B)(ii) of
this title;

App. 90
(B) is not represented for use as a conventional
food or as a sole item of a meal or the diet; and
(C) is labeled as a dietary supplement; and
(3) does-(A) include an article that is approved as a new
drug under section 355 of this title or licensed as
a biologic under section 262 of Title 42 and was,
prior to such approval, certification, or license,
marketed as a dietary supplement or as a food
unless the Secretary has issued a regulation,
after notice and comment, finding that the
article, when used as or in a dietary supplement
under the conditions of use and dosages set forth
in the labeling for such dietary supplement, is
unlawful under section 342(f) of this title; and
(B) not include-(i) an article that is approved as a new drug
under section 355 of this title, certified as an
antibiotic under section 357 of this title, or
licensed as a biologic under section 262 of
Title 42, or
(ii) an article authorized for investigation as
a new drug, antibiotic, or biological for which
substantial clinical investigations have been
instituted and for which the existence of such
investigations has been made public,
which was not before such approval,
certification, licensing, or authorization
marketed as a dietary supplement or as a

App. 91
food unless the Secretary, in the Secretary’s
discretion, has issued a regulation, after
notice and comment, finding that the article
would be lawful under this chapter.2
Except for purposes of paragraph (g) and section
350f of this title, a dietary supplement shall be
deemed to be a food within the meaning of this
chapter.
(gg) The term “processed food” means any food other
than a raw agricultural commodity and includes any
raw agricultural commodity that has been subject to
processing, such as canning, cooking, freezing,
dehydration, or milling.
(hh) The term “Administrator” means the
Administrator of the United States Environmental
Protection Agency.
(ii) The term “compounded
tomography drug”--

positron

emission

(1) means a drug that-(A) exhibits spontaneous disintegration of
unstable nuclei by the emission of positrons and
is used for the purpose of providing dual photon
positron emission tomographic diagnostic
images; and
(B) has been compounded by or on the order of
a practitioner who is licensed by a State to

2

So in original. Provision probably should be set flush with subpar.
(B).

App. 92
compound or order compounding for a drug
described in subparagraph (A), and is
compounded in accordance with that State’s law,
for a patient or for research, teaching, or quality
control; and
(2) includes any nonradioactive reagent, reagent
kit, ingredient, nuclide generator, accelerator,
target material, electronic synthesizer, or other
apparatus or computer program to be used in the
preparation of such a drug.
(jj) The term “antibiotic drug” means any drug (except
drugs for use in animals other than humans) composed
wholly or partly of any kind of penicillin, streptomycin,
chlortetracycline, chloramphenicol, bacitracin, or any
other drug intended for human use containing any
quantity of any chemical substance which is produced
by a micro-organism and which has the capacity to
inhibit or destroy micro-organisms in dilute solution
(including a chemically synthesized equivalent of any
such substance) or any derivative thereof.
(kk) Priority supplement
The term “priority supplement” means a drug
application referred to in section 101(4) of the Food and
Drug Administration Modernization Act of 1997 (111
Stat. 2298).
(ll)(1) The term “single-use device” means a device
that is intended for one use, or on a single patient
during a single procedure.
(2)(A) The term “reprocessed”, with respect to a
single-use device, means an original device that has

App. 93
previously been used on a patient and has been
subjected to additional processing and
manufacturing for the purpose of an additional
single use on a patient. The subsequent processing
and manufacture of a reprocessed single-use device
shall result in a device that is reprocessed within
the meaning of this definition.
(B) A single-use device that meets the definition
under clause (A) shall be considered a
reprocessed device without regard to any
description of the device used by the
manufacturer of the device or other persons,
including a description that uses the term
“recycled” rather than the term “reprocessed”.
(3) The term “original device” means a new, unused
single-use device.
(mm)(1) The term “critical reprocessed single-use
device” means a reprocessed single-use device that is
intended to contact normally sterile tissue or body
spaces during use.
(2) The term “semi-critical reprocessed single-use
device” means a reprocessed single-use device that
is intended to contact intact mucous membranes
and not penetrate normally sterile areas of the
body.
(nn) The term “major species” means cattle, horses,
swine, chickens, turkeys, dogs, and cats, except that
the Secretary may add species to this definition by
regulation.

App. 94
(oo) The term “minor species” means animals other
than humans that are not major species.
(pp) The term “minor use” means the intended use of
a drug in a major species for an indication that occurs
infrequently and in only a small number of animals or
in limited geographical areas and in only a small
number of animals annually.
(qq) The term “major food allergen” means any of the
following:
(1) Milk, egg, fish (e.g., bass, flounder, or cod),
Crustacean shellfish (e.g., crab, lobster, or shrimp),
tree nuts (e.g., almonds, pecans, or walnuts), wheat,
peanuts, and soybeans.
(2) A food ingredient that contains protein derived
from a food specified in paragraph (1), except the
following:
(A) Any highly refined oil derived from a food
specified in paragraph (1) and any ingredient
derived from such highly refined oil.
(B) A food ingredient that is exempt under
paragraph (6) or (7) of section 343(w) of this
title.
(rr)(1) The term “tobacco product” means any product
made or derived from tobacco that is intended for
human consumption, including any component, part, or
accessory of a tobacco product (except for raw materials
other than tobacco used in manufacturing a component,
part, or accessory of a tobacco product).

App. 95
(2) The term “tobacco product” does not mean an
article that is a drug under subsection (g)(1), a
device under subsection (h), or a combination
product described in section 353(g) of this title.
(3) The products described in paragraph (2) shall be
subject to subchapter V of this chapter.
(4) A tobacco product shall not be marketed in
combination with any other article or product
regulated under this chapter (including a drug,
biologic, food, cosmetic, medical device, or a dietary
supplement).

App. 96

APPENDIX D
UNITED STATES INTERNATIONAL
TRADE COMMISSION
Investigation No. 337-TA- ___
[Filed August 30, 2017]
________________________________
In The Matter Of
)
)
Certain Synthetically Produced,
)
Predominantly EPA Omega-3
)
Products In Ethyl Ester Or
)
Re-esterified Triglyceride Form
)
________________________________ )
VERIFIED COMPLAINT UNDER SECTION 337
OF THE TARIFF ACT OF 1930, AS AMENDED
Complainants:
Amarin Pharma, Inc.
1430 Route 206
Bedminster, NJ 07921
Amarin Pharmaceuticals Ireland Ltd.
2 Pembroke House
Upper Pembroke Street 28-32
Dublin, 2 Ireland
Counsel for Complainant
Jeffrey M. Telep
Lisa M. Dwyer

App. 97
David J. Farber
Kevin M. Dinan
Patrick J. Togni
Elizabeth E. Owerbach
KING & SPALDING LLP
1700 Pennsylvania Avenue, NW, Suite 200
Washington, DC 20006-4706
Telephone: (202) 737-0500
Fax: (202) 626-3737
Of counsel:
Joseph T. Kennedy
Executive Vice President, General Counsel &
Strategic Initiatives
Barbara Kurys
Vice President, Intellectual Property
c/o Amarin Pharma, Inc.
1430 Route 206
Bedminster, NJ 07921
Telephone: (908) 719-1315
Fax: (908) 719-3012
Amarin Pharma, Inc. and Amarin
Pharmaceuticals Ireland Ltd.
Proposed Respondents:
Royal DSM NV
Het Overloon 1 6411 TE, Heerleen, The
Netherlands
PHONE: +31 (0)45 578 8111
DSM Marine Lipids Peru S.A.C.
Calle Principal S/N Caserio la Legua

App. 98
Catacaos Piura, Peru
PHONE: +51 73 286 340
DSM Nutritional Products
45 Waterview Blvd., Parsippany, NJ 07054
PHONE: +1 973 257 1063
DSM Nutritional Products Canada, Inc.
105 Neptune Crescent, Dartmouth, NS
B2Y4T6
PHONE: +1 902 747-3500
Ultimate Biopharma (Zhongshan) Corporation
10 Jiankang Rd.
National Health Technology Park
Zhongshan, Guangdong
People’s Republic of China
PHONE: +86 760 23899205
Marine Ingredients AS
Strandgata 60
6270 Brattvåg, Norway
PHONE: +49 (0) 6826 979700
Marine Ingredients LLC
794 Sunrise Blvd,
Mt. Bethel, PA 18343
PHONE: 570 260 6900
Golden Omega S.A.
Av. Apoquindo Ote. 5550
Piso 8
Las Condes, Santiago, Chile
PHONE: +56 22 461 8800

App. 99
Golden Omega USA LLC
65 Enterprise
Aliso Viejo, CA 92656
PHONE: + 1 949 330 7030
Nordic Pharma, Inc.
Ropnesveien 71
9107 Kvaløya, Norway
PHONE: +47 77668660
Croda Europe Ltd.
Cowick Hall
Snaith
Goole
East Yorkshire
DN14 9AA, United Kingdom
PHONE: +44 (0)1405 860551
Croda Inc.
300-A Columbus Circle
Edison, NJ 08837
PHONE: 732 417 0800
Tecnologica de Alimentos S.A.
Las Begonias 441
Of. 352
San Isidro, Lima 27, Perú
PHONE: (51 +1) 611-1400
Nature’s Bounty
2100 Smithtown Avenue,
Ronkonkoma, New York 11779
PHONE: 631 567 9500
Nordic Naturals
111 Jennings Drive

App. 100
Watsonville, CA 95076
PHONE: 800 662 2544
Pharmavite LLC
8510 Balboa Blvd. #100
Northridge, CA 91325
PHONE: 1 800 423 2405
PHONE: 818 221 6200
Innovix Pharma Inc.
26500 Agoura Road
Suite 102790
Calabasas, CA 91302
PHONE: 1 800 270 4010
J.R. Carlson Laboratories, Inc.
600 W University Dr
Arlington Heights, IL 60004
PHONE: 888 234 5656
Date: August 30, 2017

App. 101
TABLE OF CONTENTS
I.

INTRODUCTION . . . . . . . . . . . . . . . . . . . . 1

II.

COMPLAINANTS . . . . . . . . . . . . . . . . . . . 12

III.

PROPOSED RESPONDENTS. . . . . . . . . 13
A. Manufacturers/Importers . . . . . . . . . 13
B. Distributors . . . . . . . . . . . . . . . . . . . . . 15

IV.

THE PRODUCTS AT ISSUE . . . . . . . . . . 16

V.

JURISDICTION . . . . . . . . . . . . . . . . . . . . 23

VI

UNLAWFUL AND UNFAIR ACTS OF
PROPOSED RESPONDENTS. . . . . . . . . 23
A. Proposed Respondents’ Importation
And Sale Of The Synthetically
Produced Omega-3 Products Violate
The Lanham Act . . . . . . . . . . . . . . . . . 23
1. Proposed respondents are making
false statements about the
Synthetically Produced Omega-3
Products by labeling and/or
promoting them as “dietary
supplements” when they are
actually
unapproved
“new
drugs” . . . . . . . . . . . . . . . . . . . . . . . . 25
a. The Synthetically Produced
Omega-3 Products cannot meet
the definition of “dietary
supplement” in the FDCA . . . . 26

App. 102
i. The Synthetically Produced
Omega-3 Products do not
meet the definition of
“dietary supplement”
because they do not bear or
contain
a
“dietary
ingredient” . . . . . . . . . . . . . . 26
a) The
Synthetically
Produced Omega-3
Products do not fall
under subsection
201(ff)(1)(E) of the
“dietary ingredient”
definition . . . . . . . . . . 27
b) The
Synthetically
Produced Omega-3
Products do not fall
under subsection
201(ff)(1)(F) of the
“dietary ingredient”
definition . . . . . . . . . . 31
ii. C e r t a i n
Synthetically
Produced Omega-3 Products
are excluded from the
definition of “dietary
supplement” under the
exclusionary clause
contained in subsection
321(ff)(3)(B) of the FDCA . . 32
b. Synthetically Produced Omega3 Products are actually

App. 103
unapproved “new drugs” under
the FDCA . . . . . . . . . . . . . . . . . . 39
i. All of the Synthetically
Produced Omega-3 Products
meet the definition of
“drug” in the FDCA. . . . . . . 43
a) Encapsulated E-OM3 . . . 43
b) E-OM3 in Oil Form. . . . . 45
c) E-EPA, rTG-EPA, and
rTG-OM3, as well as
other forms of E-OM3 . . 46
ii. All of the Synthetically
Produced Omega-3 Products
are unapproved “new
drugs” . . . . . . . . . . . . . . . . . . 46
2. The other elements for false
advertising and contributory false
advertising under the Lanham Act
are met . . . . . . . . . . . . . . . . . . . . . . . 47
B. Proposed Respondents’ Importation
And Sale Of The Synthetically
Produced Omega-3 Products Violate
Section 337 Based On The Standards
Set Forth In The FDCA . . . . . . . . . . . 48
VII.

INSTANCES
OF
UNFAIR
IMPORTATION AND SALE . . . . . . . . . . 52
A. Manufacturers . . . . . . . . . . . . . . . . . . . 52
B. Distributor Respondents . . . . . . . . . . 72

App. 104
VIII. C L A S S I F I C A T I O N
OF
THE
RESPONDENTS’ PRODUCTS UNDER
THE
HARMONIZED
TARIFF
SCHEDULE . . . . . . . . . . . . . . . . . . . . . . . . 91
IX.

RELATED LITIGATION . . . . . . . . . . . . . 91

X.

DOMESTIC INDUSTRY. . . . . . . . . . . . . . 92

XI.

SUBSTANTIAL INJURY . . . . . . . . . . . . . 95
A. Damage To The Vascepa® Brand . . . 96
B. Lost Sales And Market Share . . . . . . 98
C. Lost Profits And Price Erosion. . . . 100

XII.

RELIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . 103

App. 105
I.

INTRODUCTION

1. Amarin Pharma, Inc. (“Amarin Pharma”) and
Amarin Pharmaceuticals Ireland Ltd. (“Amarin
Ireland”) (collectively, “Amarin” or “Complainants”) file
this Complaint pursuant to Section 337 of the Tariff
Act of 1930, as amended, 19 U.S.C. § 1337 (“Section
337”). Amarin manufactures and markets Vascepa®
capsules, a drug approved by the Food and Drug
Administration (“FDA”) consisting of 1 gram of
eicosapentaenoic acid (the omega-3 acid commonly
known as “EPA”) in a 1-gram capsule. The EPA in
Vascepa® is in ethyl ester form and is synthetically
produced. Amarin respectfully requests that the U.S.
International Trade Commission (the “ITC” or
“Commission”) commence an investigation into the
unlawful importation or sale in the United States of
synthetically produced omega-3 products that are
predominantly comprised of EPA in either ethyl ester
(“EE”) or re-esterified (“rTG”) form and are falsely
labeled, and/or promoted for use as, or in “dietary
supplements” (the “Synthetically Produced Omega-3
Products” (as defined with more particularity in
paragraph 8, below)). Exhibits 1-12. These products
are cloaked as “dietary supplements” but are actually
unapproved “new drugs” under the Federal Food, Drug
and Cosmetic Act (“FDCA”). The false labeling or
promotion of these products constitutes an unfair act
and/or unfair method of competition under Section 337
because, among other things, these acts violate Section
43(a) of the Lanham Act, 15 U.S.C. § 1125(a), and the
standards established by the FDCA.

App. 106
2. A large majority of omega-3 products that are
imported or sold in the United States are legally
marketed “dietary supplements” comprised of common
fish oil. See Global Organization for EPA and DHA
Omega-3s (“GOED”) Blog, June 5, 2014, (noting that,
for example, “[e]thyl esters represented 12% of the US
dietary supplement market in 2013”), Exhibit 13.
Common fish oil typically includes a mixture of
saturated and unsaturated fats, including a variety of
omega fatty acids in their natural triglyceride (“nTG”)
form. See R. Preston Mason and Samuel C.R. Sherratt,
Omega-3 fatty acid fish oil dietary supplements contain
saturated fats and oxidized lipids that may interfere
with their intended biological benefits, Biochemical and
Biophysical Research Communications (2016), Exhibit
14. Common fish oil is not synthetically produced.
Amarin is not alleging that the import or sale in the
United States of common fish oil, i.e., for use in, or as
“dietary supplements,” violates Section 337, or other
U.S. laws per se, and Amarin is not requesting an
investigation into the import or sale of those natural
products. Nor is Amarin requesting an investigation
into synthetically produced omega-3 products in EE or
rTG form that are not predominantly comprised of the
omega-3 acid, EPA.
3. The Synthetically Produced Omega-3 Products
are being sold in the United States as ingredients for
finished products, and as finished products themselves.
Certain of the Proposed Respondents are selling
synthetically produced omega-3 oil, or encapsulated
synthetically produced omega-3 oil, for use in or as
finished products marketed as “dietary supplements”–
namely:

App. 107
• Royal DSM NV (“DSM NV”), Exhibit 1;
• DSM Marine Lipids Peru S.A.C. (“DSM-Peru”),
Exhibit 1;
• DSM Nutritional Products LLC in the United
States (“DSM-US”), Exhibit 1;
• DSM Nutritional Products Canada Inc., (“DSMCanada”), Exhibit 1;
• Ultimate Biopharma Corp. (“Ultimate”), Exhibit 2;
• Marine Ingredients AS, Exhibit 3;
• Marine Ingredients LLC, Exhibit 3;
• Golden Omega S.A., Exhibit 4;
• Golden Omega USA LLC, Exhibit 4;
• Nordic Pharma Inc., Exhibit 5;
• Croda Europe Ltd., Exhibit 6;
• Croda, Inc., Exhibit 6; and
• Technologica de Alimentos S.A., Exhibit 7
(collectively the “Manufacturers”).
4. The other Proposed Respondents are selling
finished products containing synthetically produced
omega-3 oil as “dietary supplements” directly to
consumers – namely:
• The Nature’s Bounty Co. (“Nature’s Bounty”),
Exhibit 8;
• Nordic Naturals, Exhibit 9;

App. 108
• Pharmavite LLC, Exhibit 10;
• Innovix Pharma Inc. (“Innovix Pharma”), Exhibit
11; and
• J. R. Carlson Laboratories (“Carlson”), Exhibit 12
(collectively, the “Distributors”).
5. The Synthetically Produced Omega-3 Products,
like Vascepa®, are derived from common fish oil.
Common fish oil includes omega-3 fatty acids in their
natural triglyceride form (“nTG-OM3”), such as EPA
(eicosapentaenoic acid) in its natural triglyceride form
(“nTG-EPA”) and docosahexaenoic acid (“DHA”) in its
natural triglyceride form (“nTG-DHA”). Although the
Synthetically Produced Omega-3 Products are derived
from common fish oil, they are not the same as common
fish oil. As discussed in more detail in paragraphs 4251, typically, common fish oil is extracted from oily fish
by using physical, not chemical processes, such that no
chemical bonds are broken or created.
6. Depending upon the fish from which the oil was
extracted and the environmental conditions in which
the fish were raised, the ratio of nTG-EPA and nTGDHA can differ. However, typically, 30% of common
fish oil by weight is nTG omega-3 fatty acids, or nTGOM3. The remaining 70% of the oil has other
constituents, most predominantly, saturated fat, other
omega-3 fatty acids, and omega-6 and omega-9 fatty
acids. See Figure 1 (below).

App. 109
Figure 1. Leading Common Fish Oil Supplement with
30% nTG-OM3*

* See R. Preston Mason and Samuel C.R. Sherratt,
Omega-3 fatty acid fish oil dietary supplements contain
saturated fats and oxidized lipids that may interfere
with their intended biological benefits, Biochemical and
Biophysical Research Communications (2016), 1-5.
Exhibit 14.
7. It is not possible to produce natural marine oil
with a collective concentration of nTG-EPA and nTGDHA that is greater than approximately 30% by weight
of the oil. Oils with a higher collective concentration of
EPA and DHA must be chemically synthesized, i.e.,
synthetically produced. Many of the Synthetically
Produced Omega-3 Products are chemically altered to
deliver heightened levels of EPA and/or DHA – well
beyond the levels that are found in nature, see, e.g.,
Exhibits 8-I, 9-T, 9-V, 11-A, 12-D. Some are also
chemically altered to remove less valuable or unwanted
components of common fish oil, such as saturated fat.
See Figure 2 (below).
8. Common molecular forms and mixtures of
Synthetically Produced Omega-3 Products include the
following:

App. 110
(i)

purified EPA in its ethyl ester form (“EEPA”),

(ii)

purified EPA in its re-esterified form
(“rTG-EPA”),

(iii)

omega-3 mixtures in their ethyl ester
form (“E-OM3”), and

(ii)

omega-3 mixtures in their re-esterified
form (“rTG-OM3”).

Amarin believes that all of the Synthetically Produced
Omega-3 Products identified in this complaint contain
E-EPA, rTG-EPA, E-OM3 (where E-EPA is the
predominant component), or rTG-OM3 (where rTGEPA is the predominant component). Exhibits 8-A –
12-M1; see also Section VII.
9. To synthesize omega-3 fatty acid mixtures, or
their EPA or DHA components, from their natural
triglyceride form into their ethyl ester form, the
natural triglyceride molecules undergo chemical
reactions. First, the glycerol backbone of each
triglyceride molecule in the common fish oil is removed.
Second, the resulting free fatty acids are reacted with
ethanol through a process known as esterification. This
ethyl ester form allows for the substantial heightening
of the level of the E-EPA and/or E-DHA in the
synthetically produced oil. The manufacturer can
choose which fatty acid levels to heighten, and either to

1

Throughout this document, when a range of exhibits is given, it
refers to all like subparts within the given range, unless otherwise
noted.

App. 111
manipulate the ratio of E-EPA to E-DHA or to purify
the product into E-EPA or E-DHA.
10.
The differences between the complex mixture
of multiple constituents that comprise common fish oil
products and the various pharmacologically designed
and chemically synthesized products is illustrated by
comparing Figure 1 (above) to Figure 2 (below).
Figure 2. Vascepa® (Purified E-EPA)*

*Vascepa® Full Prescribing Information, Exhibit 15
(reflecting that FDA has labeled Vascepa® 1 gram
capsules as containing 1 gram of E-EPA. The capsules
also contain trace amounts of inactive ingredients
including, tocopherol, an anti-oxidation agent designed
to protect the fragile active ingredient).
11.
Vascepa®, the product highlighted in Figure
2, is the only drug approved by the FDA that contains
purified E-EPA. See List of FDA-Approved Icosapent
Ethyl (E-EPA) Drugs in Orange Book, Exhibit 16
(icosapent ethyl is an alternate name for
eicosapentaenoic acid in ethyl ester form). Vascepa® is
manufactured and marketed by Amarin. There are also
branded and generic FDA-approved drugs that contain

App. 112
omega-3 mixtures in their ethyl ester form (E-OM3).
See List of FDA-Approved Omega-3 Ethyl Ester Drugs
in the Orange Book, Exhibit 17. FDA has approved
these drugs for use as an adjunct to diet to reduce
triglyceride levels in adult patients with severe
hypertriglyceridemia. See, e.g., Vascepa® Full
Prescribing Information, Exhibit 15; Lovaza® Full
Prescribing Information, Exhibit 18. Severe
hypertriglyceridemia (too much fat in the blood) is a
disease that can lead to inflammation of the pancreas,
which can cause life-threatening complications. See
Pancreatitis, Patient Care & Health Information, Mayo
Clinic (accessed August 4, 2017), Exhibit 19. Severe
hypertriglyceridemia can also raise or indicate
increased risk of heart disease. See High CholesterolMedicines To Help You, FDA Website (accessed August
4, 2017) (noting that “[t]riglycerides are another form
of fat in your blood that can raise your risk for heart
disease”), Exhibit 20.
12.
Since the launch of these FDA-approved
drugs, companies have been increasingly falsely
labeling and promoting products that contain
chemically heightened levels of EPA as “dietary
supplements.” See Jennifer Grebow, Ultra-High
Concentrates and the Next Omega-3, Supply Side West
Report, Nutritional Outlook, Oct. 14, 2015, Exhibit 21
(“Omega-3 suppliers . . . are now taking omega-3
concentrates for dietary supplements into nearpharmaceutical territory . . . . ”); see also Hank Schultz,
EPA-only nutraceuticals ride pharma’s coattails into
marketplace, NUTRA Ingredients-usa.com, Oct. 21,
2013, Exhibit 22. This recent free-riding is not
surprising, and it is likely that it has occurred ever

App. 113
since E-EPA first gained recognition in the
marketplace as a “drug” in the mid-1980s, as discussed
in paragraphs 80-83.
13.
The ethyl ester components of the FDAapproved drugs (i.e., E-OM3, E-EPA, and E-DHA) can
also be further chemically altered into the re-esterified
triglyceride (rTG) form using enzymes in a chemical
process called glycerolysis. Food-grade enzymes
separate the ethanol molecule from the fatty acid,
creating a free fatty acid (“FFA”) molecule and a free
ethanol molecule. When glycerol is reintroduced to the
solution, the enzymes then re-esterify the fatty acids
back onto a glycerol backbone, creating re-esterified
triglyceride (rTG) oil. The molecular distinctions
between omega-3 fatty acids in their natural
triglyceride forms (e.g., nTG-OM3 and nTG-EPA), in
their ethyl ester forms (e.g., E-OM3 and E-EPA), and in
their re-esterified forms (e.g., rTG-OM3 and rTG-EPA)
are further explained in paragraphs 49-50, and in
Figure 3, in Section IV.
14.
The Proposed Respondents are falsely
labeling and/or promoting Synthetically Produced
Omega-3 Products for use in, or as “dietary
supplements.” Exhibits 1-B – 7-B, 8-A-ii – 12-M-ii. As
explained in paragraphs 58-105, labeling and/or
promoting these products as “dietary supplements” is
false because E-OM3, E-EPA, rTG-OM3, and rTG-EPA
do not meet the definition of “dietary supplement” in
the FDCA, 21 U.S.C. § 321(ff), and these products are
actually unapproved “new drugs” under the FDCA.
This false labeling and/or promotion of the
Synthetically Produced Omega-3 Products constitute

App. 114
unfair trade practices or unfair methods of competition
in violation of Section 337 because they deceive or have
the capacity to deceive a substantial segment of
potential consumers, and that deception is material to
purchasing decisions in violation of Section 43(a) of the
Lanham Act. False labeling and/or promotion also
misbrands the products under the standards set forth
in Section 502 of the FDCA. 21 U.S.C. § 352.
15.
Moreover, such false labeling and/or
promotion is unfair to Amarin and other
pharmaceutical companies that have invested the
necessary resources to bring competing drug products
to market, and it serves as a disincentive for drug
companies to invest resources in drug development in
the future. In particular, falsely labeling and/or
promoting products as “dietary supplements” enables
the Proposed Respondents to avoid the drug approval
process and the associated time and investment
necessary to conduct clinical trials to show that their
products are safe and effective for each intended use
and to obtain FDA approval for each intended use. See
21 U.S.C. § 355. Disregarding the FDA drug approval
process also enables the Proposed Respondents to avoid
the following: (i) limiting the indications for their
products to those that have been approved by FDA, see
id. § 355(a); (ii) applicable user fee costs associated
with manufacturing drugs, id. § 379h; and
(iii) applicable costs associated with complying with
FDA’s drug registration, id. § 360, listing, id., and
labeling and manufacturing requirements, id. §§ 502(f),
501(a)(2)(B). In addition, it allows the Distributors to
avoid the need to sell their products pursuant to a

App. 115
prescription by a licensed healthcare professional, see
id. § 353(b).
16.
Amarin has a domestic industry. Amarin
specializes in developing effective therapies, approved
by FDA, to treat disease, with a focus on
hypertriglyceridemia and cardiovascular disease.
Amarin developed Vascepa®, a prescription drug that
lists icosapent ethyl as the drug’s active
pharmaceutical ingredient (“API”) – legally – by
investing the necessary resources to conduct clinical
trials to show that the drug is safe and effective.
Amarin then obtained FDA approval for the drug. See
List of FDA-Approved Icosapent Ethyl Drugs (E-EPA)
in Orange Book, Exhibit 16. Icosapent ethyl,
Vascepa®’s API, is the ethyl ester form of EPA, namely
E-EPA. The FDA approved Vascepa® for use as an
adjunct to diet to reduce triglyceride levels in adult
patients with severe hypertriglyceridemia. See
Vascepa® Full Prescribing Information, Exhibit 15.
Amarin markets and sells Vascepa® in the United
States as a prescription drug. Vascepa® is the only
FDA-approved purified E-EPA mixture on the United
States market. See List of FDA-Approved Icosapent
Ethyl Drugs (E-EPA) in Orange Book, Exhibit 16.
Vascepa® is a low-cost drug from a consumer
perspective. According to Amarin’s records, on average,
the monthly cost of Vascepa® is typically less than
$200, and this cost is mostly covered by insurance
plans. Exhibit 23. In addition, the majority of patients
covered by insurance who obtain prescriptions for
Vascepa® pay a monthly co-pay charge of $9.99 or less.
Confidential Exhibit 24. In fact, a consumer with
commercial insurance can pay as little as $9.00 for a

App. 116
90-day supply prescription of Vascepa®. Exhibit 25.
Finally, Amarin makes substantial investments in
encapsulation, packaging, logistics, sales and
marketing, along with substantial investments in labor
conducting clinical trials in support of Vascepa®.
Exhibit 23.
17.
The Synthetically Produced Omega-3
Products compete with Vascepa® and injure Amarin
because, like Vascepa®, they are chemically modified
to deliver heightened levels of EPA. Exhibits 9-O, 9-V,
9-T, 11-A, 12-D. Indeed, all the Synthetically Produced
Omega-3 products in ethyl ester form (i.e., E-OM3 and
E-EPA) actually contain E-EPA – Vascepa’s active
ingredient. Moreover, the Synthetically Produced
Omega-3 Products are often marketed and used to
treat the same diseases for which Vascepa® has been,
and is being, developed. See Tables 1 and 2. The
Proposed Respondents’ importation and sale of
Synthetically Produced Omega-3 Products has injured
and/or threatened Amarin with substantial injury by
(i) damaging the Vascepa® brand by exploiting
Vascepa®’s status as an FDA-approved drug,
(ii) causing lost sales and market share to Vascepa, and
(iii) diminishing profitability and eroding prices.
Amarin also has the capacity and/or inventory to
supply the entire U.S. market demand for the
Synthetically Produced Omega-3 Products (and
similarly situated products), and Proposed
Respondents’ unfair acts prevent Amarin from making
these sales, as discussed in paragraphs 225-229.
18.
Finally, because false labeling and promotion
enables purported “dietary supplement” products to

App. 117
evade the drug approval process, it also endangers the
public health. Indeed, former-Attorney General Lynch
observed the following with regard to “dietary
supplements”:
What many Americans don’t know is that
dietary supplements are not subject to testing
[by FDA] before they reach the store shelves –
meaning that every day, millions of Americans
are ingesting substances whose safety and
efficacy are not guaranteed. Some of these
supplements are simply a waste of money,
promising results that they can’t deliver or
advertising ingredients that they don’t contain.
And too often, these supplements don’t just
abuse consumer trust – they also endanger
public health. Some contain harmful
ingredients, causing consumers to fall ill. Others
falsely claim to cure illness and disease, leading
patients to use them as a substitute of proven
therapies they may need. But whether these
supplements are deceptive or dangerous, the fact
remains that too many companies are making
profits by misleading – and in some cases
harming – American consumers.
Former-Attorney General Lynch Discusses
Department’s Efforts to Protect Consumers From
Unsafe Dietary Supplements, Department of Justice,
Office of Public Affairs, March 8, 2016 (emphasis
added), Exhibit 26. Then-Attorney General Lynch’s
remarks were in reference to the Department of
Justice’s (“DOJ’s”) “dietary supplement” enforcement
sweep in November 2015, which it conducted with the

App. 118
FDA and other federal partners. See Justice
Department and Federal Partners Announce
Enforcement Actions of Dietary Supplement Cases,
Nov. 18, 2015, Exhibit 27.
19.
Although Section 337 and the Lanham Act
are both designed to protect commercial interests
against unfair methods of competition by authorizing
private parties to sue competitors – they can also
indirectly protect the public, particularly where FDA
and other government entities have not acted, or have
not acted to the full extent of their authority. Given the
government’s limited resources, it simply cannot
pursue all deceptively labeled and deceptively
promoted products.
20.
Indeed, FDA has primary responsibility for
policing the “labeling” of “dietary supplements” and the
“labeling” and “advertising” of unapproved “new
drugs.” See Memorandum of Understanding Between
the Federal Trade Commission and the Food and Drug
Administration, 225-71-8003, Sept. 9, 1971, Exhibit
28; see also 21 U.S.C. § 321(m) (defining “labeling”); 21
C.F.R. § 202.1(1) (providing examples of “labeling” and
“advertising”). Yet, according to a recent PBS
“Frontline” documentary, produced in collaboration
with The New York Times, FDA has only about 25
people in the division that oversees products positioned
as “dietary supplements,” and more than 85,000 of
these products are sold each year. As reported in that
program, “[FDA] target[s] companies they consider the
most risky, but agree the problem remains much bigger
than that.” See Frontline: Supplements and Safety,
PBS and The New York Times, Exhibit 29; see also

App. 119
Complainant’s Brief On Jurisdiction, Confidential
Exhibit 30.
II.

COMPLAINANTS

21.
Complainant Amarin Pharma is incorporated
under the laws of Delaware with its primary office
located at 1430 Route 206, Bedminster, NJ 07921.
Amarin Pharma runs Amarin’s United States
operations, including sales, marketing, research and
development, and regulatory affairs, among other
things.
22.
Complainant Amarin Ireland is organized
under the laws of the Republic of Ireland with its
principal offices at 2 Pembroke House, Upper
Pembroke Street 28-32, Dublin 2 Ireland. Amarin
Ireland is a biopharmaceutical company specializing in
developing effective, approved therapies to improve
cardiovascular health. Amarin Ireland and Amarin
Pharma are both wholly owned subsidiaries of Amarin
Corporation plc, a public limited liability company
organized under the laws of England and Wales.
23.
Amarin developed Vascepa®, a prescription
drug that lists icosapent ethyl as the drug’s APL
Icosapent ethyl is another name for E-EPA. Amarin
Ireland is the holder of NDA No. 202057 for Vascepa®
(icosapent ethyl) Capsules, for oral use. The FDA
approved Vascepa® for use as an adjunct to diet to
reduce triglyceride levels in adult patients with severe
hypertriglyceridemia. Amarin markets and sells
Vascepa® in the United States as a prescription drug.

App. 120
III.

PROPOSED RESPONDENTS
A. Manufacturers/Importers

24.
Proposed Respondent Royal DSM NV (“DSM
NV”) is a manufacturer of Synthetically Produced
Omega-3 Products. DSM NV’s headquarters are located
at Het Overloon 1 6411 TE, Heerleen, The
Netherlands.
25.
Proposed Respondent DSM Marine Lipids
Peru S.A.C. (“DSM-Peru”) is a manufacturer of
Synthetically Produced Omega-3 Products. DSM-Peru’s
headquarters are located at Calle Principal S/N Caserio
la Legua, Catacaos Piura, Peru.
26.
Proposed Respondent DSM Nutritional
Products LLC (“DSM-US”) is a manufacturer of
Synthetically Produced Omega-3 Products. DSM-US’s
headquarters are located at 45 Waterview Blvd.,
Parsippany, NJ 07054.
27.
Proposed Respondent DSM Nutritional
Products Canada, Inc. (“DSM-Canada”) is a
manufacturer of Synthetically Produced Omega-3
Products. DSM-Canada is located at 105 Neptune
Crescent, Dartmouth, NS B2Y4T6.
28.
Proposed Respondent Ultimate Biopharma
(Zhongshan) Corporation (“Ultimate”) is a Chinese
foreign joint venture limited company that
manufactures softgel capsules containing Synthetically
Produced Omega-3 Products. Ultimate’s headquarters
are located at 10 Jiankang Road, National Health
Technology Park, Zhongshan, Guandong, People’s
Republic of China.

App. 121
29.
Proposed Respondent Marine Ingredients AS
is a manufacturer of Synthetically Produced Omega-3
Products. Marine Ingredients AS’s headquarters are
located at Strandgata 60, 6270 Brattvag, Norway.
30.
Proposed Respondent Marine Ingredients
LLC is a U.S. importer of Synthetically Produced
Omega-3 Products. Its headquarters are located at 794
Sunrise Blvd., Mt. Bethel, Pennsylvania 18343.
31.
Proposed Respondent Golden Omega S.A. is
a manufacturer of Synthetically Produced Omega-3
Products. Its headquarters are located at Avenida
Apoquindo Ote. 5550, Piso 8, Las Condes, Santiago,
Chile.
32.
Proposed Respondent Golden Omega USA
LLC is a U.S. importer of Synthetically Produced
Omega-3 Products. Its headquarters are located at 65
Enterprise, Aliso Viejo, California, 92656.
33.
Proposed Respondent Nordic Pharma, Inc. is
a manufacturer of Synthetically Produced Omega-3
Products. Its headquarters are located at Ropnesveien
71, 9107 Kvaløya, Norway.
34.
Proposed Respondent Croda Europe Ltd. is a
manufacturer of Synthetically Produced Omega-3
Products. Its headquarters are located at Cowick Hall,
Snaith Goole, East Yorkshire DN14 9AA, United
Kingdom.
35.
Proposed Respondent Croda Inc. is a U.S.
importer of Synthetically Produced Omega-3 Products.
Its headquarters are located at 300-A Columbus Circle,
Edison, NJ 08837.

App. 122
36.
Proposed Respondent Tecnologica de
Alimentos S.A. is a manufacturer of Synthetically
Produced Omega-3 Products. Its headquarters are
located at Las Begonias 441, Of. 352, San Isidro, Lima
27, Peru.
B. Distributors
37.
Proposed Respondent The Nature’s Bounty
Co. (“Nature’s Bounty”), is a U.S. distributor of
imported Synthetically Produced Omega-3 Products. In
2010, a Nature’s Bounty subsidiary acquired Ultimate.
Exhibit 2-E-ii. Nature’s Bounty’s headquarters are
located at 2100 Smithtown Avenue, Ronkonkoma, New
York 11779.
38.
Proposed Respondent Nordic Naturals, Inc. is
a U.S. distributor of imported Synthetically Produced
Omega-3 Products. Nordic Naturals’ headquarters are
located at 111 Jennings Drive, Watsonville, California
95076.
39.
Proposed Respondent Pharmavite LLC is a
U.S. distributor of Nature Made-branded imported
Synthetically Produced Omega-3 Products. Its
headquarters are located at 8510 Balboa Blvd. # 100,
Northridge, California 91325.
40.
Proposed Respondent Innovix Pharma Inc. is
a U.S. distributor of OmegaVia-branded imported
Synthetically Produced Omega-3 Products. Its
headquarters are located at 26500 Agoura Road, Suite
102790, Calabasas, CA 91302.
41.
Proposed Respondent J.R. Carlson
Laboratories, Inc. is a U.S. distributor of imported

App. 123
Synthetically Produced Omega-3 Products. Its
headquarters are located at 600 W. University Dr.,
Arlington Heights, Illinois, 60004.
IV.

THE PRODUCTS AT ISSUE

42.
The Proposed Respondents’ Synthetically
Produced Omega-3 Products that are the subject of this
investigation contain derivatives of naturally occurring
omega-3 fatty acids. Omega-3 fatty acids are a category
of polyunsaturated fatty acids that include EPA and
DHA. Omega-3 fatty acids are marketed, legally and
illegally, in the United States in a number of different
mixtures and molecular forms. Common mixtures and
molecular forms include the following: (i) common fish
oil (i.e., a natural omega-3 mixture (“nTG-OM3”)),
(ii) purified EPA mixtures in their ethyl ester form (“EEPA”), (iii) purified EPA mixtures in their re-esterified
form (“rTG-EPA”), (iv) omega-3 mixtures in their ethyl
ester form (“E-OM3”), and (v) omega-3 mixtures in
their re-esterified form (“rTG-OM3”). Although common
fish oil contains omega-3 fatty acids in their natural
triglyceride form (nTG-OM3) – E-EPA, rTG-EPA, EOM3, and rTG-OM3 are synthetically produced
through processes involving a number of chemical
reactions.
43.
Upon information and belief, all of the
Synthetically Produced Omega-3 Products identified in
this complaint contain E-EPA, rTG-EPA, E-OM3
(where the predominant component is E-EPA) or rTGOM3 (where the predominant component is rTG-EPA).
Exhibits 8-A – 12-M; see also Section VII.

App. 124
44.
Omega-3 fatty acids are found in fish and are
most prevalent in oily fish, such as salmon, tuna, lake
trout, mackerel, menhaden, sardines, anchovies, and
herring. Oil in these fatty acids can be extracted by:
(1) cooking and pressing the fish to separate the water
and oil from the proteins and solids, (2) removing the
water from the oil, and (3) polishing the oil (i.e.,
deacifying, degumming, and washing the oil several
times). When this oil is used for human consumption,
it is also bleached and deodorized. At this point, the
nTG-OM3 has been extracted from the fish through
physical processes only – no chemical bonds have been
broken or created. The resulting oil is common fish oil
in nTG form, and depending upon the fish from which
the oil was derived and the environmental conditions
in which the fish were raised, the ratio of nTG-EPA
and nTG-DHA can differ. Before it is sold, however,
common fish oil is generally blended and standardized
to contain approximately 180 mg of nTG-EPA and 120
mg of nTG-DHA per gram (1000 mg) of oil. Though the
ratio of EPA to DHA may vary slightly, this oil is often
referred to as 18:12 fish oil. The numbers 18:12
represent the approximate ratio of nTG-EPA to nTGDHA by weight: 18% of the oil, by weight, is nTG-EPA;
and 12% of the oil, by weight, is nTG-DHA (therefore,
30% of the oil, by weight is nTG omega-3 fatty acids).
The remaining 70% of the oil has other constituents,
typically, most predominantly, saturated fat, other
omega-3 fatty acids, and omega-6 and omega-9 fatty
acids. See Figure 1 (in Section I, and repeated below).
45.
It is not possible to produce natural marine
oil with a collective concentration of nTG-EPA and
nTG-DHA that is greater than approximately 30% by

App. 125
weight of the oil. Oils with a higher concentration of
EPA and DHA than approximately 30% must be
chemically synthesized. Synthetic oils with higher
concentrations of EPA and/or DHA that are available
today are commonly in either the ethyl ester form or
the re-esterified triglyceride form.
46.
The first step in the process of synthesizing
common fish oil to yield higher concentrations of EPA
and DHA involves a chemical reaction wherein the
glycerol backbone of each triglyceride molecule in the
fish oil is removed, resulting in “free fatty acids”
(“FFA”), including FFA-EPA and FFA-DHA, and a “free
glycerol” molecule. The FFA-EPA and FFA-DHA are
then chemically reacted with ethanol through a process
known as esterification. Esterification changes the
fatty acids into ethyl ester form, such that FFA-EPA
becomes E-EPA, and FFA-DHA becomes E-DHA.
47.
The resulting ethyl ester form allows for
substantial heightening of the level of the E-EPA or
other components. The fatty acid level can be
heightened using a number of different physical
procedures, the two most common of which are
molecular distillation and supercritical fluid
technology. These technologies allow the manufacturer
to choose which fatty acid levels to heighten, and to
either manipulate the ratio of E-EPA to E-DHA or to
purify the product into substantially only E-EPA.
48.
Synthetically produced ethyl ester fatty acids,
such as E-EPA, can also be chemically converted to the
re-esterified triglyceride form using enzymes in a
chemical process called glycerolysis. Food-grade
enzymes separate the ethanol molecule from the fatty

App. 126
acid, creating a FFA and a free ethanol molecule. When
glycerol is reintroduced to the solution, the enzymes
then re-esterify the fatty acids back onto a glycerol
backbone, creating re-esterified triglyceride (rTG) oil.
49.
Omega-3 mixtures in their ethyl ester form,
regardless of whether they are characterized as E-OM3
mixtures or more purified E-EPA or E-DHA mixtures,
are different from omega-3 mixtures in their natural
triglyceride, or nTG, form in a number of ways. For
example, the ratio of EPA to DHA in ethyl ester
mixtures is often significantly different from the ratio
in naturally occurring (nTG) mixtures. In addition, the
EPA and DHA levels in the ethyl ester mixtures
typically are much higher than they are in natural
mixtures. Also, the E-EPA and E-DHA molecules are
chemically altered from the nTG-EPA and nTG-DHA
molecules and become chemically distinct as a result of
such alteration. These types of differences are material
because they can affect the efficacy and safety of the
ethyl ester mixture, compared to the nTG mixture (e.g.,
concentration can lead to greater efficacy and, for
example, higher levels of DHA have been associated
with certain unwanted effects, particularly in diseased
patients with severely high levels of triglycerides in the
blood). The differences between the complex mixture of
multiple constituents that comprise common fish oil
products and the pharmacologically designed highly
pure synthesized E-EPA product, Vascepa®, are
illustrated in Figures 1 and 2. The differences between
the E-OM3 and nTG-OM3 molecules, and their
components, are illustrated in Figure 3.

App. 127
Figure 1. Leading Common Fish Oil Supplement with
30% nTG-OM3.*

* See R. Preston Mason and Samuel C.R. Sherratt,
Omega-3 fatty acid fish oil dietary supplements contain
saturated fats and oxidized lipids that may interfere
with their intended biological benefits, Biochemical and
Biophysical Research Communications (2016), 1-5.
Exhibit 14.
Figure 2. Vascepa® (E-EPA)*

*Vascepa®, Full Prescribing Information, Exhibit 15
(reflecting that FDA has labeled Vascepa® 1 gram
capsules as containing 1 gram of E-EPA. The capsules
also contain trace amounts of inactive ingredients
including, tocopherol, an anti-oxidation agent designed
to protect the fragile active ingredient).

App. 128
Figure 3. Conversion of nTG-OM3 to E-OM3 to rTGOM3
nTG-OM3 to E-OM3 to rTG-OM3

Disclaimer - The triglyceride molecules shown in the
scheme are merely representative of certain molecular
species that would be expected to be present in both
natural fish oil and rTG oil. They do not represent the
only molecular species in these mixtures. These
mixtures would contain a variety of fatty acid residues,
in addition to DHA, EPA, stearic and palmitic acid. The
scheme is intended to represent, qualitatively, the type
of chemical transformation that occurs in each step.

App. 129
50.
Omega-3 mixtures in their rTG form,
regardless of whether they are characterized as rTGOM3 mixtures or the more purified rTG-EPA or rTGDHA mixtures, are also different from omega-3
mixtures in their natural triglyceride, or nTG, form in
a number of ways. For example, the ratio of EPA to
DHA in rTG-OM3 mixtures is often different from the
ratio in naturally occurring (nTG) mixtures. In
addition, the EPA and DHA levels in the rTG mixtures
are typically much higher than they are in natural
mixtures. This is because the re-esterification process
adds, on average, one extra fatty acid to each
triglyceride molecule. Further, nTG and rTG typically
have different molecular structures. When the EPA,
DHA, and other fatty acids, are re-attached to the
glycerol molecule, during the chemical re-esterification
process, they randomly attach to one of three different
points on the glycerol molecule: SN-1, SN-2, or SN-3.
Even though the pattern of attachment is random,
based on statistical probability, more EPA, DHA, and
other fatty acids attach to the SN-1 and SN-3 points
than the SN-2 point. In nTG, however, the EPA and
DHA are typically bound to the SN-2 position. Finally,
during the re-esterification process, not all fatty acids,
such as EPA and DHA, reattach to the glycerol
molecule as triglycerides. Thus, large percentages of
the oil, often approximately 40%, are in di-glyceride or
mono-glyceride form. Notably, di-glycerides and monoglycerides are not components of natural fish oil, nTG,
at all. In nTG-OM3 mixtures (common fish oil), 100%
of the oil is in triglyceride form. As described above,
these types of differences are material because they can
affect the efficacy and safety of the rTG mixture,
compared to the nTG mixture (e.g., concentration can

App. 130
lead to greater efficacy and, for example, higher levels
of DHA have been associated with unwanted effects,
particularly in some diseased patients with abnormally
high levels of triglycerides in the blood). The
differences between the rTG-EPA and nTG-EPA
molecules, as well as the differences between the rTGDHA and nTG-DHA molecules are illustrated in Figure
3.
51.
Upon information and belief, all of the
Proposed Respondents’ Synthetically Produced Omega3 Products contain E-EPA, rTG-EPA, E-OM3, or rTGOM3. Exhibits 1 – 12. Upon information and belief, all
of these products are synthesized (i.e., chemically
altered) using the same basic chemical processes
described above, and as such, they are distinct from
common fish oil, i.e., nTG-OM3.
V.

JURISDICTION

52.
The Commission had jurisdiction over this
investigation for the reasons set forth in Complainant’s
Brief On Jurisdiction. Exhibit 30.
VI.

UNLAWFUL AND UNFAIR
PROPOSED RESPONDENTS

ACTS

OF

A. Proposed Respondents’ Importation
And Sale Of The Synthetically Produced
Omega-3 Products Violate The Lanham
Act
53.
The Proposed Respondents’ importation and
sale of the Synthetically Produced Omega-3 Products,
and their false or misleading representations about
those products, constitute unfair acts or unfair methods

App. 131
of competition under Section 337, and violate Section
43(a) of the federal Lanham Act, 15 U.S.C. § 1125(a),
and the federal common law of unfair competition.
54.
that:

Section 43(a) of the Lanham Act provides
[a]ny person who, on or in connection
with any goods or services, or any
container for goods, uses in commerce any
word, term, name, symbol, or device, or
any combination thereof, or any false
designation of origin, false or misleading
description of fact, or false or misleading
representation of fact, which – . . . (B) in
commercial advertising or promotion,
misrepresents the nature, characteristics,
qualities, or geographic origin of his or
her or another person’s goods, services, or
commercial activities, shall be liable in a
civil action by any person who believes
that he or she is or is likely to be
damaged by such act.

15 U.S.C. § 1125(a).
55.
The elements of a false advertising/promotion
claim under the Lanham Act are (i) a false or
misleading statement of fact is being made by the
defendant about a product; (ii) the statement is
deceiving or has the capacity to deceive a substantial
segment of potential consumers; (iii) the deception is
material, in that it is likely to influence a purchasing
decision; (iv) the defendant is causing the false
statement to enter interstate commerce; and (v) the

App. 132
complainant has been or is likely to be injured as a
result of the statement. See Hewlett-Packard Co. v.
NU-Kate Int’l, Inc., 155 F.3d 571 (Fed. Cir. 1998)
(citing Southland Sod Farms v. Stover Seed Co., 108
F.3d 1134, 1139 (9th Cir. 1997)); see also Marcinkowska
v. IMG Worldwide, Inc., 342 F. App’x 632, 636 (Fed.
Cir. 2009) (citing Scotts Co. v. United Indus. Corp., 315
F.3d 264, 272 (4th Cir.2002)).
56.
When a complainant can show that a
statement is “literally false,” or false on its face,
however, the consumer deception is presumed, such
that proving the third element is not necessary. See
Clock Spring, L.P. v. Wrapmaster, Inc., 560 F.3d 1329,
n. 10 (Fed. Cir. 2009). A statement may be “literally
false” due to a material omission, among other reasons.
See, e.g., Pfizer Inc. v. Miles Inc., 868 F.Supp. 437 (D.
Ct. 1994) (holding that an omission that is likely to
deter physicians from using an FDA approved drug is
material and makes the advertisement’s statement “a
literal falsity”).
57.
In addition, parties other than those making
false statements can be contributorily liable for
Lanham Act violations. See, e.g., Duty Free Ams., Inc.
v. Estee Lauder Co., 797 F.3d 1248, 1273 (11th Cir.
2015); Merck Eprova AG v. Gnosis S.p.A., 901 F. Supp.
436, 456 (S.D.N.Y. 2012) (finding company liable to
Merck for contributory false advertising). The elements
of a contributory false advertising/promotion claim
include showing that (1) a third party directly engaged
in false advertising/promotion that injured the plaintiff
and (2) the respondent at issue contributed to that
conduct by knowingly inducing or causing the conduct,

App. 133
or by materially participating in it. See Duty Free Ams.,
797 F.3d at 1277.
1. Proposed respondents are making
false statements about the
Synthetically Produced Omega-3
Products by labeling and/or
promoting them as “dietary
supplements” when they are actually
unapproved “new drugs”
58.
The Distributors of the Synthetically
Produced Omega-3 Products are unlawfully importing
or selling their products with labeling, advertising
and/or other promotional materials (“Promotional
Materials”) that are literally false. Among other things,
the labeling for all of the Distributors’ Synthetically
Produced Omega-3 Products falsely asserts that the
products are “dietary supplements,” or it falsely implies
that they are “dietary supplements” by using some
modification of that term (e.g., “Omega-3 Supplement”).
Exhibits 8-A-ii – 12-M-ii. Indeed, the term “dietary
supplement” or a modification of that term using the
name of the ingredient in the product is required to
appear on “dietary supplement” labeling by law. 21
U.S.C. §§ 321(ff)(2)(C), 343(s)(2)(B).
59.
In addition, all of the Manufacturers (except
Ultimate) are unlawfully importing or selling their
products with Promotional Materials that are literally
false because they assert that the products are for use
in, or as “dietary supplements.” Exhibits 1-B – 7-B.
60.
Labeling and/or promoting Synthetically
Produced Omega-3 Products for use in, or as “dietary

App. 134
supplements” is literally false because these products
(i) cannot meet the definition of “dietary supplement”
in Section 201(ff) of the FDCA, 21 U.S.C. § 321(ff) and
(ii) are being referred to as “dietary supplements” to
hide the fact that they are actually unapproved “new
drugs.”
a. The Synthetically Produced
Omega-3 Products cannot meet
the definition of “dietary
supplement” in the FDCA
61.
None of the Synthetically Produced Omega-3
Products meets the definition of “dietary supplement”
in the FDCA because none of the products bears or
contains a “dietary ingredient.” 21 U.S.C. § 321(ff)(1).
Moreover, although the failure to bear or contain a
“dietary ingredient” is sufficient to preclude a product
from being a “dietary supplement,” the Synthetically
Produced Omega-3 Products that emphasize E-EPA in
their manufacture or marketing are also excluded from
the definition of “dietary supplement” by the
definition’s “exclusionary clause.” See id. § 321(ff)(3)(B).
i. The Synthetically Produced
Omega-3 Products do not meet
the definition of “dietary
supplement” because they do
not bear or contain a “dietary
ingredient”
62.
The definition of “dietary supplement” in the
FDCA applies only to products that, among other
things, bear or contain one or more of the following
“dietary ingredients”: “(A) a vitamin, (B) a mineral,

App. 135
(C) an herb or other botanical, (D) an amino acid, (E) a
dietary substance for use by man to supplement the
diet by increasing the total dietary intake, or (F) a
concentrate, metabolite, constituent, extract, or
combination of any ingredient described in clause (A),
(B), (C), (D), or (E).” 21 U.S.C. § 321(ff)(1). Products
marketed with ingredients that do not fall within the
categories of “dietary ingredients” listed in Section
201(ff)(1) of the FDCA, 21 U.S.C. § 321(ff)(1), cannot be
marketed as, or for use in, “dietary supplements.” See
id.
63.
The Synthetically Produced Omega-3
Products are not “dietary supplements” because EEPA, rTG-EPA, E-OM3, and rTG-OM3 do not fall into
any of the categories of “dietary ingredients” under the
Section 201(ff)(1) of the FDCA. As an initial matter, EEPA, rTG-EPA, E-OM3, E-EPA, and rTG-OM3 are not
vitamins, minerals, herbs, or other botanicals, and
therefore, they do not fall under subsections
201(ff)(1)(A)-(D). Moreover, they do not fall under
subsections 201(ff)(1)(E) or (F) either.
a) The Synthetically Produced
Omega-3 Products do not
fall under subsection
201(ff)(1)(E) of the “dietary
ingredient” definition
64.
Unlike nTG-OM3 and nTG-EPA, which
naturally occur in fish oil, E-EPA, rTG-EPA, E-OM3,
and rTG-OM3 do not fall under subsection (E). They
are not “dietary substance[s] for use by man to
supplement the diet by increasing the total dietary
intake.” 21 U.S.C. § 321(ff)(1)(E). According to FDA,

App. 136
when the chemical structure of a dietary ingredient is
altered, for example, by the “addition of new chemical
groups as in esterification,” it:
creates a new substance that is different
from the original dietary ingredient. The
new dietary ingredient is not considered
to be a dietary ingredient merely because
it has been altered from a substance that
is a dietary ingredient, and therefore, is
in some way related to the dietary
ingredient.
Dietary Supplements: New Dietary Ingredient
Notifications and Related Issues: Guidance for
Industry (Draft), August 2016 (NDI Guidance), at 41
(emphasis added), Exhibit 31. This is a well-settled
FDA policy that previously has been articulated in
Federal Register notices and implemented in rejections
of new dietary ingredient notifications. See, e.g., 81
Fed. Reg. 61700, 61702 (Sept. 7, 2016), Exhibit 32,
(noting that vinpocetine “is a synthetic compound,
derived from vincamine, an alkaloid found in the Vinca
minor plant” because it undergoes transesterification
and/or dehydration of vincamine in ethanol); FDA
Letter to AIBMR Life Sciences, Inc., dated March 19,
2014, Exhibit 33 (finding that synthetic fish oil fatty
acid esters were “not constituents of a dietary
substance for use by man under Section 201 (ff)(1)(F)”).
65.
FDA refers to these chemically altered
ingredients – these new substances – as “synthetic” or
“synthetically produced” ingredients, and it uses those
terms interchangeably to refer to ingredients that are
synthesized from natural starting materials as well as

App. 137
unnatural starting materials. See, e.g., NDI Guidance,
at 37-41, Exhibit 31; see also 81 Fed. Reg. at 61702,
Exhibit 32; FDA Warning Letter to Quincy Bioscience
Manufacturing Inc., dated Oct. 16, 2012, Exhibit 34
(concluding that synthetic apoaequorin manufactured
from “rapidly dividing host cells,” which are natural
materials, is not a “dietary ingredient”); FDA Letter to
Syntech (SSPF) International, dated December 6, 2004,
Exhibit 35 (finding that betaphrine, an ingredient
chemically synthesized from substances that are
themselves “dietary ingredients,” is not a “dietary
ingredient” under any subsection in Section
201(ff)(1)(A)-(F) of the Act).
66.
Because E-EPA, rTG-EPA, E-OM3, and rTGOM3 are each chemically altered, or synthesized from
common fish oil, they are synthetically produced, or
synthetic. As such, they cannot fall under subsection
201(ff)(1)(E), unless they themselves are commonly
used in conventional food.
67.
For more than 15 years, FDA has consistently
found that synthetic substances do not fall under
subsection 201(ff)(1)(E), or subsections 201(ff)(1)(C) and
(F) of the “dietary ingredient” definition for that
matter, unless the synthetic substance itself is
commonly used in conventional food. And when
purported “dietary supplements” have contained a
synthetic ingredient that is not common in
conventional foods, FDA has taken action. For example,
the agency has
(i) brought enforcement actions on this basis, see,
e.g., 69 Fed. Reg. 6787, 6793 (Feb. 11, 2004),

App. 138
Exhibit 36 (citing United States v. 1009 Cases ***
No. 2:01CV-820C (D. Utah filed October 22, 2001));
(ii) denied citizen petitions on this basis, see, e.g.,
Letter from FDA to Ullman, Shapiro, & Ullman
LLP, Docket No. FDA-2009-P-0298, dated Feb. 23,
2011, Exhibit 37 (citizen petition response stating
that synthetic homotaurine may not be marketed as
a “dietary supplement” because it is not a “dietary
ingredient”);
(iii) advised other federal agencies on this basis, see,
e.g., Letter from Dennis E. Baker, Associate
Commissioner of Regulatory Affairs, FDA, to Laura
M. Nagel, Deputy Assistant Administrator, Office of
D iv ersion Contr ol , Dr ug Enf o r c e m e n t
Administration, June 21, 2001 (Nagel Letter),
Exhibit 38 (concluding that synthetic ephedrine
alkaloids are not “dietary ingredients”);
(iv) announced in the Federal Register that certain
ingredients cannot be sold as “dietary supplements”
on this basis, 69 Fed. Reg. 6793, Exhibit 36
(acknowledging that synthetic ephedrine
hydrochloride “and other synthetic sources of
ephedrine cannot be dietary ingredients because
they are not constituents or extracts of a botanical,
nor do they qualify as any other type of dietary
ingredient”);
(v) issued warning letters on this basis, see, e.g.,
FDA Warning Letter to ATS Labs, LLC, dated
February 3, 2016, Exhibit 39 (finding that 1,3dimethylbutylamine (“DMBA”) is not a “dietary
ingredient” because it is synthetic and to the best of

App. 139
FDA’s knowledge it is not used in conventional
foods); FDA Warning Letter to DBM Nutrition,
dated Nov. 30, 2015, Exhibit 40 (finding that
picamilon, “a unique chemical entity synthesized
from the dietary ingredients niacin and
aminobutyric acid” does not fall within any of the
“dietary ingredients” categories in the statute, and
therefore, is not a “dietary ingredient”); FDA
Warning Letter to Quincy Bioscience
Manufacturing Inc., dated Oct. 16, 2012, Exhibit
34 (finding that synthetic apoaequorin is not a
“dietary ingredient”); FDA Warning Letter to
Supplementstogo.com LLC, dated March 8, 2006,
Exhibit 41 (finding that methasterone, a synthetic
steroid, is not a “dietary ingredient”); and
(vi) rejected new dietary ingredient notifications on
this basis, see, e.g., FDA Letter to Syntech (SSPF)
International, dated December 6, 2004, Exhibit 35
(finding that betaphrine, a chemically synthesized
substance is not a “dietary ingredient”). In addition,
FDA recently reiterated this position in 2016 draft
guidance on “new dietary ingredients.” See NDI
Guidance at 38, Exhibit 31.
68.
The FDA’s long-standing position is based on
a plain language interpretation of the definition of
“dietary supplement” in the text in subsection
201(ff)(1)(E) – namely, “a dietary substance for use by
man to supplement the diet by increasing the total
dietary intake.” See NDI Guidance, at 38, Exhibit 31;
Nagel Letter, Exhibit 38. According to FDA, Webster’s
II New Riverside University Dictionary, provides that
the term “dietary” means “of or relating to the diet” and

App. 140
“diet” means “an organism’s usual food and drink.” See
NDI Guidance, at 38, Exhibit 31; Nagel Letter,
Exhibit 38. Reading those definitions in conjunction
with the phrase, “for use by man,” FDA construes the
term “dietary substance” to mean “a substance
commonly used as human food or drink.” See NDI
Guidance, at 38, Exhibit 31; Nagel Letter, Exhibit 38.
FDA also maintains that the last phrase in subsection
(E), “to supplement the diet by increasing the total
dietary intake,” provides further evidence that
Congress intended the term “dietary substance” to refer
to “foods and food components that humans eat as part
of their usual diet” because “[o]ne cannot increase the
‘total dietary intake’ of something that is not part of
the human diet in the first place.” See NDI Guidance,
at 38, Exhibit 31; Nagel Letter, Exhibit 38.
69.
Upon information and belief, E-EPA, rTGEPA, E-OM3, and rTG-OM3 are not common in
conventional food in the United States. Each is
synthetically produced.
b) The Synthetically Produced
Omega-3 Products do not
fall under subsection
201(ff)(1)(F) of the “dietary
ingredient” definition
70.
Similarly, E-EPA, rTG-EPA, E-OM3, and
rTG-OM3 do not fall under subsection 201(ff)(1)(F)
because each is a synthetically produced substance,
and upon information and belief, none of the
ingredients is a concentrate, constituent, extract, or
combination of a “dietary substance” that falls under
subsection 201(ff)(1)(E), or subsections 201(ff)(1)(A)-(D)

App. 141
for that matter. Notably, in 2014, FDA specifically
rejected a new dietary ingredient notification for a
product dubbed “synthetic fish oil fatty acid esters”– in
part, because the proponent of the ingredient had not
submitted evidence sufficient for FDA to determine
whether it met the definition of “dietary ingredient.”
See FDA Letter to AIBMR Life Sciences, Inc., dated
March 19, 2014, Exhibit 33. In reaching this
conclusion, FDA stated that the synthetic fish oil fatty
acid esters at issue were “not constituents of a dietary
substance for use by man under Section 201(ff)(1)(F).”
Id. This approach by FDA is consistent with its
conclusion that “[o]ne cannot increase the ‘total dietary
intake’ of something that is not part of the human diet
in the first place.” NDI Guidance, at 38, Exhibit 31;
Nagel Letter; Exhibit 38.
ii. C e r t a i n
Synthetically
Produced Omega-3 Products
are excluded from the
definition of “dietary
supplement” under the
exclusionary clause contained
in subsection 321(ff)(3)(B) of
the FDCA
71.
Subsection 201(ff)(3)(B) of the FDCA (i.e., the
exclusionary clause) also excludes from the definition
of “dietary supplement” any “article” that is approved
as a “new drug” or authorized for study as a “new drug”
(where substantial clinical investigations have been
instituted), that was not before such approval or
authorization legally marketed as a “dietary
supplement” or as a food. 21 U.S.C. § 321(ft)(3)(B). As

App. 142
explained below in paragraphs 80-83, E-EPA first
gained recognition in the market place by being studied
as a drug in the mid-1980s, and upon information and
belief it was not legally marketed as a “dietary
supplement” or a food prior to that time. Thus, as
explained below, E-EPA products, as well as products
containing E-OM3 that emphasize E-EPA in the way
that they are manufactured or promoted, are excluded
from the definition of “dietary supplement” under
subsection 201(ft)(3)(B) of the FDCA.
72.
The relevant “article” for the purposes of the
exclusionary clause is dictated by the circumstances
surrounding the manufacture and marketing of the
purported “dietary supplements” at issue. See
Pharmanex v. Shalala (“Pharmanex III”), 2001 WL
741419 (D. Utah 2001), *2, *4-*5 (upholding FDA’s
administrative determination); FDA Administrative
Determination on Cholestin, dated May 20, 1998, at 10,
Exhibit 42. In the seminal case on the exclusionary
clause, Pharmanex, Inc. (“Pharmanex”) marketed a
product that contained red yeast rice as a “dietary
supplement.” See FDA Administrative Determination
on Cholestin, dated May 20, 1998, at 1, Exhibit 42.
FDA, however, determined that Cholestin was not a
“dietary supplement,” but rather an unapproved “new
drug” under the FDCA. See id. FDA reasoned that
Cholestin did not meet the definition of “dietary
supplement” because Cholestin contained lovastatin,
an active ingredient in an FDA-approved drug. See id.
at 7, 10. As such, products containing lovastatin were
excluded from the definition of “dietary supplement” by
the exclusionary clause. See id. According to FDA,
lovastatin was the relevant “article” for the purposes of

App. 143
the exclusionary clause, as opposed to the finished
Cholestin product, because of the “particular
circumstances surrounding the Cholestin product,
which indicate[d] that Pharmanex, in marketing and
manufacturing Cholestin, [was] marketing and
manufacturing lovastatin, not the traditional food
product red yeast rice.” Id. at 10.
73.
Notably, the Tenth Circuit upheld FDA’s
determination that an “article” for the purposes of the
exclusionary clause can be either a finished drug
product or a component of a drug product. See
Pharmanex v. Shalala (“Pharmanex II”), 211 F.3d 1151
(10th Cir. 2000); FDA Administrative Determination
on Cholestin, dated May 20, 1998, Exhibit 42. This
interpretation ensures that substances that have
gained recognition in the marketplace as drugs cannot
be marketed as, or incorporated into, “dietary
supplements.” See FDA Administrative Determination
on Cholestin, dated May 20, 1998, at 6, Exhibit 42.
74.
The exclusionary clause encourages and
protects investment in drug development and the
resulting innovation. The Tenth Circuit and FDA have
observed, respectively, that permitting “manufacturers
to market dietary supplements with components
identical to the active ingredients in prescription
drugs” would undermine the FDCA’s incentive
structures for drug development, see Pharmanex II, 211
F.3d at 1159, and it would “serve as a disincentive to
the often significant investment needed to gain FDA
approval of new drugs.” See FDA Administrative
Determination on Cholestin, dated May 20, 1998, at 45, Exhibit 42. Protecting drug innovation is such a

App. 144
critical underpinning of the FDCA that Congress later
enacted a separate exclusionary clause to prohibit
substances that have gained recognition in the
marketplace by being studied as, or approved as drugs,
from being incorporated into conventional food as well,
unless those substances were first marketed in a food.
See 21 U.S.C. § 331(ll)).
75.
In this case, consistent with the FDA’s
decision in Pharmanex and the underlying principle of
the exclusionary clause, E-EPA is the relevant “article”
when the purported “dietary supplements” at issue
(i) contain E-EPA and (ii) emphasize E-EPA in the way
that they are manufactured or promoted. In those
instances, it is clear that the Proposed Respondents are
importing or selling E-EPA, not common fish oil, or
nTG-EPA. To adequately protect investment in drug
development and the resulting innovation, E-EPA,
which gained recognition in the marketplace as a “new
drug”, as explained in paragraphs 80-83, cannot be
marketed as, or incorporated into, “dietary
supplements.”
76.
The affected products are identified in
Exhibits 1-A – 4-A, 6-A – 7-A, 8-A – 8-C, 8-E – 8-F, 8H – 8-N, 10-A – 10-G, 12-C – 12-F, 12-J – 12-K. By
pharmacological design, EEPA is the most
predominant component in these purified E-EPA
products and E-OM3 mixtures. Id. Upon information
and belief, these products are manufactured by
following the same basic steps that drug companies
follow, as summarized in paragraphs 42-51 of the
complaint. In addition, as demonstrated in the
attached charts, these products are typically promoted

App. 145
not just for their EPA content – but for their chemically
concentrated EPA content – which would not be possible
but for the ethyl ester form. Tables 3 and 4. The
chemical cleaving of the glycerol backbone from the
nTG-OM3 and the reaction with the ethanol to form EEPA or E-OM3 enables EPA to be substantially
heightened to a level beyond that which exists in
nature. EPA in its natural triglyceride form cannot be
heightened to the same level.
77.
Moreover, the esterification of EPA – i.e., the
ethyl ester form – allows these products to be
concentrated and differentiates these products from
common fish oil or other natural sources of EPA. A
consumer would have to consume a likely intolerable
amount of common fish oil or common krill oil in an
effort to even get the same dosage of E-EPA in
Vascepa®, a highly pure form of E-EPA. For example,
a 300 mg capsule of MegaRed® Omega-3 Krill Oil
contains approximately 50 mg of natural EPA in each
capsule, see MegaRed Website, Exhibit 43, whereas a
1 gram capsule of Vascepa® contains 1000 mg of EEPA. See Vascepa® Full Prescribing Information.
Exhibit 15. Given that the FDA-approved dose of
Vascepa® to reduce triglyceride levels in adult patients
with severe hypertriglyceridemia is 4000 mg per day
(e.g., two, 1 gram capsules twice a day), consumers
would have to take approximately 80 capsules of
MegaRed® Omega-3 Krill Oil daily to get a similar
dose of EPA from that product as they would get from
four, 1 gram capsules of Vascepa®.
78.
For this reason, companies often tout their
chemically manipulated products containing E-EPA as

App. 146
being comparable to drugs that contain E-EPA (e.g.,
“Most fish oils are not the same as Lovaza. But some
Are! A few over-the counter pharmaceutical grade fish
oils [sic] are just as potent, pure and effective at
reducing triglycerides as Lovaza,” see Omega Via
Website, Exhibit 44; see also OmegaVia Website 2,
Exhibit 45 (making implicit comparisons of
OmegaVia’s so-called “pharmaceutical grade fish oil”
products to both Vascepa® and Lovaza® (another FDAapproved drug product)).
79.
The Synthetically Produced Omega-3
Products that contain E-EPA, and emphasize that
component in the manufacture and/or promotion of the
product, are excluded from the definition of “dietary
supplement” under subsection 201(ff)(3)(B) of the
FDCA, 21 U.S.C. § 321(ff)(3)(B), because the relevant
“article” – E-EPA – gained recognition in the
marketplace by being studied as a “drug,” as explained
below. And upon information and belief, Synthetically
Produced Omega-3 Products that incorporate E-EPA
are not saved from exclusion from the “dietary
supplement” definition by the “prior market clause”
because E-EPA was never legally marketed as food or
as a “dietary supplement.”
80.
E-EPA first gained recognition in the
marketplace as a drug when it was clinically studied as
a drug in the United States in the mid-1980s, if not
earlier. Studies on E-EPA, in E-OM3 mixtures, began
to proliferate after the Biomedical Test Materials
Program (“BTM Program”) was created in 1986. See
Sylvia B. Galloway, Ph.D., Biomedical Test Materials
Program: Drug Master Files for Biomedical Test

App. 147
Materials, Produced From Refined Menhaden Oil, and
Their Placebos, United States Department of
Commerce, October 1989 (1989 BTM Report), Exhibit
46, at 1-1, 2-1, 2-2. The BTM Program was created by
the National Oceanographic and Atmospheric
Administration (“NOAA”) and the National Institutes
of Health (“NIH”)/Alcohol, Drug Abuse, and Mental
Health Administration (“ADAMHA”), and it provided
standardized test materials to help researchers better
identify the role of different forms of omega-3 fatty
acids on health and disease. See id. at 1-1. The
standardized test materials included an E-OM3
mixture that contained E-EPA as its principal
component. See id. at 2-3. Specifically, the E-OM3
mixture contained approximately 80% omega-3 fatty
acid ethyl esters, 44% E-EPA and 24% E-DHA, and 1012% other omega-3 fatty acid ethyl esters, as well as
other components. See id. Notably, the test materials,
by chemically converting the EPA to ethyl ester form,
increased the level of EPA in the mixture by
approximately 26%. Typically, common fish oil contains
18% EPA. The availability of the test materials was
announced on a number of occasions in the NIH Guide
for Grants and Contracts, starting on May 29, 1987;
requests from researchers were received by June 1987;
and the BTM Program began shipping materials by
September 1987. See id. at 2-1. Notably, in a February
1988 announcement, the program was explicit that
“[i]n accordance with federal regulations, an
[investigational new drug (“IND”)] number will be
required for the use of these materials in human
studies.” NIH Guide for Grants and Contracts, Vol. 17,
No. 5, Feb. 12, 1988, Exhibit 47 at 1; see also 1989
BTM Report, Exhibit 46, at 2-1. In 1989, the BTM

App. 148
Program also made purified mixtures of E-EPA and EDHA available for study. See P.H. Fair, Biomedical
Test Materials Program: Distribution Management
Manual, Department of Commerce, Dec. 1989 (1989
BTM Distribution Manual), Exhibit 48. The E-EPA
mixture contained >95% ethyl esters (of the ethyl
esters, EPA was 97%, other omega-3 fatty acids were
<1 % and omega-6 fatty acids were <1%). See id. at 5.
81.
Upon information and belief, no “dietary
supplement” or food containing E-EPA was legally
marketed prior to these studies. In the late 1980s, FDA
was skeptical that any omega-3 products, even those
containing common fish oil (i.e., nTG-OM3), were
marketed legally. Many, if not all, of the omega-3
products at the time, were marketed with promotional
claims that rendered them unapproved new drugs. In
1988, FDA sent more than 50 letters to manufacturers
and distributors of omega-3 products citing them for
that illegal practice. See, e.g., FDA Letter to Barth
Vitamin Corp., dated April 1988 (and related letters),
Exhibit 49. For example, an FDA letter to American
Health Products stated that the promotional material
distributed with a product, known as SuperEPA
(i) suggested that the product may be useful in “the
prevention or treatment of cancer, arthritis,
atherosclerosis, heart disease, platelet aggregation,
immune system effects, and the lowering of blood levels
of cholesterol and triglycerides” and (ii) rendered the
product an unapproved “new drug” under the FDCA.
See FDA Letter to American Health Products, dated
May 18, 1988, Exhibit 50.

App. 149
82.
In addition, in the late 1980s and in the
1990s (at least before the Dietary Supplement Health
and Education Act of 1994, P.L. 103-417, amended the
FDCA), no omega-3 supplements had been authorized
for use by FDA as food ingredients, and agency
statements reveal that the agency considered them to
be unsafe “food additives.” See 21 U.S.C. §§ 321(s),
342(a)(2)(C). A “food additive” is “any substance the
intended use of which results or may reasonably be
expected to result, directly or indirectly, in its becoming
a component or otherwise affecting the characteristics
of any food” that is not (i) generally recognized as safe
(“GRAS”) or (ii) used in food prior to January 1, 1958,
and shown to be safe through scientific procedures or
common use. 21 U.S.C. § 321(s). Substances falling
within the definition of “food additive” are deemed
“unsafe” as a matter of law and marketing them is
illegal when FDA has not approved them through
regulation. 21 U.S.C. §§ 348(a)(2), 342(a)(1)(C)(i). In
1990, FDA sent a letter to a trade association stating
that:
We have continued concerns about any
food use of omega-3 polyunsaturated fatty
acids. We are unaware of any history of
use of these substances as food
ingredients prior to 1958, and FDA has
not listed omega-3 polyunsaturated fatty
acids as approved food additives or as
being generally recognized as safe
[GRAS]. Thus, addition of these
substances to foods may render those
foods adulterated under 21 U.S.C.
342(a)(2)(C).

App. 150
See FDA Letter to R. William Soller, dated June 20,
1990, Exhibit 51. Further, when FDA affirmed natural
menhaden oil to be GRAS in 1997, the agency noted
that it declined to make the same determination in
1989 because the oil contained high levels of the
omega-3 fatty acids, EPA and DHA, which were known
to have physiologic effects, such as effects on blood
clotting. 62 Fed. Reg. 30751, 30752 (June 5, 1997),
Exhibit 52. In other words, in 1989, FDA did not
believe that nTG-OM3 in menhaden oil, or its
components nTG-EPA or nTG-DHA, were GRAS, and
as such, nTG-OM3, nTG-EPA, and nTG-DHA could not
have avoided the designation of “food additive” at that
time. If nTG-OM3, nTG-EPA, and nTG-DHA in
menhaden oil could not have avoided the designation of
“food additive” until 1997, there is no basis to support
the lawful marketing of E-OM3 and E-EPA as GRAS
ingredients prior to that time.
83.
Accordingly, for purported “dietary
supplements” containing E-EPA to be saved from
exclusion from the “dietary supplement” definition, a
product must be identified that contained E-EPA that
(i) was marketed before the proliferation of E-EPA
clinical studies in the mid-1980s, (ii) was not an
unapproved new drug, based on the manner in which
it was promoted, (iii) did not contain an unsafe “food
additive,” and (iv) was not otherwise illegally
marketed. Upon information and belief, no such
“unicorn” exists.

App. 151
b. Synthetically Produced Omega-3
Products are actually unapproved
“new drugs” under the FDCA
84.
Section 201(g)(1) of the FDCA defines the
term “drug” as (A) “articles” recognized in the official
United States Pharmacopeia (“USP”) or official
National Formulary (“NF”) (which have now been
combined into one publication, the “USP/NF”);
(B) “articles intended for use in the diagnosis, cure,
mitigation, treatment, or prevention of disease in man
or other animals;” (C) “articles (other than food)
intended to affect the structure or any function of the
body of man or other animals;” and/or (D) “articles
intended for use as a component of any articles
specified in clause (A), (B), or (C).” 21 U.S.C.
§ 321(g)(1)(A)-(D); see also 21 C.F.R. § 101.93(f) (further
describing “structure/function” claims under subsection
(C)), (g) (further describing “disease” claims under
subsection (B)).
85.
Products that meet the definition of “dietary
supplement,” however, are subject to a safe harbor –
they may be promoted with claims indicating that they
are intended to affect the structure or function of the
body without invoking drug status. 21 U.S.C.
§ 321(g)(1). But, because the Synthetically Produced
Omega-3 Products are not “dietary supplements,” they
are not subject to that safe harbor. Thus, the
Synthetically Produced Omega-3 Products are “drugs”
if they meet any of the four prongs of the “drug”
definition contained in Section 201 (g)(1)(A)-(D) of the
FDCA – including if they are intended to affect the

App. 152
structure or function of the body. See 21 U.S.C.
§ 321(g)(1)(A)-(D).
86.
FDA need not deem products to be “drugs,”
for them to be “drugs.” Products are “drugs” if they
meet any of the four prongs of the definition of “drug”
in the FDCA. 21 U.S.C. § 321(g)(1). Drug sponsors
often take steps toward drug approval before any FDA
involvement at all. Typically, basic scientists collect
data from animal studies. If the data look promising,
the drug company develops a prototype drug, and it
seeks permission from FDA to begin clinical testing in
humans by way of an IND application. See id. § 355(i).
Once the clinical trials are conducted, the sponsor may
submit an NDA, and if FDA believes that the drug is
safe and effective, that the proposed labeling is
appropriate, and that manufacturing methods assure
that the drug’s identity, strength, quality, and purity,
then the agency will approve the drug. See id. § 355(d).
At that point, the drug may be legally marketed. In
other words, it is incumbent upon the sponsor of a
“drug” to recognize that a product is a “drug” pursuant
to the definition in the FDCA, and to comply with
FDA’s regulatory requirements for “drugs” accordingly.
See generally, Susan Thaul, How FDA Approves Drugs
and Regulates Their Safety and Effectiveness,
Congressional Research Service, June 25, 2012,
Exhibit 53.
87.
Sponsors of products that meet the definition
of “drug,” that fail to comply with FDA’s drug approval
process are engaging in a prohibited act. The FDCA
expressly prohibits the introduction or delivery for
introduction of an unapproved “new drug” into

App. 153
interstate commerce. 21 U.S.C. §§ 355(a), 331(d); see
also 21 U.S.C. §§ 352(f), 331(a)-(c). And, as a practical
matter, all unapproved “drugs” are also unapproved
“new drugs.” Products that meet the definition of
“drug” are “new drugs” under Section 201(p) of the
FDCA if they are not generally recognized by qualified
experts as safe and effective for their intended uses. 21
U.S.C. § 321(p). To be so “generally recognized,” the
Supreme Court has found that, among other things,
there must be a consensus of expert opinion that a drug
is safe and effective based on “substantial evidence,” as
that term is defined in Section 505(d) of the FDCA. See
Weinberger v. Hynson, Wescott & Dunning Inc., 412
U.S. 609, 632 (1973) (citing 21 U.S.C. 355(d)). Notably,
the Hynson decision effectively incorporates FDA’s
“new drug” approval standard for efficacy into the “new
drug” definition. See id. Since 1975, FDA has opposed
virtually every attempt to deem a “new drug” as
generally recognized by qualified experts as safe for the
uses mentioned in the labeling by any mechanism other
than FDA approval. See David G. Adams, et al., Food
and Drug Law and Regulation (3d. 2015), at p. 298,
Exhibit 54. In other words, practically speaking, to
avoid designation as a “new drug,” a product that
meets the definition of “drug,” must be approved by
FDA.
88.
Some sponsors of products that are “drugs,”
pursuant to the “drug” definition, may attempt to
illegally evade the drug approval requirements by
hiding the identity of these products with false labels,
such as “dietary supplement,” or even “medical food” –
because products that actually meet those definitions
are exempt from certain “drug” requirements, including

App. 154
premarket review. See id. §§ 321(g), (ff), 360ee(b)(3).
But if the products do not actually meet the definitions
of those terms in the statute, and they meet the
definition of the term “drug,” then they are unapproved
“new drugs.” Because “dietary supplements” and
“medical foods” are not subject to premarket review,
FDA would not review the labeling of those products
before the products are marketed or have the occasion
to consider whether the products are actually
unapproved “new drugs.” And, once the products are on
the market, FDA still may not be aware of the
statements made in the labeling or have the occasion to
consider whether the products are actually unapproved
“new drugs.” Accordingly, the sponsors’ false
statements may go undetected.
89.
When FDA detects such false labeling and
has the requisite resources to pursue the violation, it
may send a warning letter to the violator. For example,
in late May and early June of this year, FDA sent three
separate warning letters to different companies that
cited them for selling products containing synthetic
steroids as “dietary supplements” when in fact (1) the
products did not meet the definition of “dietary
supplement,” and (2) the products were actually
unapproved “new drugs.” See FDA Warning Letter to
Flex Fitness Products and Big Dan’s Fitness, dated
May 25, 2017, Exhibit 55; FDA Warning Letter to
Hardcore Formulations, dated June 5, 2017, Exhibit
56; FDA Warning Letter to AndroPharm LLC, dated
June 5, 2017, Exhibit 57.
90.
FDA has taken similar actions against
approved “new drugs” falsely labeled as “medical

App. 155
foods.” For example, FDA took action in May 2017
against Enzymotec Ltd. (and one of its suppliers) for
falsely positioning three omega-3 fatty acid products –
Vayarol®, Varyarin®, and Vayacog® – as “medical
foods,” when they were actually unapproved “new
drugs.” See BRIEF-Enzymotec Ltd- FDA issued import
alert that included vayarol, vayarin and vayacog
products, Reuters.com, May 10, 2017, Exhibit 58;
Import Alert 66-41, Detention Without Physical
Examination of Unapproved New Drugs Promoted in
the U.S., dated June 19, 2017, Exhibit 59; Enzymotec
Ltd., SEC Form 6-K, dated May 2017, Exhibit 60;
FDA Warning Letter to Rainbow Gold Products, Inc.
dated May 4, 2017, Exhibit 61 (citing Vayarin® as an
unapproved “new drug”).
91.
The Synthetically Produced Omega-3
Products come in several molecular forms (e.g., E-EPA,
rTG-EPA, E-OM3, and rTG-OM3) and, typically, in two
different physical forms (i.e., in liquid form, as an oil
for use in or as a “dietary supplement,” or in an
encapsulated form, for use as a “dietary supplement”).
Each Synthetically Produced Omega-3 Product is a
“drug” because it triggers one or more elements of the
“drug” definition, and the elements in the “drug”
definition triggered by each product depend on the
molecular and physical form of the product.

App. 156
i. All of the Synthetically
Produced Omega-3 Products
meet the definition of “drug” in
the FDCA
a) Encapsulated E-OM3
92.
The encapsulated E-OM3 products subject to
this complaint are “drugs” because they meet at least
one of the four prongs of the “drug” definition. See id.
With regard to the first prong, subsection 201(g)(1)(A)
of the FDCA, “Omega-3-Acid Ethyl Ester Capsules” are
named in the drug USP/NF, see USP/NF (USP40NF35), Vol. 2 (2017), at 5430-5433. Exhibit 62.
Notably, to be “recognized” in the USP, products need
only meet the definition of a product named in the
USP; they need not comply with compendial identity
standards. See 21 U.S.C. §§ 351(b), 352(e)(3)(B); see
also USP/NF (USP40-NF35), at xiii,§ 2.30. Exhibit 63.
(Recognized products that do not meet the compendial
identity standards are “drugs” that are adulterated,
misbranded or both. See 21 U.S.C. §§ 351(b),
352(e)(3)(B)). According to the USP, “Omega-3-Acid
Ethyl Ester Capsules” are capsules that include E-EPA
and E-DHA as well as five other omega-3 fatty acids in
ethyl ester form (e.g., alpha-linolenic acid in ethyl ester
form). See USP/NF (USP40-NF35), Vol. 2 (2017),
Exhibit 62, at 5430-5433. Upon information and belief,
all of the encapsulated E-OM3 products identified in
this complaint (and attachments hereto) meet that
definition. Accordingly, they are all “recognized” in the
USP, and therefore, are “drugs.”
93.
With regard to the second and third prongs of
the “drug” definition, subsections 201(g)(1)(B) and

App. 157
201(g)(1)(C) of the FDCA, all of the Proposed
Respondents’ E-OM3 capsules named in this complaint
(except those sold by Ultimate) are clearly intended to
affect disease and/or the structure/function of the body.
Under FDA’s regulations, evidence that a product is
intended to be used as “drug” includes advertising,
labeling, or “other oral or written statements” by the
entities that are legally responsible for the labeling of
the drug, as well as the circumstances surrounding the
distribution of the product. 21 C.F.R. § 201.128. As set
forth in Section VII below, the Promotional Materials
associated with each of these products (except those
sold by Ultimate) indicate that the products are
intended to affect disease and/or the structure function
of the body. Moreover, upon information and belief, the
circumstances of sale corroborate that intent.
94.
With regard to the fourth prong of the “drug”
definition, subsection 201(g)(1)(D) of the FDCA, upon
information and belief, the encapsulated E-OM3
products sold by Ultimate are intended for use as a
component of a “drug.”
b) E-OM3 in Oil Form
95.
The E-OM3 products in oil form are “drugs”
because they meet at least one of the four prongs of the
“drug” definition. With regard to the first prong,
subsection 201(g)(1)(A) of the FDCA, “Omega-3-Acid
Ethyl Esters” (in oil form) are named in the drug
USP/NF, see USP/NF (USP40-NF35), Vol. 2 (2017), at
5428-5430, Exhibit 64. According to the USP/NF,
“Omega-3 Acid Ethyl Esters” are mixtures of ethyl
esters, principally E-EPA and E-DHA, that may also
contain one of five other omega-3 fatty acids. See id.

App. 158
Upon information and belief, all E-OM3 sold by the
Proposed Respondents in oil form meet this definition.
Therefore, they are recognized in the USP/NF, and as
such are “drugs.”
96.
With regard to the second and third prongs of
the “drug” definition, subsections 201(g)(1)(B) and
201(g)(1)(C) of the FDCA, all of the Proposed
Respondents’ E-OM3 oil named in this complaint
(except that sold by Ultimate) is clearly intended to
affect disease and/or the structure/function of the body.
As set forth in Section VII below, the Promotional
Materials associated with each of these products
(except those sold by Ultimate) indicate that the
products are intended to affect disease and/or the
structure function of the body. Moreover, upon
information and belief, the circumstances of sale
corroborate that intent.
97.
With regard to the fourth prong of the “drug”
definition, subsection 201(g)(1)(D) of the FDCA, upon
information and belief, the E-OM3 oil sold by Ultimate
is intended for use as a component of a “drug.”
c) E-EPA, rTG-EPA, and rTGOM3, as well as other forms
of E-OM3
98.
E-EPA, rTG-EPA, and rTG-OM3, as well as
other forms of E-OM3, are “drugs” because they meet
one or more of the prongs of the definition of “drug” in
the FDCA. With regard to the second and third prong,
namely subsections 201(g)(1)(B) and 201(g)(1)(C), most
of these products are intended to affect disease and/or
the structure/function of the body. As set forth in

App. 159
Section VII below, the Promotional Materials
associated with each of these products (except those
sold by Ultimate and Nordic Pharma) indicate that the
products are intended to affect disease and/or the
structure function of the body. Moreover, upon
information and belief, the circumstances of sale
corroborate that intent.
99.
With regard to the fourth prong, subsection
201(g)(1)(D) of the FDCA, upon information and belief,
when these substances are sold by Ultimate and Nordic
Pharma, they are intended for use as a component of a
“drug.”
ii. All of the Synthetically
Produced Omega-3 Products
are unapproved “new drugs”
100. All of the Synthetically Produced Omega-3
Products are also “new drugs” under Section 201(p) of
the FDCA because they are not generally recognized by
qualified experts as safe and effective for their intended
uses. 21 U.S.C. § 321(p).
101. As mentioned above, as a practical matter, for
a drug to be generally recognized by qualified experts
as safe and effective for its intended uses, it has to be
FDA-approved. None of the Synthetically Produced
Omega-3 Products is an FDA-approved drug. See List
of FDA Approved Icosapent Ethyl Drugs (E-EPA) in
Orange Book, Exhibit 16 (listing none of the
Synthetically Produced Omega-3 Products); List of
FDA-Approved Omega-3 Ethyl Ester Drugs in the
Orange Book, Exhibit 17 (same). Thus, they are all
“new drugs” – and indeed, unapproved “new drugs.”

App. 160
2. The other elements for false
advertising and contributory false
advertising under the Lanham Act
are met
102. The Promotional Materials associated with
all of the Synthetically Produced Omega-3 Products
(except for those sold by Ultimate) indicate that the
products are for use in, or as “dietary supplements,”
Exhibits 1-B – 7-B, 8-A-ii. – 12-M-ii. As explained
above, falsely labeling or promoting these products as
“dietary supplements” is literally false for two reasons:
(1) the products do not meet the definition of “dietary
supplement” in 21 U.S.C. § 321(ff), and (2) calling the
products “dietary supplements” hides the material fact
that the products are actually unapproved “new drugs.”
103. Because these statements are literally false,
they have the capacity to deceive a substantial segment
of potential consumers, and this deception is presumed
to be material to consumer purchasing decisions.
Indeed, the express use of a false moniker and the
failure to disclose the unapproved “new drug” status of
the products is undoubtedly material. If consumers
knew that the products were illegally marketed
unapproved “new drugs” and that, as such, it was
unclear whether the products were safe and effective,
it would influence the consumers’ purchasing decisions.
104. All of the Proposed Respondents (except
Ultimate) are causing the literally false statements to
enter interstate commerce, Exhibit 1-B – 7-B and 8A-ii – 12-M-ii. Finally, the false statements of the
Proposed Respondents (except Ultimate) about their

App. 161
products have injured, or are likely to injure, Amarin,
as discussed in paragraphs 217-238.
105. Further, upon information and belief, as set
forth in Section VII, Ultimate and Nordic Pharma Inc.
are contributorily liable under the Lanham Act for
knowingly inducing or causing the entities distributing
their products, respectively, Nature’s Bounty and
Nordic Naturals, to falsely advertise their products as
“dietary supplements,” or for materially participating
in that illegal conduct.
B. Proposed Respondents’ Importation
And Sale Of The Synthetically Produced
Omega-3 Products Violate Section 337
Based On The Standards Set Forth In
The FDCA
106. The importation and sale of the Proposed
Respondents’ Synthetically Produced Omega-3
Products constitute unfair acts or unfair methods of
competition under Section 337 based upon the
standards set forth in the FDCA. As discussed in
paragraphs 61-83, none of Proposed Respondents’
Synthetically Produced Omega-3 Products meets the
definition of “dietary supplement” in the FDCA, 21
U.S.C. § 321(ff). In addition, as discussed in
paragraphs 84-101, all of the products are actually
unapproved “new drugs” under the FDCA. Id.
§§ 321(g), (p), 355(a); see also 21 U.S.C. § 352(f). The
introduction, or delivery for introduction, into
interstate commerce of any unapproved “new drug”
violates the standards set forth in Section 505(a) of the
FDCA, id. § 355(a); see also 21 U.S.C. §§ 352(f), 331(a)(c)

App. 162
107. As explained in paragraphs 86-87, products
that meet the definition of “drug” in the FDCA, id.
§ 321(g), must follow the requirements in the FDCA
and its implementing regulations that apply to “drugs,”
regardless of whether FDA has acknowledged that the
products are “drugs.” As explained below, none of the
Synthetically Produced Omega-3 Products follows a
number of these requirements, and as such, they are
misbranded drugs in violation of the standards set
forth in Section 502 of the FDCA, id. § 352, and
adulterated drugs, in violation of Section 501 of the
FDCA, id. § 351.
108. Section 502(a) of the FDCA prohibits
“labeling” that is “false or misleading in any
particular.” Id. § 352(a); see also 21 U.S.C. § 321(m)
(defining the term “labeling” as “all labels and other
written, printed, or graphic matter (1) upon any article
or any of its containers or wrappers, or
(2) accompanying such article”). In addition, Section
502(n) of the FDCA similarly prohibits promotional
material other than labeling from being false or
misleading. 21 U.S.C. § 352(n); 21 C.F.R.§ 202.1(e)(6).
The labeling for all of the Distributors’ Synthetically
Produced Omega-3 Products is false, at minimum,
because it falsely asserts that the products are “dietary
supplements,” or it falsely implies that they are
“dietary supplements” by using some modification of
that term. Exhibits 8-A-ii – 12-M-ii. Similarly, the
Promotional Materials associated with the
Manufacturer’s products (except for Ultimate’s
products) are false because they provide that the
products at issue are for use in, or as “dietary
supplements.” Exhibits 1-B – 7-B.

App. 163
109. Further, Section 502(f) of the FDCA provides
that drugs are misbranded if their labeling fails to bear
“adequate directions for use.” 21 U.S.C. § 352(f).
“Adequate directions for use” means “directions under
which the layman can use a drug safely and for the
purposes for which it is intended.” 21 C.F.R. § 201.5.
According to FDA,
Prescription drugs can only be used safely
at the direction, and under the
supervision, of a licensed practitioner.
Therefore, it is impossible to write
“adequate directions for use” for
prescription drugs. FDA-approved drugs
which bear their FDA-approved labeling
are exempt from the requirement that
they bear adequate directions for use by a
layperson. But otherwise, all prescription
drugs by definition lack adequate
directions for use by a layperson.
See, e.g., FDA Warning Letter to Flex Fitness Products
and Big Dan’s Fitness, dated May 25, 2017, Exhibit 55
(citing 21 U.S.C. §§ 352(f)(1), 353(b)(2)). All of the
Distributors’ Synthetically Produced Omega-3 Products
are “prescription drugs” as defined by the FDCA, 21
U.S.C. § 353(b)(1)(A), because of their toxicity or other
potentiality for harmful effect, or the method of their
use, or the collateral measures necessary for their use.
See id. Indeed, all products containing synthetically
produced omega-3 that have been approved by FDA are
prescription drugs. See List of FDA-Approved Icosapent
Ethyl (E-EPA) Drugs in Orange Book, Exhibit 16; List
of FDA-Approved Omega-3 Ethyl Ester Drugs in the

App. 164
Orange Book, Exhibit 17. As explained in paragraphs
84-101, all of the Distributors’ Synthetically Produced
Omega-3 Products are intended for “drug” uses (i.e., to
affect the structure/function of the body and/or to affect
disease), Exhibits 8-A-iii – 12-M-iii, 8-A-iv - 12-M-iv;
Table 1. Those uses have not been approved by FDA,
and therefore, the labeling for the products at issue
does not, and cannot, contain adequate directions for
those uses. Accordingly, those products are misbranded
in violation of Section 502(f).
110. Further, upon information and belief, all of
the Synthetically Produced Omega-3 Products are
misbranded drugs under Section 502(o) of the FDCA
because they were manufactured, prepared,
propagated, compounded, or processed in an
establishment not duly registered under Section 510 of
the FDCA, id. § 360; and/or the products at issue were
not included in a list as required by Section 510(j) of
the FDCA, id. § 360(j). Id. § 352(o).
111. In addition, upon information and belief, all
of the Synthetically Produced Omega-3 Products are
adulterated for failure to comply with current good
manufacturing practices for drugs, in violation of the
standards set forth in Section 501(a)(2)(B) of the
FDCA, 21 U.S.C. § 351(a)(2)(B).
112. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA, is prohibited by Section
30l(d) and (a) of the FDCA. Id. § 331(a), (d).

App. 165
113. Finally, the FDCA prohibits unapproved “new
drugs,” and adulterated and misbranded “drugs,” from
entering the United States under Section 801(a) of the
FDCA, 21 U.S.C. § 381(a), when the “drugs” have been
manufactured, prepared, propagated, compounded, or
processed in a foreign establishment that is not
registered in accordance with Section 510(i) of the
FDCA. Upon information and belief all of the products
sold by the Manufacturers were manufactured,
prepared, propagated, compounded, or processed in
such a foreign establishment. Section 801(a) requires
FDA to (1) sample any drugs that have been
manufactured in an unregistered establishment, and
(2) examine samples to determine whether any appear
to be misbranded, adulterated, or unapproved new
drugs. See Cook v. FDA, 733 F.3d 1, 10 (D.C. Cir. 2013).
If FDA finds an apparent FDCA violation (e.g., that a
product is an unapproved, misbranded, and
adulterated “new drug”), it must refuse the drug
admission to the United States. See id.
VII.

INSTANCES OF UNFAIR IMPORTATION
AND SALE
A. Manufacturers
DSM

114. Proposed Respondent Royal DSM NV (“DSM
NV”) and its corporate affiliates, DSM Marine Lipids
Peru S.A.C. (“DSM-Peru”), DSM Nutritional Products
Canada Inc., (“DSM-Canada”) and “DSM Nutritional
Products LLC” in the United States (“DSM-US”)
manufacture, import, and/or sell Synthetically
Produced Omega-3 Products. Royal DSM NV acquired

App. 166
a fish oil concentration facility in Nova Scotia, Canada
in 2012, to “strengthen its position in the North
American dietary supplement market.” Koninklijke
DSM NV to Acquire Ocean Nutrition Canada to
Expand Its Nutritional Lipids Growth Platform
Conference Call – Final, May 18, 2012 FDA (Fair
Disclosure) Wire, Exhibit 65. Upon information and
belief, this facility is now DSM-Canada. At the time of
acquisition, the facility manufactured fish oil
concentrates of up to 70% EPA/DHA levels, and those
supplements were sold in “Walmart, GNC, and Sam’s
Club.” Id. Since that time, DSM has begun to use 3C
technology, a new concentrating technology, to make
“[u]ltra-pure, high potency EPA and DHA up to 85%,”
and it continues to manufacture those oils at the Nova
Scotia facility. See The Modern Movement Forward In
Omega-3, DSM Brochure, Exhibit 66; Meg-3, Business
Opportunities, Accessed Aug. 8, 2017 (“DSM’s flagship
fish oil production facility is located in Mulgrave, Nova
Scotia. In 2015, DSM invested $40 million to expand
the facility, which refines and concentrates Omega-3
fish oil”), Exhibit 67. In April 2017, World Fishing &
Aquaculture announced that DSM’s Meg-3 ingredients
“processed in DSM’s facilities in Peru and Canada
(DSM Marine Lipids Peru SAC and DSM Nutritional
Products Canada Ltd [sic]),” received a Friend of the
Sea seal of approval, and the article noted that Meg-3
is a “leading global brand containing omega-3 EPA and
DHA. The ingredients are used in dietary supplement,
pharmaceutical and food & beverage applications
worldwide.” World Fishing & Aquaculture, April 20,
2017, Exhibit 68. DSM also advertises Meg-3 as
conforming to the quality and purity standards
established for dietary supplements by the U.S. FDA.

App. 167
Meg-3, Business Opportunities, Exhibit 67. The Meg-3
product line sold by DSM includes E-OM3 concentrates
and concentrates in the triglyceride form (upon
information and belief, these concentrates are rTGOM3 and rTG-EPA). See DSM in Food, Beverages &
Dietary Supplements, Exhibit 1-A-i. Upon information
and belief, DSM-Peru and DSM-Canada are
manufacturing Meg-3 products that are Synthetically
Produced Omega-3 Products, including E-OM3 oil and
rTG-OM3 oil comprised predominantly of E-EPA or
rTG-EPA.
115. Complainants have obtained data from
Datamyne, Inc.2 showing that DSM-Peru shipped to the
United States, to DSM-US, “240 drums containing
45.60 MT of omega3T1000 [and] Meg-3 refined fish oil.”
Exhibits 1-F-i. Upon information and belief, DSMPeru is supplying DSM-US with E-OM3 oil and/or rTGOM3 oil comprised predominantly of E-EPA or rTGEPA. In addition, DSM-Peru imported 191 MT of
purified fish oil into the United States in bond for
immediate export to consignee DSM-Canada. Exhibit
1-F-i. Based on the commercial relationships described
above, DSM-Canada’s concentrated production facility
in Nova Scotia, and DSM-Canada’s “focus on the North
American Market” described in paragraph 114 above,
and upon information and belief, DSM-Canada is
supplying those products to DSM-US.

2

Datamyne, Inc. obtains trade data gathered from U.S. Customs
and Border Protection’s Automated Manifest System, customs
declarations, and import-export Customs statistics. U.S. shipment
data are updated daily upon receipt from U.S. Customs and Border
Protection.

App. 168
116. DSM violates Section 337 of the Tariff Act,
because it violates the standards established in the
FDCA. Specifically, the E-OM3 sold by DSM cannot
meet the definition of “dietary supplement” because it
is not a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-70, and it is excluded from
the definition of “dietary supplement” by the
exclusionary clause, id. § 321(ff)(3), as explained in
paragraphs 71-83. As further explained in paragraph
95, it is a “drug” because, upon information and belief,
it is a drug recognized in the USP/NF, Exhibit 64. It
also is a “drug” because it is intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
and disease promotional claims made by DSM. For
example, DSM makes the following structure/function
claims: “Omega-3 fatty acids play a critical role in
supporting human health across different stages. DHA
. . . provides important brain and eye benefits, while
DHA and EPA . . . together promote cardiovascular
health.” Exhibit 1-C-i; Table 2. In addition, DSM
makes the following disease claims:
The omega-3s EPA and DHA have been
the focus of cardiovascular research for
several decades. Numerous observational
and randomized clinical trials have shown
EPA/DHA intake reduces cardiovascular
risk via reduction in blood triglycerides
(TGs), resting heart rate, blood pressure
and inflammation and improved vascular
function. The strongest evidence for
EPA/DHA is for reduction of coronary
heart disease (CHD) death and sudden

App. 169
cardiac death (SCD), with the latter being
attributed to the antiarrhythmic effects of
omega-3s.
Exhibit 1-D-i; Table 2. As explained in paragraphs
100-101, this product is also an unapproved “new drug”
under the FDCA. Id. §§ 321(g), (p), 355(a).
117. Similarly, the rTG-OM3 oil sold by DSM
cannot meet the definition of “dietary supplement”
because it is not a “dietary ingredient,” 21 U.S.C.
§ 321(ff)(1), as explained in paragraphs 61-83. As
further explained in paragraphs 98-99, it is a drug
because it is intended to affect the structure/function of
the body and to affect disease, as evidenced by, among
other things, the structure/function and disease claims
identified in paragraph 116, above. As explained in
paragraphs 100-101, this product is also an unapproved
“new drug” under the FDCA. Id. §§ 321(g), (p), 355(a).
118. In addition, DSM’s E-OM3 and rTG-OM3 oil
are (1) falsely promoted for use in “dietary
supplements” when they cannot legally be used for that
purpose, and they are actually unapproved “new
drugs,” in violation of Section 502(n) of the FDCA, id.
§ 352(n), Exhibits 1-B-i – 1-B-iii; (2) upon information
and belief, as explained in paragraph 110, misbranded
drugs under Section 502(o) of the FDCA, id. § 352(o),
because they were manufactured, prepared,
propagated, compounded, or processed in an
establishment not duly registered under Section 510 of
the FDCA, id. § 360; and/or not included in a list as
required by Section 510(j) of the FDCA, id. § 360(j); and
(3) upon information and belief, as explained in
paragraph 111, adulterated drugs because they were

App. 170
not manufactured in compliance with current good
manufacturing practices for drugs, in violation of
Section 501(a)(2)(B) of the FDCA, 21 U.S.C.
§ 351(a)(2)(B).
119. DSM also violates the standard set forth in
Section 301 of the FDCA. Section 301 of the FDCA
prohibits the introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA. Id. § 331(a), (d).
120. In addition, DSM violates Section 337 of the
Tariff Act, based upon violations of the Lanham Act.
Specifically, DSM is falsely stating that its E-OM3 oil
and its rTG-OM3 oil can be used in “dietary
supplements” when these products are actually
unapproved “new drugs,” Exhibits 1-B-i – 1-B-iii;
these literally false statements have the capacity to
deceive customers and are likely to influence
purchasing decisions; DSM caused these false
statements to enter interstate commerce; and as
discussed in paragraphs 217-238, Amarin is likely to be
injured as a result.
Ultimate BioPharma
121. Proposed Respondent Ultimate Biopharma
(Zhongshan) Corporation (“Ultimate”) is a Chinese
company that manufactures softgel capsules containing
E-OM3 and OM3 in triglyceride form, Exhibit 2-A.
Upon information and belief, some, if not all, of the
OM3 in triglyceride form is rTG-OM3 comprised
predominantly of rTG-EPA.

App. 171
122. Exhibit 2-F contains 30 Datamyne
documents showing 29 shipments of fish oil (labeled,
2100 Fish Oil, 2340 Fish Oil, 2099 Fish Oil, 2370 Fish
Oil, and 2333 Fish Oil), and one shipment of 2340 Fish
Oil Softgels, from Ultimate to Nature’s Bounty between
September 15, 2016 – February 11, 2017. Upon
information and belief, Ultimate is shipping E-OM3
comprised predominantly of E-EPA and rTG-OM3
comprised predominantly of rTG-EPA in oil and softgel
form to Nature’s Bounty.
123. As discussed m paragraphs 163-173 below,
Proposed Respondent Nature’s Bounty is a U.S.
importer and distributor of Synthetically Produced
Omega-3 Products under brand names Nature’s
Bounty®, Puritan’s Pride®, and Solgar®, Exhibit 2-Ei. Nature’s Bounty was the consignee on the import
shipments described in paragraph 122 above. Exhibit
2-F. Ultimate is a subsidiary or affiliate of Nature’s
Bounty. Exhibit 2-E-ii.
124. Ultimate violates Section 337 of the Tariff
Act, because it violates the standards set forth in the
FDCA. Specifically, the E-OM3 oil and capsules sold by
Ultimate cannot meet the definition of “dietary
supplement” because E-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321 (ff)(1), as explained in
paragraphs 61-71, and it is excluded from the definition
of “dietary supplement” by the exclusionary clause, id.
§ 321(ff)(3), as explained in paragraphs 71-83. As
further explained in paragraphs 92 and 95, both the EOM3 oil and capsules are “drugs” because, upon
information and belief, they are drugs recognized in the
USP/NF. Exhibits 62 and 64. Ultimate’s E-OM3

App. 172
capsules and oil are also drugs because, upon
information and belief, as explained in paragraphs 94
and 97, they are intended for use in, or as, a final
product that is a “drug” (e.g., Nature’s Bounty
purported “dietary supplements,” which are actually
unapproved “new drugs”). Exhibits 8-A-ii – 8-N-ii;
Table 4. As explained in paragraphs 100-101, these
products are also unapproved “new drugs” under the
FDCA. Id. §§ 321(g), (p), 355(a).
125. Similarly, the rTG-OM3 oil and capsules sold
by Ultimate cannot meet the definition of “dietary
supplement” because rTG-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71. Rather, Ultimate’s rTG-OM3 oil and
capsules are drugs because, upon information and
belief, the rTG oil and capsules are intended for use in
(or as) a final product that is a “drug” (e.g., Nature’s
Bounty purported “dietary supplements,” which are
actually unapproved “new drugs”). Exhibits 8-A-ii – 8N-ii; Table 4. As explained in paragraphs 100-101,
these products are also unapproved “new drugs” under
the FDCA. Id. §§ 321(g), (p), 355(a).
126. In addition, upon information and belief,
Ultimate’s E-OM3 oil and capsules are (1) as explained
in paragraph 110, misbranded drugs under Section
502(o) of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (2) upon information and belief,
as explained in paragraph 111, adulterated drugs

App. 173
because they were not manufactured in compliance
with current good manufacturing practices for drugs,
as required by Section 501(a)(2)(B) of the FDCA, 21
U.S.C. § 351(a)(2)(B).
127. Ultimate also violates the standard set forth
in Section 301 of the FDCA. Section 301 of the FDCA
prohibits the introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA. Id. § 331(a), (d).
128. In addition, Ultimate violates Section 337 of
the Tariff Act, predicated upon violations of the
provisions of the Lanham Act. Specifically, Ultimate is
liable for contributory false advertising because
Nature’s Bounty is engaged in false advertising, as
explained in paragraphs 163-173, and upon
information and belief, Ultimate knowingly induced or
caused that false advertising or otherwise materially
participated in it.
Marine Ingredients
129. Marine Ingredients is a KD Pharma Group
Company. Exhibit 69. Proposed Respondent Marine
Ingredients AS is a manufacturer of Synthetically
Produced Omega-3 Products. Complainants have
obtained data from Datamyne, Inc. showing that
Marine Ingredients AS, in Norway, shipped to Marine
Ingredients LLC, in the United States: 17.06 metric
tons of oil, including “Omevital 400200 EE Mix” and
“Omevital 3322 EE,” around July 23, 2017; in two
separate shipments, 17.06 metric tons of oil (in each

App. 174
shipment), including “Omevital 400200 EE Mix,”
“Omevital 3322 EE,” “4510 TG Ultra,” and “Omevital
3322 TG,” around July 17, 2017; 17.06 metric tons of
oil, including “Omevital 4510 TG Ultra” and “Omevital
3322EE” in June 2017; and 22 Drums of “Omevital
3322 EE,” in December 2016, Exhibit 3-F-i. Omevital
3322EE and Omevital 400200 EE are E-OM3, Exhibit
3-F-i, and upon information and belief, Omevital 4510
TG Ultra is rTG-OM3. See id. Thus, E-OM3 oils
comprised predominantly of E-EPA and rTG-OM3 oils
comprised predominantly of rTG-EPA are being
imported into the United States from Marine
Ingredients AS to Marine Ingredients LLC.
130. Proposed Respondent Marine Ingredients
LLC is a U.S. importer of Synthetically Produced
Omega-3 Products. Marine Ingredients LLC was the
consignee on the import shipment described in
paragraph 129 above. Exhibit 3-F-i. Marine
Ingredients LLC markets its Synthetically Produced
Omega-3 Products under the brand “Omevital.”
Exhibit 3-A-i. These products include E-OM3 oil
comprised predominantly of E-EPA, and upon
information and belief, they include rTG-OM3 oil
comprised predominantly rTG-EPA as well. See id.
Marine Ingredients LLC acquired BASF’s concentrated
fish oil production facility in 2014, which produces
“Omevital” brand Synthetically Produced Omega-3
Products, and it merged with KD Pharma in 2016.
Exhibit 3-E-i. Marine Ingredients AS is a subsidiary
of Marine Ingredients LLC. Exhibit 3-E-ii.
131. Marine Ingredients violates Section 337 of
the Tariff Act, because it violates certain standards in

App. 175
the FDCA. Specifically, the E-OM3 oil sold by Marine
Ingredients cannot meet the definition of “dietary
supplement” because E-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71, and it is excluded from the definition
of “dietary supplement” by the exclusionary clause, id.
§ 321(ff)(3), as explained in paragraphs 71-83. In
addition, as explained in paragraph 95, it is a “drug”
because, upon information and belief, it is a drug
recognized in the USP/NF, Exhibit 64. It also is a
“drug” because it is intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
and disease promotional claims made by Marine
Ingredients. Marine Ingredients’ structure/function
claims include the following:
Together EPA & DHA play a critical role
in our cell development, growth, and
maintenance . . . [they] are necessary for
several important body functions, such as
• Essential building blocks for our brain,
eyes, and nerves . . . • Building cell
membrane [sic] in our brain . . . •
Maintenance of normal brain function
. . . . More than 20,000 clinical studies
showing positive health benefits have
been conducted on Omega-3 EPA & DHA.
Exhibit 3-C-ii; Table 2. In addition, Marine
Ingredients’ disease claims include:
More than 20,000 clinical studies showing
positive health benefits have been
conducted on Omega-3 EPA & DHA.

App. 176
Many of these studies indicate that these
vital nutrients may be of importance by
themselves or in combination with other
drugs for the management of the
following disorders: • Cardiovascular
Disease, • Inflammation and Rheumatoid
Arthritis, • Developmental Disorders, •
Psychiatric Disorders, •Cognitive Aging,
• Coronary Heart Disease, • Lupus, •
Cancer.
Exhibit 3-D-ii, Table 2. As explained in paragraphs
100-101, this product is also an unapproved “new drug”
under the FDCA. Id. §§ 321(g), (p), 355(a).
132. Similarly, the rTG-OM3 oil sold by Marine
Ingredients cannot meet the definition of “dietary
supplement” because it is not a “dietary ingredient,” 21
U.S.C. § 321(ff)(1), as explained in paragraphs 61-71. It
also is a “drug” because it is intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, the same
structure/function and disease claims cited above. As
explained in paragraphs 100-101, this product is also
an unapproved “new drug” under the FDCA. Id.
§§ 321(g), (p), 355(a).
133. In addition, Marine Ingredients’ E-OM3 oil
and rTG-OM3 oil are (1) falsely promoted for use in
“dietary supplements” when they cannot legally be
used for that purpose and they are actually unapproved
“new drugs,” in violation of the standards set forth in
Section 502(n) of the FDCA, id. § 352(n), Exhibits 3-Bi – 3-B-iv; (2) upon information and belief, as explained
in paragraph 110, misbranded drugs under Section

App. 177
502(o) of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 3600); and (3) upon information and belief,
as explained in paragraph 110, adulterated drugs
because they were not manufactured in compliance
with current good manufacturing practices for drugs,
as required by Section 501(a)(2)(B) of the FDCA, 21
U.S.C. § 351(a)(2)(B).
134. Marine Ingredients also violates the standard
set forth in Section 301 of the FDCA. Section 301 of the
FDCA prohibits the introduction, or delivery for
introduction, into interstate commerce of any
unapproved “new drug” that violates Section 505(a) of
the FDCA, and/or any adulterated or misbranded drug
that violates Sections 501 and/or 502 of the FDCA. Id.
§ 331(a), (d).
135. In addition, Marine Ingredients violates
Section 337 of the Tariff Act, because it violates the
Lanham Act. Specifically, Marine Ingredients is falsely
stating that its E-OM3 oil and rTG-OM3 oil can be
used in “dietary supplements” when these products are
actually unapproved “new drugs” Exhibits 3-B-i – 3-Biv. These literally false statements have the capacity to
deceive consumers and are likely to influence
purchasing decisions; Marine Ingredients caused these
false statements to enter interstate commerce; and as
discussed in paragraphs 216-237, Amarin is likely to be
injured as a result.

App. 178
Golden Omega
136. Proposed Respondent Golden Omega S.A. is
a manufacturer of Synthetically Produced Omega-3
Products. Complainants have obtained data from
Datamyne, Inc. showing that Golden Omega S.A.
shipped to the United States. 6.84 metric tons of “Fish
Oil Omega-3 Concentrate Ethyl Ester (EE3322),” 6.84
metric tons of Fish Oil Omega-3 Concentrate Ethyl
Ester (EE4020),” and 1.52 metric tons of “Fish Oil
Omega-3 Concentrate Triglyceride (TG3624)” in
October 2016. Exhibit 4-F-i. Proposed Respondent
Golden Omega USA LLC is a U.S. importer of
Synthetically Produced Omega-3 Products. In
particular, it was the consignee on the import
shipments described above. Exhibit 4-F-i. Golden
Omega S.A. and Golden Omega USA LLC are affiliated
entities. Exhibit 4-E.
137. Golden Omega identifies “EE3322” as a
“balanced EPA+DHA EE concentrate” Exhibit 4-A-iii,
“TG3624 as a balanced EPA+DHA TG concentrate,”
Exhibit 4-A-iii, and “EE4020” as a “high EPA EE
concentrate” Exhibit 4-A-iv. The “EE,” or E-OM3,
products are Synthetically Produced Omega-3
Products, and upon information and belief the
concentrated TG product is rTG-OM3.
138. Golden Omega violates Section 337 of the
Tariff Act, because it violates certain standards of the
FDCA. Specifically, the E-OM3 oil sold by Golden
Omega cannot meet the definition of “dietary
supplement” because it is not a “dietary ingredient,” 21
U.S.C. § 321(ff)(1), as explained in paragraphs 61-71,
and it is excluded from the definition of “dietary

App. 179
supplement” by the exclusionary clause, id. § 321(ff)(3),
as explained in paragraphs 71-83. In addition, as
explained in paragraph 95, it is a “drug” because, upon
information and belief, it is a drug recognized in the
USP/NF, Exhibit 64. It also is a “drug” because it is
intended to affect the structure/function of the body
and to affect disease, as evidenced by, among other
things, structure/function and disease promotional
claims made by Golden Omega. For example, Golden
Omega’s structure/function claims include:
Omega 3s and specifically EPA and DHA,
are involved in the structure and function
of cells in your body – from your head to
your toes. There are more than 30,000
published studies on EPA and DHA
Omega 3s, focused on the positive impact
that the high consumption of Omega 3s
has for the health of the heart, brain, and
eye.
Exhibit 4-C-i; Table 2. In addition, disease claims
include the following: “High EPA Omega-3
concentrates are commonly used in products to support
. . . anti-inflammatory health.” Exhibit 4-D; Table 2.
As explained in paragraphs 100-101, this product is
also an unapproved “new drug” under the FDCA. Id.
§§ 321(g), (p), 355(a).
139. Similarly, rTG-OM3 oil sold by Golden
Omega cannot meet the definition of “dietary
supplement” because it is not a “dietary ingredient,” 21
U.S.C. § 321(ff)(1), as explained in paragraphs 61-71. It
also is a “drug” because it is intended to affect the
structure/function of the body and to affect disease, as

App. 180
evidenced by, among other things, the same
structure/function and disease claims cited in the
paragraph above. As explained in paragraphs 100-101,
this product is also an unapproved “new drug” under
the FDCA. Id. §§ 321(g), (p), 355(a).
140. In addition, Golden Omega’s E-OM3 oil and
its rTG-OM3 oil are (1) falsely promoted for use in
“dietary supplements” when they cannot legally be
used for that purpose, and they are actually
unapproved “new drugs,” in violation of Section 502(n)
of the FDCA, id. § 352(n), Exhibits 4-B-i – 4-B-iv;
(2) upon information and belief, as explained in
paragraph 1109, misbranded drugs under Section
502(o) of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (3) upon information and belief,
as explained in paragraph 111, adulterated drugs
because they were not manufactured in compliance
with current good manufacturing practices for drugs,
as required by Section 501(a)(2)(B) of the FDCA, 21
U.S.C. § 351(a)(2)(B).
141. Golden Omega also violates the standard set
forth in Section 301 of the FDCA. Section 301 of the
FDCA prohibits the introduction, or delivery for
introduction, into interstate commerce of any
unapproved “new drug” that violates section 505(a) of
the FDCA, and/or any adulterated or misbranded drug
that violates Sections 501 and/or 502 of the FDCA. Id.
§ 331(a), (d).

App. 181
142. In addition, Golden Omega violates Section
337 of the Tariff Act, because it violates the Lanham
Act. Specifically, Golden Omega is falsely stating that
its E-OM3 oil and its rTG-OM3 oil can be used in
“dietary supplements” when these products are
actually unapproved “new drugs” Exhibits 4-B-i – 4-Biv; these literally false statements have the capacity to
deceive consumers and are likely to influence
purchasing decisions; Golden Omega caused these false
statements to enter interstate commerce; and as
discussed in paragraphs 217-238, Amarin is likely to be
injured as a result.
Nordic Pharma
143. Proposed Respondent Nordic Pharma, Inc.
(“Nordic Pharma”) is a manufacturer of Synthetically
Produced Omega-3 Products. Complainants have
obtained data from Datamyne, Inc., that show that
Nordic Pharma imported into the United States: “Fish
Oil, TG90 2050” on or about July 30, 2017; “Fish Oil
TG90 3525” also on or about July 30, 2017; “Fish Oil
TG90 3525” on or about May 19, 2017; “Fish Oil TG90
3525” and “Fish Oil TG 2050” on or about May 7, 2017;
and “Fish Oil TG90 4020 80 drums” and “Fish Oil TG90
3525 37 Drums” in December 2016. Exhibit 5-F.
Nordic Pharma is “exclusively dedicated to
manufacturing Nordic Naturals omega oils” and the
company is “privately owned by Nordic Naturals.”
Exhibit 5-E. Nordic Naturals, as explained in
paragraphs 174-181, sells a large number of
concentrated omega-3 products in triglyceride form.
Upon information and belief, the products sold by
Nordic Naturals and the products referenced in

App. 182
Datamyne, Inc. are rTG-OM3
predominantly of rTG-EPA.

oil

comprised

144. Nordic Pharma violates Section 337 of the
Tariff Act, because it violates certain standards of the
FDCA. The rTG-OM3 oil sold by Nordic Pharma cannot
meet the definition of “dietary supplement” because it
is not a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-71. Rather Nordic
Pharma’s rTG-OM3 oil is a drug because, as explained
in paragraph 99, upon information and belief, the rTGOM3 oil is intended for use in a final product that is a
“drug” (e.g., the purported “dietary supplements” sold
by Nordic Naturals that are actually unapproved “new
drugs”). Exhibits 9-A-ii – 9-UU-ii. As explained in
paragraphs 100-101, these products are also
unapproved “new drugs” under the FDCA. Id.
§§ 321(g), (p), 355(a).
145. In addition, Nordic Pharma’s rTG-OM3 oil is
(1) falsely promoted for use in “dietary supplements”
when it cannot legally be used for that purpose and it
is actually an unapproved “new drug,” in violation of
the standards set forth in Section 502(n) of the FDCA,
id. § 352(n), Exhibits 9-A-ii – 9-UU-ii; (2) upon
information and belief, as explained in paragraph 110
a misbranded drug under Section 502(o) of the FDCA,
id. § 352(o), because it was manufactured, prepared,
propagated, compounded, or processed in an
establishment not duly registered under Section 510 of
the FDCA, id. § 360; and/or not included in a list as
required by Section 510(j) of the FDCA, id. § 360(j); and
(3) upon information and belief, as explained in
paragraph 111, an adulterated drug because it was not

App. 183
manufactured in compliance with current good
manufacturing practices for drugs, in violation of the
standards set forth in Section 501(a)(2)(B) of the
FDCA, 21 U.S.C. § 351(a)(2)(B).
146. Nordic Pharma also violates the standard set
forth in Section 301 of the FDCA. Section 301 of the
FDCA prohibits the introduction, or delivery for
introduction, into interstate commerce of any
unapproved “new drug” that violates Section 505(a) of
the FDCA, and/or any adulterated or misbranded drug
that violates Sections 501 and/or 502 of the FDCA. Id.
§ 331(a), (d).
147. In addition, Nordic Pharma violates Section
337 of the Tariff Act, because it violates the Lanham
Act. Specifically, Nordic Pharma is liable for
contributory false advertising because Nordic Naturals
is engaged in false advertising, as explained in
paragraphs 174-181, and upon information and belief,
Nordic Pharma knowingly induced or caused that false
advertising or otherwise materially participated in it.
Croda
148. Proposed Respondent Croda Europe Ltd. is a
manufacturer of Synthetically Produced Omega-3
Products. Complainants have obtained data from
Datamyne, Inc. showing that Croda Europe Ltd.
shipped to the United States: 13.6 metric tons of oil,
including TG 3322, in March 2017; 17.29 metric tons of
“Crodamol/Incromega” in January 2017; 16.08 metric
tons of Incromega E3322-LQ in August 2016; and 16.07
metric tons of oil including Incromega E3322-LQ in
May 2016. Exhibit 6-F.

App. 184
149. Proposed Respondent Croda Inc. is a U.S.
importer of Synthetically Produced Omega-3 Products.
In particular, it was the consignee on the import
shipment described in paragraph 148 above. Exhibit
6-F. Croda Europe Ltd. and Croda Inc. are affiliated
entities, namely “[r]elated undertakings” of Croda
International Plc. Exhibit 6-E-i.
150. Croda’s Promotional Materials identify
“Incromega” as the name for a number of fish oils,
including fish oil concentrates that are produced using
PureMax™ technology. Exhibit 6-A-i. Incromega
products include a number of E-OM3 products and
concentrated OM3 products in triglyceride form.
Exhibit 6-A-ii. Upon information and belief, these EOM3 products and concentrated OM3 products in
triglyceride form are among the Incromega products
imported into the United States.
151. Croda violates Section 337 of the Tariff Act,
because it violates certain standards in the FDCA.
Specifically, the E-OM3 oil sold by Croda cannot meet
the definition of “dietary supplement” because it is not
a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-71, and it is excluded from
the definition of “dietary supplement” by the
exclusionary clause, id. § 321(ff)(3), as explained in
paragraphs 71-83. In addition, as explained in
paragraph 95, it is a “drug” because, upon information
and belief, it is a drug recognized in the USP/NF.
Exhibit 64. It is also a drug because it is intended to
affect the structure/function of the body and to affect
disease, as evidenced by, among other things,
structure/function and disease promotional claims

App. 185
made by Croda. For example, structure/function claims
include “Croda’s Incromega™ range offers many
possibilities for consumer health trends having clear
benefits in numerous condition specific areas such as
heart health, joint health, cognitive function, and eye
health.” Exhibit 6-C-i; Table 2. In addition, disease
claims include “EPA can be beneficial for • Depression,
• Inflammatory and autoimmune conditions,” “Studies
reveal that essential Omega 3 fats help reduce the
brain inflammation associated with cognitive decline,
which can harm brain cells,” “Accumulating evidence
suggests that diets that include Omega 3 fatty acids,
specifically . . . [EPA and DHA] also protect against the
development of dementia and Alzheimer’s.” Exhibits
6-D-i and 6-D-iii; Table 2. As explained in paragraphs
100-101, this product is also an unapproved “new drug”
under the FDCA. Id. §§ 321(g), (p), 355(a).
152. Similarly, the rTG-OM3 oil sold by Croda
cannot meet the definition of “dietary supplement”
because it is not a “dietary ingredient,” 21 U.S.C.
§ 321(ff)(1), as explained in paragraphs 61-71. Rather,
it is a drug because it is intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, the same
promotional claims cited above. As explained in
paragraphs 100-101, this product is also an unapproved
“new drug” under the FDCA. Id. §§ 321(g), (p), 355(a).
153. In addition, Croda’s E-OM3 oil and its rTGOM3 oil are (1) falsely promoted for use in “dietary
supplements” when they cannot legally be used for that
purpose and they are actually unapproved “new drugs,”
in violation of the standards set forth in Section 502(n)

App. 186
of the FDCA, id. § 352(n), Exhibits 6-B-i – 6-B-iv;
(2) upon information and belief, as explained in
paragraph 110, misbranded drugs under Section 502(o)
of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (3) upon information and belief,
as explained in paragraph 111, adulterated drugs
because they were not manufactured in compliance
with current good manufacturing practices for drugs, in
violation of the standards set forth in Section
501(a)(2)(B) of the FDCA, 21 U.S.C. § 351(a)(2)(B).).
154. Croda also violates the standard set forth in
Section 301 of the FDCA. Section 301 of the FDCA
prohibits the introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA. Id. § 331(a), (d).
155. In addition, Croda violates Section 337 of the
Tariff Act, because it violates the provisions of the
Lanham Act. Specifically, Croda is falsely stating that
its E-OM3 oil and its rTG-OM3 oil can be used in
“dietary supplements,” Exhibits 6-B-i – 6-B-iv, when
these products are actually unapproved “new drugs”;
these literally false statements have the capacity to
deceive consumers and are likely to influence
purchasing decisions; Croda caused these false
statements to enter interstate commerce; and as

App. 187
discussed in paragraphs 217-238, Amarin is likely to be
injured as a result.
TASA
156. Proposed Respondent Tecnologica de
Alimentos S.A. (“TASA”) is a manufacturer of
Synthetically Produced Omega-3 Products.
Complainants have obtained data from Datamyne, Inc.
showing that TASA shipped to the United States 16.61
metric tons of oil, including “Concentrate Omega 3 EE
33/22” on or about July 17, 2017; 32.37 metric tons of
oil, including “Omega 3 Fish Oil EE 33-22,” on or about
July 6, 2017; 17.10 metric tons of oil, including “Omega
3 Fish Oil EE 33-22” on or about June 7, 2017; 16.23
metric tons of oil, including “Fish Oil EE 33-22” on or
about May 15, 2017; and 80 drums of “Peruvian
Refined Anchovy Omega 3 Fish Oil EE 33-22” in March
2017. Exhibits 7-F-i.
157. According to Promotional Materials on
TASA’s website, TASA “offer[s] . . . Omega-3
concentrates according to the needs of our customers
with different concentration levels of EE and TG.”
Exhibits 7-A-i. “EE” stands for”“ethyl esters,” or EOM3, Exhibit 7-A-i, and, upon information and belief
“TG” stands for rTG-OM3. See id.
158. TASA violates Section 337 of the Tariff Act,
because it violates certain standards in the FDCA.
Specifically, the E-OM3 oil sold by TASA cannot meet
the definition of “dietary supplement” because it is not
a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-71, and it is excluded from
the definition of “dietary supplement” by the

App. 188
exclusionary clause, id. § 321(ff)(3), as explained in
paragraphs 71-83. In addition, as explained in
paragraph 95, it is a “drug” because, upon information
and belief, it is a drug recognized in the USP/NF.
Exhibit 64. It is also a drug because it is intended to
affect the structure/function of the body and to affect
disease, as evidenced by, among other things,
structure/function and disease promotional claims
made by TASA. For example, TASA’s
structure/function claims include the following: “HIGH
Omega levels are related to speed improvements IN
TEENS . . . . The study indicates that the 1% increase
in the Omega-3 Index I related to an increase of 1.23 in
the substitution test (LDST).” Exhibit 7-C; Table 2.
In addition, TASA’s disease claims include:
Low
Omega-3
consumption
CONTRIBUTES to increased death rate
. . . . The risk-of-morbidity study (GBD
2013), which quantifies threats to the
health of the population and
opportunities for prevention, concludes
that low levels of omega-3 intake may
increase the risk of disease . . .
Exhibit 7-D-i; Table 2. As explained in paragraphs
100-101, this product is also an unapproved “new drug”
under the FDCA. Id. §§ 321(g), (p), 355(a).
159. Similarly, rTG-OM3 oil sold by TASA cannot
meet the definition of “dietary supplement” because it
is not a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-71. Rather, it is a drug
because it is intended to affect the structure/function of
the body and to affect disease, as evidenced by, among

App. 189
other things, the same structure/function and disease
promotional claims made by TASA cited above. As
explained in paragraphs 100-101, this product is also
an unapproved “new drug” under the FDCA. Id.
§§ 321(g), (p), 355(a).
160. In addition, TASA’s E-OM3 oil and its rTGOM3 oil are (1) falsely promoted for use in “dietary
supplements,” by TASA, when they cannot legally be
used for that purpose and they are actually unapproved
“new drugs,” in violation of the standards set forth in
Section 502(n) of the FDCA, id. § 352(n), Exhibits 7-Bi – 7-B-ii; (2) upon information and belief, as explained
in paragraph 110, misbranded drugs under Section
502(o) of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (3) upon information and belief,
as explained in paragraph 110, adulterated drugs
because they were nor manufactured in compliance
with current good manufacturing practices for drugs, in
violation of the standards set forth in Section
501(a)(2)(B) of the FDCA, 21 U.S.C. § 351(a)(2)(B).).
161. TASA also violates the standard set forth in
Section 301 of the FDCA. Section 301 of the FDCA
prohibits the introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA. Id. § 331(a), (d).

App. 190
162. In addition, TASA violates Section 337 of the
Tariff Act, because it violates the provisions of the
Lanham Act. Specifically, TASA is falsely stating that
its E-OM3 oil and its rTG-OM3 oil can be used in
“dietary supplements,” Exhibits 7-B-i – 7-B-ii, when
these products are actually unapproved “new drugs;”
these literally false statements have the capacity to
deceive consumers and are likely to influence
purchasing decisions; TASA caused these false
statements to enter interstate commerce; and as
discussed in paragraphs 217-238, Amarin is likely to be
injured as a result.
B. Distributor Respondents
Nature’s Bounty
163. Proposed Respondent The Nature’s Bounty
Company (“Nature’s Bounty”) is a U.S. importer and
distributor of Synthetically Produced Omega-3
Products under brand names Nature’s Bounty®,
Puritan’s Pride®, Solgar®, and Sundown Naturals®.
Nature’s Bounty was the consignee on the import
shipments from its affiliate, Ultimate, described in
paragraph 122 above. Exhibit 2-F.
164. Nature’s Bounty sells the following E-OM3
products comprised predominantly of E-EPA in the
United States under the brand name Nature’s Bounty:
Fish Oil 1400 mg (E-OM3), Exhibit 8-A, and Mini-Fish
Oil 1290 mg (E-OM3), Exhibit 8-B. The Promotional
Materials accompanying Mini-Fish Oil 1290 mg state
that Nature’s Bounty sources its fish oil “directly from
Peru.” Exhibit 8-B-vi-b. Although the Fish Oil 1400
mg product does not contain country of origin markings

App. 191
visible on the Nature’s Bounty website, there are no
known commercial-grade fish oil concentration
production facilities in the United States.
Confidential Exhibit 70. In addition, at least one
unit of Nature’s Bounty Fish Oil 1400 mg has been sold
in the United States. Confidential Exhibit 70.
Accordingly, the Fish Oil 1400 mg product containing
concentrated fish oil is imported.
165. The following Nature’s Bounty E-OM3
products comprised predominantly of E-EPA and rTGOM3 products comprised predominantly of rTG-EPA
are offered for sale in the United States under the
brand name Puritan’s Pride®: Double Strength Omega3 Fish Oil 1200 mg (E-OM3), Exhibit 8-C; Omega-3
Fish Oil 645 mg Mini Gels (upon information and
belief, rTG-OM3), Exhibit 8-D; Krill Oil+ High
Omega-3 Concentrate 1085 mg (E-OM3), Exhibit 8-E;
Lutigold™ Nutra-Vision with Lutein, Zeaxanthin &
Omega-3 (E-OM3), Exhibit 8-F; One Per Day Omega-3
Fish Oil 1360 mg (upon information and belief, rTGOM3), Exhibit 8-G; Specific Care™ Vision (E-OM3),
Exhibit 8-H; Triple Strength Omega-3 Fish Oil 1360
mg (E-OM3), Exhibit 8-I; Ubiquinol 100 mg & Omega
Fish Oil 400 mg (E-OM3), Exhibit 8-J. Upon
information and belief, the Puritan’s Pride®
Synthetically Produced Omega-3 Products are imported
into the United States. Although the Puritan’s Pride®
Synthetically Produced Omega-3 Products do not
contain country of origin markings visible on the
Puritan’s Pride® website, there are no known
commercial-grade fish oil concentration production
facilities in the United States. Confidential Exhibit
70. In addition, at least one unit of Puritan’s Pride®

App. 192
Omega-3 Fish Oil 645 mg Mini Gels has been sold in
the United States. Confidential Exhibit 70.
Accordingly, the Puritan’s Pride® Synthetically
Produced Omega-3 Products containing concentrated
fish oil are imported.
166. The following Nature’s Bounty E-OM3
Products comprised predominantly of E-EPA are sold
in the United States under the brand name Solgar®:
Triple Strength Omega 3 950 MG (E-OM3), Exhibit 8K; Double-Strength Omega-3 700 MG (E-OM3),
Exhibit 8-L; and EFA 1300 MG Omega 3-6-9 (E-OM3),
Exhibit 8-M. Upon information and belief, the Solgar®
Synthetically Produced Omega-3 Products are imported
into the United States. Although the Solgar®
Synthetically Produced Omega-3 Products do not
contain country of origin markings visible on the
Solgar® website, there are no known commercial-grade
fish oil concentration production facilities in the United
States. Confidential Exhibit 70. In addition, at least
one unit each of Solgar’s Triple Strength Omega 3 950
MG and Double-Strength Omega-3 700 MG has been
sold in the United States. Confidential Exhibit 70.
Accordingly, the Solgar® Synthetically Produced
Omega-3 Products containing concentrated fish oil are
imported.
167. The following Nature’s Bounty E-OM3
Product comprised predominantly of EEPA is sold in
the United States under the brand name Sundown
Naturals®: Odorless Fish Oil 1290mg/900mg (E-OM3),
Exhibit 8-N. The Promotional Materials
accompanying the Sundown Naturals® Odorless Fish
Oil 1290mg/900mg product state that Sundown

App. 193
Naturals®’ “fish oil is sourced in Peru.” Exhibit 8-Nvi-b. In addition, at least one unit of Sundown
Naturals® Fish Oil Omega 3-1290 MG has been sold in
the United States. Confidential Exhibit 70.
Accordingly, the Sundown Naturals® Synthetically
Produced Omega-3 Products containing concentrated
fish oil are imported.
168. Nature’s Bounty violates Section 337 of the
Tariff Act, because it violates standards established in
the FDCA. Specifically, the E-OM3 capsules sold by
Nature’s Bounty cannot meet the definition of “dietary
supplement” because E-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71, and it is excluded from the definition
of “dietary supplement” by the exclusionary clause, id.
§ 321(ff)(3), as explained in paragraphs 71-83. In
addition, as explained in paragraph 92, the capsules
are “drugs” because, upon information and belief, they
are recognized in the USP/NF. Exhibit 62. The
capsules are also “drugs” because they are intended to
affect the structure/function of the body and to affect
disease, as evidenced by, among other things,
structure/function and disease promotional claims
made by Nature’s Bounty (Table 1 (listing
structure/function claims and disease claims for all of
Distributors’ products)).
169. Similarly, the rTG-OM3 capsules sold by
Nature’s Bounty cannot meet the definition of “dietary
supplement” because rTG-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71. The capsules are also “drugs”
because they are intended to affect the

App. 194
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
and disease promotional claims made by Nature’s
Bounty for those products (Table 1 (listing
structure/function claims and disease claims for all of
Distributors’ products)).
170. For example, Nature’s Bounty’s website
provides the following structure/function claim, which
applies to all of the Nature’s Bounty brand products:
“Nature’s Bounty® Fish Oil contains Omega-3 fatty
acids including EPA and DHA which help support and
maintain the health of your cardiovascular and
circulatory system.” Exhibits 8-A-iii-b, 8-B-iii-b. The
Puritan’s Pride® website contains many
structure/function claims, including “Omega-3 fatty
acids are important for heart health,” “Omega-3 fatty
acids are important for the body’s immune system,”
and “Omega-3’s can support bone health.” Exhibits 8C-iii-b – 8-J-iii-b. The same website also contains
disease claims, including “Omega 3 fatty acids are
important for heart health . . . Cardiovascular disease
is the number one cause of death in the United States
[implied claim for the prevention or treatment of
cardiovascular disease and for the prevention of
death],” and “In a study of women over 65 with
osteoporosis, those who took EPA and GLA
supplements saw a reduced rate of bone loss. In fact,
many of the women experienced an increase in bone
density [implied prevention/treatment of osteoporosis
claim].” Exhibits 8-C-iv-b, 8-D-iv – 8-I-iv, 8-J-iv-b.
Further, a Solgar brochure for all of its essential fatty
acid products contains structure/function claims, such
as “EPA and DHA leapfrog several metabolic steps, so

App. 195
they quickly yield health benefits.* EPA forms the
hormone-like prostaglandin 3 series of compounds,
which have circulatory and other heart-healthy
benefits.” Exhibits -K-iii-b – 8-M-iii-b. In addition,
Sundown Naturals®’ Odorless Fish Oil 1290mg/900mg
is marketed with a number of structure/function
claims, including “Sundown Naturals® Odor-less Fish
Oil 1290 mg supplies omegas that are important for
your heart health.* Omega-3s are ‘good fats’ that
support cardiovascular health, and cellular/joint/skin
health.*” Exhibit 8-N-iii. Other structure/function and
disease claims for these products are listed in Table 2.
171. In addition, Nature’s Bounty’s E-OM3 and
rTG-OM3 products are (1) falsely labeled as “dietary
supplements,” in violation of the standards set forth in
Section 502(a) and/or (n) of the FDCA, 21 U.S.C.
§ 352(a), (n), when they cannot legally be used for that
purpose and they are actually unapproved “new drugs,”
Exhibits 8-A-ii – 8-N-ii; (2) misbranded as a matter of
law, in violation of the standards set forth in Section
502(f), as explained in paragraph 109, because they are
“prescription drugs” that have not been approved by
FDA, and therefore, the labeling fails to contain
adequate directions for use, 21 U.S.C. § 352(f)(1),
353(b)(2); (3) upon information and belief, as explained
in paragraph 110, misbranded drugs under Section
502(o) of the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (4) upon information and belief,
as explained in paragraph 111, adulterated drugs

App. 196
because they were not manufactured in compliance
with current good manufacturing practices for drugs, in
violation of the standards set forth in Section
501(a)(2)(B) of the FDCA, 21 U.S.C. § 351(a)(2)(B).
172. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA, is prohibited by Section
301(d) and (a) of the FDCA. Id. § 331(a), (d).
173. Nature’s Bounty also violates Section 337 of
the Tariff Act, because it violates the provisions of the
Lanham Act. Specifically, Nature’s Bounty is falsely
stating on the product labels for all of its E-OM3 and
rTG-OM3 products that they are “dietary
supplements,” Exhibits 8-A-ii – 8-N-ii, when these
products are actually unapproved “new drugs;” these
literally false statements have the capacity to deceive
consumers and are likely to influence purchasing
decisions; Nature’s Bounty caused these false
statements to enter interstate commerce, Exhibits 8A-ii – 8-N-ii; and as discussed in paragraphs 216-237,
Amarin is likely to be injured as a result.
Nordic Naturals
174. Proposed Respondent Nordic Naturals is a
U.S. distributor of Synthetically Produced Omega-3
Products. As described in paragraph 143 above,
Complainants have obtained data from Datamyne, Inc.
that show that Respondent Nordic Pharma imported
“Fish Oil TG90 4020 80 drums” and “Fish Oil TG90
3525 37 Drums into the United States in December

App. 197
2016. Exhibit 5-F. Nordic Pharma is “exclusively
dedicated to manufacturing Nordic Naturals omega
oils” and is “privately owned by Nordic Naturals.”
Exhibit 5-E. Nordic Naturals’ Promotional Materials
state that 100% of Nordic Naturals fish oil is
manufactured in Norway” and its “soft gel products are
bottled and encapsulated at [its] plant in Southern
California.” Exhibit 71.
175. Nordic Naturals distributes the following
Synthetically Produced Omega-3 Products for direct
sale to consumers or health care professionals:
Ultimate Omega-D3, Exhibit 9-A; Ultimate Omega
Xtra (Soft Gel), Exhibit 9-B; Ultimate Omega Xtra
(Liquid), Exhibit 9-C; Ultimate Omega Liquid 2840
mg, Exhibit 9-D; Ultimate Omega Junior, Exhibit 9E; Ultimate Omega in Fish Gelatin 1280 mg, Exhibit
9-F; Ultimate Omega D3 Sport (Professional Product),
Exhibit 9-G; Ultimate Omega D3 Sport (Liquid)
(Professional Product, Exhibit 9-H; Ultimate Omega
1280 mg, Exhibit 9-I; Ultimate Omega 2X, Exhibit 9J; Ultimate Omega 2X with Vitamin D3, Exhibit 9-K;
Ultimate Omega 2X Mini, Exhibit 9-L; Ultimate
Omega 2X Mini with Vitamin D3, Exhibit 9-M;
Ultimate Omega+ CoQ10, Exhibit 9-N; ProEPA,
Exhibit 9-O; Complete Omega + D3 Junior, Exhibit
9-P; Complete Omega Junior, Exhibit 9-Q; Complete
Omega XTRA, Exhibit 9-R; Daily Omega Kids,
Exhibit 9-S; EPA Xtra, Exhibit 9-T; Omega ONE,
Exhibit 9-U; EPA, Exhibit 9-V; Omega LDL, Exhibit
9-W; Omega Joint XTRA, Exhibit 9-X; Omega
Curcumin, Exhibit 9-Y; Omega Blood Sugar, Exhibit
9-Z; ProOmega 2000 (Professional Product), Exhibit 9AA; ProOmega (Professional Product), Exhibit 9-BB;

App. 198
ProOmega in Fish Gelatin (Professional Product),
Exhibit 9-CC; Pro-Omega Liquid (Professional
Product), Exhibit 9-DD; ProOmega-D (Professional
Product), Exhibit 9-EE; ProOmega-D Xtra
(Professional Product), Exhibit 9-FF; ProOmega-D
Xtra Liquid (Professional Product), Exhibit 9-GG;
ProOmega 2000-D (Professional Product), Exhibit 9HH; Nordic Omega-3 Gummy Fish (Professional
Product), Exhibit 9-II; Omega Boost Junior
(Professional Product), Exhibit 9-JJ; Omega-3 Fishies
(Professional Product), Exhibit 9-KK; Nordic Omega-3
Gummy Worms (Professional Product), Exhibit 9-LL;
Nordic Omega-3 Gummies (Professional Product),
Exhibit 9-MM; ProOmega 2000 Jr. (Professional
Product), Exhibit 9-NN; ProOmega Junior
(Professional Product), Exhibit 9-OO; ProOmega 3-6-9
(Professional Product), Exhibit 9-PP; ProOmega CRP
(Professional Product), Exhibit 9-QQ; ProOmega
Blood Sugar (Professional Product), Exhibit 9-RR;
ProOmega LDL (Professional Product), Exhibit 9-SS;
ProOmega Joint Xtra (Professional Product), Exhibit
9-TT; ProOmega CoQ10 (Professional Product),
Exhibit 9-UU. In addition, at least one unit each of
Nordic Naturals Complete Omega XTRA and Nordic
Naturals ProOmega Blood Sugar has been sold in the
United States. Confidential Exhibit 70. Accordingly,
the Nordic Naturals Synthetically Produced Omega-3
Products containing concentrated fish oil are imported.
176. Notably, many of these products (i.e., those
designated as “Professional Product”) are marketed
directly to health care professionals (see, e.g., Exhibits
9-AA-i-a, 9-UU-i-a). But, at least as a general matter,
the purported “Professional Products” also are

App. 199
available to the general public on Amazon.com, see, e.g.,
Exhibits, 9-O:-vi, 9-II-vi-a, 9-AA-vi-a, 9-GG-vi-a.
177. The Nordic Naturals website states that “all
Nordic Naturals formulas are produced in true
triglyceride form,” Exhibit 72. Upon information and
belief, given that all of the products listed above
contain EPA in concentrations above, or in ratios
different from, common fish oil, see id., all of these
products contain rTG-OM3.
178. Nordic Naturals violates Section 337 of the
Tariff Act, because it violates the standards established
in the FDCA. Specifically, the products containing rTGOM3 sold by Nordic Naturals cannot meet the
definition of “dietary supplement” because rTG-OM3 is
not a “dietary ingredient,” 21 U.S.C. § 321(ff)(1), as
explained in paragraphs 61-71. These products are also
“drugs” because they are intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
and disease promotional claims made by Nordic
Naturals for those products. For example, the Nordic
Naturals website contains structure/function claims
that apply to all of the products, such as “Extensive
research has documented the health benefits of EPA
and DHA, which include not only a healthy heart, but
brain and cognitive function, joint mobility, eye health,
pregnancy and lactation, healthy skin and hair, and a
normally functioning immune response.” Exhibits 9-Aiii, 9-B-iii-b – 9-DD-iii-b, 9-EE-iii, 9-FF-iii-b – 9-HHiii-b, 9-II-iii, 9-JJ-iii-b – 9-KK-iii-b, 9-LL-iii – 9-MMiii, 9-NN-iii-b – 9-QQ-iii-b, 9-RR-iii, 9-SS-iii-b – 9UU-iii-b. Similarly, the website contains disease

App. 200
claims that apply to all of the products such as
“Protects against age-related oxidative damage,” “Can
help alleviate [eye] dryness and redness,” “May help
slow the progression of age-related memory loss,”
“Supports internal repair systems that operate in
response to physical stress,” “Omega-3 consumption
may reduce the risk of allergies in children,” and
“Omega-3 consumption may reduce the risk of colds in
infants.” Exhibits 9-A-iv – 9-U-iv, 9-V-iv-b – 9-W-iv,
9-X-iv-b – 9-Y-iv-b, 9-Z-iv – 9-QQ-iv, 9-RR-iv-b, 9SS-iv, 9-TT-iv-b – 9-UU-iv-b. Other structure/
function and disease claims for these products are
listed in Table 1.
179. In addition, the Nordic Naturals rTG-OM3
products are (1) falsely labeled as “dietary
supplements,” in violation of the standards set forth in
Section 502(a) and/or (n) of the FDCA, 21 U.S.C.
§ 352(a), (n), when they cannot legally be used for that
purpose and they are actually unapproved “new drugs,”
Exhibit 9-A-ii – 9-UU-ii; (2) misbranded as a matter
of law, in violation of Section 502(f), as explained in
paragraph 109, because they are “prescription drugs”
that have not been approved by FDA, and therefore,
the labeling fails to contain adequate directions for use,
21 U.S.C. § 352(f)(1), 353(b)(2); (3) upon information
and belief, misbranded drugs under Section 502(o) of
the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (4) upon information and belief,
adulterated drugs because they were not manufactured

App. 201
in compliance with current good manufacturing
practices for drugs, in violation of the standards set
forth in Section 501(a)(2)(B) of the FDCA, 21 U.S.C.
§ 351(a)(2)(B).
180. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA, is prohibited by Section
301(d) and (a) of the FDCA. Id. § 331(a), (d).
181. Nordic Naturals also violates Section 337 of
the Tariff Act, because it violates the provisions of the
Lanham Act. Specifically, Nordic Naturals is falsely
stating on the product labels for all of its products that
they are “dietary supplements,” Exhibits 9-A-ii – 9UU-ii, when these products are actually unapproved
“new drugs;” these literally false statements have the
capacity to deceive consumers and are likely to
influence purchasing decisions; Nordic Naturals caused
these false statements to enter interstate commerce,
Exhibits 9-A-ii – 9-UU-ii; and as discussed in
paragraphs 217-238, Amarin is likely to be injured as
a result.
Pharmavite LLC/Nature Made
182. Proposed Respondent Pharmavite LLC is a
U.S. distributor of Nature Made-branded imported
Synthetically Produced Omega-3 Products. In
particular, Pharmavite sells at least the following
Synthetically Produced Omega-3 Products in the
United States under the Nature Made brand: Fish-Oil
One Per Day Burpless (E-OM3), Exhibit 10-A; Fish

App. 202
Oil One Per Day (E-OM3), Exhibit 10-B; Fish Oil
Pearls (E-OM3), Exhibit 10-C; Full Strength Mini
Omega-3 (E-OM3), Exhibit 10-D; Omega-3 with Xtra
Absorb (E-OM3), Exhibit 10-E; Triple Omega (EOM3), Exhibit 10-F; and Ultra Omega-3 (E-OM3),
Exhibit 10-G.
183. According to the applicable country of origin
markings on the Nature Made Synthetically Produced
Omega-3 Products, Norway is the country of origin of
the fish oil used in Full Strength Mini Omega-3
product, Exhibit 10-D-vi-b, and the Omega-3 with
Xtra Absorb product, Exhibit 10-E-vi-b. Colombia is
the country of origin of the fish oil used in the Fish Oil
Pearls product, Exhibit 10-C-vi-b. Canada is the
country of origin of the fish oil used in the Fish Oil One
Per Day, Burpless product, Exhibit 10-A-vi-b and the
Fish Oil One Per Day product, Exhibit 10-B-vi-b. The
Triple Omega product also is imported into the United
States. Although the Triple Omega product does not
contain country of origin markings visible on the
Nature Made website, there are no known commercialgrade fish oil concentration production facilities in the
United States. Confidential Exhibit 70. In addition,
at least one unit of Nature Made Fish Oil Pearls has
been sold in the United States. Confidential Exhibit
70. Accordingly, the Nature Made Synthetically
Produced Omega-3 Products are imported.
184. Pharmavite violates Section 337 of the Tariff
Act, because it violates the standards established in the
FDCA. Specifically, the E-OM3 capsules sold by
Pharmavite cannot meet the definition of “dietary
supplement” because E-OM3 is not a “dietary

App. 203
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71, and it is excluded from the definition
of “dietary supplement” by the exclusionary clause, id.
§ 321(ff)(3), as explained in paragraphs 71-83.. In
addition, as explained in paragraph 92, the capsules
are “drugs” because, upon information and belief, they
are recognized in the USP/NF. Exhibit 62. The
capsules are also “drugs” because they are intended to
affect the structure/function of the body and to affect
disease, as evidenced by, among other things, the
structure/function and disease promotional claims
made by Pharmavite. See Table 1 (listing
structure/function claims and disease claims for all of
Distributors’ products).
185. For example, structure/function claims on
Pharmavite’s website for Nature Made’s fish oil
products include the following: “A regular intake of
EPA and DHA can play a positive role in your health.
When made available to the body, EPA and DHA are
incorporated into cell membranes (such as heart cells)
and help support flexible cell membranes,” and “EPA
and DHA . . . help support a healthy heart.” Exhibits
10-A-iii-b – 10-G-iii-b; Table 1. Pharmavite’s website
for all of Nature Made’s fish oil products also includes,
for example, the disease claim, “Supportive but not
conclusive research shows that consumption of EPA
and DHA omega-3 fatty acids may reduce the risk of
coronary heart disease.” Exhibits 10-A-iv-b – 10-G-ivb; Table 1. Notably, FDA has exercised enforcement
discretion over this claim when it is used to promote
dietary supplements and conventional foods. Exhibit
73. As explained in paragraph 184, however,
Pharmavite’s E-OM3 products are not “dietary

App. 204
supplements,” and clearly, they are not conventional
foods. Accordingly, they are not subject to FDA’s
enforcement discretion policy for this claim. Other
structure/function and disease claims for these
products are listed in Table 1.
186. In addition, Pharmavite’s E-OM3 products
are (1) falsely labeled as “dietary supplements,” in
violation of the standards set forth in Section 502(a)
and/or (n) of the FDCA, 21 U.S.C. § 352(a), (n), when
they cannot legally be used for that purpose and they
are actually unapproved “new drugs,” Exhibits 10-A-ii
– 10-G-ii; (2) misbranded as a matter of law, in
violation of the standards set forth in Section 502(f), as
explained in paragraph 109, because they are
“prescription drugs” that have not been approved by
FDA, and therefore, the labeling fails to contain
adequate directions for use, 21 U.S.C. § 352(f)(1),
353(b)(2); (3) upon information and belief, misbranded
drugs under Section 502(o) of the FDCA, id. § 352(o),
because they were manufactured, prepared,
propagated, compounded, or processed in an
establishment not duly registered under Section 510 of
the FDCA, id. § 360; and/or not included in a list as
required by Section 510(j) of the FDCA, id. § 360(j); and
(4) upon information and belief, adulterated drugs
because they were not manufactured in compliance
with current good manufacturing practices for drugs, in
violation of the standards set forth in Section
501(a)(2)(B) of the FDCA, 21 U.S.C. § 351(a)(2)(B).
187. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any

App. 205
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA, is prohibited by Section
301(d) and (a) of the FDCA. Id. § 331(a), (d).
188. Pharmavite violates Section 337 of the Tariff
Act, because it violates the Lanham Act. Specifically,
Pharmavite is falsely stating on the product labels for
all of its E-OM3 products that they are “dietary
supplements,” Exhibits 10-A-ii – 10-G-ii, when these
products are actually unapproved “new drugs;” these
literally false statements have the capacity to deceive
consumers and are likely to influence purchasing
decisions; Pharmavite caused these false statements to
enter interstate commerce, Exhibits 10-A-ii – 10-G-ii;
and as discussed in paragraphs 217-238, Amarin is
likely to be injured as a result.
Innovix Pharma Inc./Omega Via
189. Proposed Respondent Innovix Pharma Inc.
(“Innovix Pharma”) is a U.S. distributor of Omega Viabranded imported Synthetically Produced Omega-3
Products. In particular, Innovix Pharma sells at least
the following Synthetically Produced Omega-3 Products
in the United States: OmegaVia EPA 500 (rTG-EPA),
Exhibit 11-A, and OmegaVia Fish Oil (rTG-OM3),
Exhibit 11-B. Both of these products contain omega-3
in the rTG form. Exhibits 11-A-i and 11-B-i.
190. According to the Omega Via Promotional
Materials, the concentrated fish oil used in the Omega
Via Synthetically Produced Omega-3 Products is
sourced from Peru, Chile and the United States, and is
concentrated in Europe before being imported into the
United States for encapsulation. Exhibits 11-A-vi –

App. 206
11-B-vi. The labels for OmegaVia EPA 500 and for
Omega Via Fish Oil state that the “source” of the fish
oil is Peru and Chile, and the product is “[c]oncentrated
and purified in Europe.” See id. In addition, at least
one unit of Omega Via’s EPA 500 has been sold in the
United States. Confidential Exhibit 70. Accordingly,
the Omega Via Synthetically Produced Omega-3
Products are imported.
191. Innovix Pharma violates Section 337 of the
Tariff Act, because it violates certain standards
established in the FDCA. Specifically, the rTG-OM3
and rTG-EPA products sold by Innovix Pharma cannot
meet the definition of “dietary supplement” because
rTG-OM3 and rTG-EPA are not “dietary ingredients,”
21 U.S.C. § 321(ff)(1), as explained in paragraphs 6171. These products are also “drugs” because they are
intended to affect the structure/function of the body
and to affect disease, as evidenced by, among other
things, structure/function and disease promotional
claims made by Innovix Pharma for those products. For
example, the Innovix Pharma website contains
structure/function claims that apply to all of the
products, such as: “Comfort your joints,” “Keep Your
Mind Sharp,” and “maintaining mood health.”
Exhibits 11-A-iii-c and 11-B-iii-c. Similarly, the
website contains disease claims that apply to all of the
products such as: “Reduces enzymes that destroy
cartilage,” “reduces joint discomfort,” “Moderate growth
of atherosclerosis plaque,” “EPA has been found to be
as effective as prescription anti-depressants,” “Manage
age-related brain decline,” “bring your triglyceride
levels down naturally,” “moderate blood pressure,”
“reducing redness and scaling,” “That’s 20% More

App. 207
Omega-3 Than Prescription Lovaza” (comparison
claims to drugs are disease claims, 21 C.F.R.
§ 101.93(g)((vi)), “Clinically effective dose for
triglycerides,” “Pharmaceutical Grade,” “EPA is more
effective than DHA at lowering triglycerides,” “improve
mood and depression,” “powerful anti-inflammatory for
soothing arthritis.” Exhibits 11-A-iv-b – 11-A-iv-c,
11-B-iv-b – 11-B-iv-c. Other structure/function and
disease claims for these products are listed in Table 1.
192. In addition, Innovix Pharma’s rTG-OM3 and
rTG-EPA products are (1) falsely labeled as “dietary
supplements,” in violation of the standards set forth in
Section 502(a) and/or (n) of the FDCA, 21 U.S.C.
§ 352(a), (n), when they cannot legally be used for that
purpose and they are actually unapproved “new drugs,”
Exhibit 11-A-ii – 11-B-ii; (2) misbranded as a matter
of law, in violation of the standards set forth in Section
502(f), as explained in paragraph 109, because they are
“prescription drugs” that have not been approved by
FDA, and therefore, the labeling fails to contain
adequate directions for use, 21 U.S.C. § 352(f)(1),
353(b)(2); (3) upon information and belief, misbranded
drugs under Section 502(o) of the FDCA, id. § 352(o),
because they were manufactured, prepared,
propagated, compounded, or processed in an
establishment not duly registered under Section 510 of
the FDCA, id. § 360; and/or not included in a list as
required by Section 510(j) of the FDCA, id. § 360(j); and
(4) upon information and belief, adulterated drugs
because they were not manufactured in compliance
with current good manufacturing practices for drugs, in
violation of the standards set forth in Section
501(a)(2)(B) of the FDCA, 21 U.S.C. § 351(a)(2)(B).

App. 208
193. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections
501 and/or 502 of the FDCA, is prohibited by Section
301(d) and (a) of the FDCA. Id. § 331(a), (d).
194. Innovix Pharma also violates Section 337 of
the Tariff Act, because it violates the Lanham Act.
Specifically, Innovix Pharma is falsely stating on the
product labels for all of its rTG-OM3 and rTG-EPA
products that they are “dietary supplements,” Exhibits
11-A-ii – 1-B-ii, when these products are actually
unapproved “new drugs;” these literally false
statements have the capacity to deceive consumers and
are likely to influence purchasing decisions; Innovix
Pharma caused these false statements to enter
interstate commerce, Exhibits 11-A-ii – 11-B-ii; and
as discussed in paragraphs 217-238, Amarin is likely to
be injured as a result.
Carlson
195. Proposed Respondent J.R. Carlson
Laboratories, Inc. (“Carlson” ) is a U.S. distributor of
imported Synthetically Produced Omega-3 Products. In
particular, Carlson sells at least the following
Synthetically Produced Omega-3 products in the
United States: Women’s Omega Multi (upon
information and belief, rTG-OM3), Exhibit 12-A; Very
Finest Fish Oil Liquid (upon information and belief,
rTG-OM3), Exhibit 12-B; Super Omega-3 Gems (EOM3), Exhibit 12-C; Elite EPA Gems (E-EPA),
Exhibit 12-D; Elite Omega-3 Gems (E-OM3), Exhibit
12-E; Fish Oil Q 100 mg (E-OM3), Exhibit 12-F;

App. 209
Inflammation Balance (upon information and belief,
rTG-OM3), Exhibit 12-G; Maximum Omega 2000
(upon information and belief, rTG-OM3), Exhibit 12H; MCT & Omega-3 (upon information and belief, rTGOM3), Exhibit 12-I; Men’s Omega Multi (E-OM3),
Exhibit 12-J; Super Omega-3 Gems, Fish Gelatin (EOM3), Exhibit 12-K; Omega 3-6-9 (upon information
and belief, rTG-OM3), Exhibit 12-L; Super 2 Daily
(upon information and belief, rTG-OM3), Exhibit 12M. Notably, Carlson’s omega-3 product brochure
expressly states that its omega-3 products are
comprised of (1) non-concentrated 100% natural
triglycerides, (2) concentrated ethyl esters,
(3) concentrated re-esterified triglycerides (rTG), and
(4) a mixture of both the natural triglyceride form and
the more potent ethyl ester form. Exhibits 12-A-i-c,
12-B-i-c, 12-G-i-c, 12-H-i-c, 12-I-i-c, 12-L-i-c, 12-M-ic.
196. According to the Carlson Promotional
Materials, the concentrated fish oil used in the Carlson
Omega-3 Products is sourced from Norway. Exhibits
12-A-vi – 12-M-vi. In addition, at least one unit each
of Carlson’s Elite EPA Gems and Elite Omega-3 Gems
has been sold in the United States. Confidential
Exhibit 70. Accordingly, the Carlson Synthetically
Produced Omega-3 Products are imported.
197. Carlson violates Section 337 of the Tariff Act,
because it violates certain standards established by the
FDCA. Specifically, the E-OM3 capsules and oils sold
by Carlson cannot meet the definition of “dietary
supplement” because E-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in

App. 210
paragraphs 61-71, and it is excluded from the definition
of “dietary supplement” by the exclusionary clause, id.
§ 321(ff)(3), as explained in paragraphs 71-83. In
addition, as explained in paragraphs 92 and 95, the EOM3 capsules and the oil are “drugs” because, upon
information and belief, they are recognized in the
USP/NF. Exhibits 62 and 64. The E-OM3 products
are also “drugs” because they are intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
and disease promotional claims made by Carlson. See
Table 1 (listing structure/function claims and disease
claims for all of Distributors’ products).
198. Similarly, the rTG-OM3 products sold by
Carlson cannot meet the definition of “dietary
supplement” because rTG-OM3 is not a “dietary
ingredient,” 21 U.S.C. § 321(ff)(1), as explained in
paragraphs 61-71. The products are also “drugs”
because they are intended to affect the
structure/function of the body and to affect disease, as
evidenced by, among other things, structure/function
promotional claims made by Carlson for those products.
See Table 1 (listing structure/function claims and
disease claims for all of Distributors’ products).
199. For example, a Carlson brochure accessible
from Carlson’s website provides the following
structure/function claims, which apply to all of the
Carlson Synthetically Produced Omega-3 Products:
“EPA and DHA are required by our bodies and aid in
our well-being by promoting and supporting:*
Cardiovascular health . . . Brain and nerve health . . .
Vision heath . . . Immune system health . . . Joint

App. 211
health . . . Skin health.” Exhibits 12-A-iii-c – 12-Biii-c, 12-C-iii-b, 12-D-iii-c – 12-M-iii-c. Other
structure/function claims for these products are listed
in Table 1.
200. In addition, Carlson’s products are (1) falsely
labeled as “dietary supplements,” in violation of the
standards set forth in Section 502(a) and/or (n) of the
FDCA, 21 U.S.C. § 352(a), (n), when they cannot legally
be used for that purpose and they are actually
unapproved “new drugs,” Exhibits 12-A-ii – 12-M-ii;
(2) misbranded as a matter of law, in violation of the
standards set forth in Section 502(f), as explained in
paragraph 109, because they are “prescription drugs”
that have not been approved by FDA, and therefore,
the labeling fails to contain adequate directions for use,
21 U.S.C. § 352(f)(1), 353(b)(2); (3) upon information
and belief, misbranded drugs under Section 502(o) of
the FDCA, id. § 352(o), because they were
manufactured, prepared, propagated, compounded, or
processed in an establishment not duly registered
under Section 510 of the FDCA, id. § 360; and/or not
included in a list as required by Section 510(j) of the
FDCA, id. § 360(j); and (4) upon information and belief,
adulterated drugs because they were not manufactured
in compliance with current good manufacturing
practices for drugs, in violation of the standards set
forth in Section 501(a)(2)(B) of the FDCA, 21 U.S.C.
§ 351(a)(2)(B).
201. The introduction, or delivery for introduction,
into interstate commerce of any unapproved “new drug”
that violates Section 505(a) of the FDCA, and/or any
adulterated or misbranded drug that violates Sections

App. 212
501 and/or 502 of the FDCA, is prohibited by Section
30l(d) and (a) of the FDCA. Id. § 331(a), (d).
202. Carlson also violates Section 337 of the Tariff
Act, because it violates the Lanham Act. Specifically,
Carlson is falsely stating on the product labels for all of
its Synthetically Produced Omega-3 Products that they
are “dietary supplements,” Exhibits 12-A-ii – 12-M-ii,
when these products are actually unapproved “new
drugs;” these literally false statements have the
capacity to deceive consumers and are likely to
influence purchasing decisions; Carlson caused these
false statements to enter interstate commerce,
Exhibits 12-A-ii – 12-M-ii; and as discussed in
paragraphs 217-238, Amarin is likely to be injured as
a result.
VIII. C L A S S I F I C A T I O N
OF
THE
RESPONDENTS’ PRODUCTS UNDER THE
HARMONIZED TARIFF SCHEDULE
203. The Proposed Respondents’ products are
imported under the following HTS classifications: HTS
Nos. 0306.19.0030; 1504.20.6040; 1517.90.2080;
1605.40.1090; 2106.90.99; 106.90.9998; 2916.19.5000;
3003.90.0000; 3004.90.9120; 3504.00.5000;
3824.90.4020; and 3824.90.4090.
IX.

RELATED LITIGATION

204. Complainants are not aware of any related
litigation.

App. 213
X.

DOMESTIC INDUSTRY

205. A m a r i n
Corporation
plc
is
a
biopharmaceutical company focused on the
commercialization and development of therapeutics to
improve cardiovascular health. Two of Amarin
Corporation’s wholly owned subsidiaries are
Complainants in this action: Amarin Pharma and
Amarin Ireland. Amarin Pharma is a Delaware
corporation and is located in Bedminster, New Jersey.
Amarin Ireland is organized under the laws of the
Republic of Ireland and is headquartered in Dublin,
Ireland. Amarin has made significant expenditures in
the United States. The details of these expenditures
are set forth below and in the Confidential Declaration
of Michael W. Kalb, Senior Vice President and Chief
Financial Officer of Amarin Pharma, attached as
Confidential Exhibit 23.
206. Amarin Pharma has full time employees and
leases property located at 1430 Route 206, Bedminster,
New Jersey. Amarin’s administrative, commercial,
research and development, supply chain, and
regulatory activities, among other business services,
take place in its Bedminster, NJ location. The details
of Amarin’s U.S.-based employment and physical
facilities at its Bedminster, NJ location are contained
in Confidential Exhibit 23, at ¶ 4.
207. Amarin has entered into agreements with
three commercial API encapsulators for the
encapsulation of Vascepa®. These companies have
qualified and validated their manufacturing processes
and are capable of manufacturing Vascepa® in each
case consistent with the stringent requirements

App. 214
applicable to manufacturing of drugs sold in the United
States. The details of Amarin’s U.S.-based
encapsulation expenditures in 2016 and the first and
second quarters of 2017 are contained in Confidential
Exhibit 23, at ¶ 5.
208. Amarin also has entered into packaging
arrangements with two commercial API packagers for
the packaging of Vascepa®. These companies have
qualified and validated their manufacturing processes
and are capable of packaging Vascepa® in each case
consistent with the stringent requirements applicable
to manufacturing of drugs sold in the United States.
The details of Amarin’s U.S.-based portion of these
packaging expenditures in 2016 and the first and
second quarters of 2017 are contained in Confidential
Exhibit 23, at ¶ 6.
209. Amarin also has entered into a Logistics
Service Agreement with a U.S.-based company. This
agreement provides for inbound receipt of product,
warehousing, order acceptance, order fulfillment and
shipment of orders, among other services. The details
of the U.S.-based portion of Amarin’s logistics
expenditures in 2016 and the first quarter 2017 are
contained in Confidential Exhibit 23, at ¶ 7.
210. Amarin markets Vascepa® in the United
States through its direct sales force of approximately
150 sales professionals, including sales representatives
and their managers. Amarin also employs various
marketing and medical affairs personnel to support
Amarin’ s commercialization of Vascepa®. In addition
to Vascepa® promotion by Amarin sales
representatives, Amarin has a co-promotion agreement

App. 215
with Kowa Pharmaceuticals America, Inc. (“Kowa”)
that provides for no fewer than 250 sales
representatives to promote Vascepa® in the United
States. Total sales and marketing expenses for
Vascepa, including the Kowa co-promotion fee, are
contained in Confidential Exhibit 23, at ¶ 8.
211. To comply with the stringent regulatory
requirements for the sale of a drug in the United
States, Amarin undertook substantial risk and has
made substantial investments in labor dedicated to
research and develop Vascepa® to its current state.
Amarin’ s program for developing Vascepa has lasted
over a decade, and the details of the total U.S.-based
labor expenses dedicated to research and development
during 2016 and the first and second quarters of 2017
are contained in Confidential Exhibit 23 at ¶¶ 9-11.
212. Significantly, the Vascepa® development
programs include three key human clinical trials
entitled MARINE, ANCHOR, and REDUCE-IT. Each
clinical trial was undertaken under a special protocol
assessment (“SPA”) agreement with FDA involving
years of costly regulatory interactions and SPA
amendments. Such agreements reflect FDA’s
concurrence on the vigorous testing the company had
to successfully complete even to be considered for FDA
approval of Vascepa®.
213. The MARINE clinical trial demonstrated that
Vascepa® was safe and effective for use as an adjunct
to diet to reduce triglyceride levels in adult patients
with severe (TGs $500 mg/dL) hypertriglyceridemia,
commonly known as very triglyceride levels, and it

App. 216
supported FDA’s July 26, 2012 approval of the drug for
that indication.
214. Likewise, the ANCHOR clinical trial
demonstrated that the product was safe and effective
for use as an adjunct to diet to reduce triglyceride
levels in adult patients with persistent high (TGs 200499 mg/dL) triglyceride levels in addition to statin
therapy.
215. The REDUCE-IT cardiovascular outcomes
trial is an 8,175-patient clinical trial evaluating
whether treatment with Vascepa® will reduce major
cardiovascular events in patients who, despite
stabilized statin therapy, have elevated triglyceride
levels and other cardiovascular risk factors. The results
of this important trial could help healthcare
professionals save millions of lives and lead to
improved medical care for tens of millions of patients.
If successful, the REDUCE-IT study has the potential
to significantly change the treatment paradigm for
cardiovascular risk reduction, the leading cause of
death in the United States. In a 2014 letter to Amarin,
John Jenkins, M.D., then FDA’s Director, Office of New
Drugs, Center for Drug Evaluation and Research (now
retired) stated that completed REDUCE-IT study “data
would be of significant public health value.” Dr.
Jenkins went on to state, “I strongly urge Amarin to
complete the trial and I know [FDA’s clinical data
review division for cardiovascular-focused drugs], is
ready and willing to work with Amarin to address any
issues that may arise as you work to that end.” See
FDA Letter to Amarin Pharma, dated September 11,
2014. Exhibit 74.

App. 217
216. Amarin manages the REDUCE-IT study
through a Contract Research Organization with the
exception of costs for clinical trials management and
costs for internal management. Amarin expects to
report results from the REDUCE IT study in the
second or third quarter of 2018. Amarin’s total
historical and expected costs of conducting the
REDUCE-IT study are more than $200 million, most of
it in the United States, and are set forth in
Confidential Exhibit 23 at ¶¶ 9-11. Amarin’s total
R&D expenses since 2007, including expenses for all
three studies, are contained in Confidential Exhibit
23 at ¶¶ 9-11.
XI.

SUBSTANTIAL INJURY

217. The Proposed Respondents have engaged in
unfair acts and unfair methods of competition, the
threat or effect of which is to substantially injure
Amarin’s domestic industry in manufacturing, selling,
and distributing its Vascepa® capsules. The
importation and sale of Proposed Respondents’
Synthetic Omega-3 Products by means of their unfair
acts and unfair methods of competition have injured
Amarin’s domestic industry or threatened it with
injury by (i) damaging the Vascepa® brand by
exploiting Vascepa®’s status as an FDA-approved drug,
(ii) causing lost sales and market share to Vascepa®,
and (iii) diminishing Amarin’s profitability and
Vascepa®’s eroding prices.
A. Damage To The Vascepa® Brand
218. Amarin has spent considerable time, money,
effort, and resources developing the Vascepa® brand.

App. 218
As described in paragraphs 205-216 above, it developed
Vascepa® in compliance with the FDCA and obtained
FDA approval of its drug. It conducted the successful
ANCHOR and MARINE trials, and is conducting
REDUCE-IT trial as part of its development of
Vascepa®. To expand marketing claims for its drug by
demonstrating its effect on cardiovascular risk
reduction, Amarin has invested and expects to invest
more than $200 million since 2011 on its REDUCE-IT
study alone. Confidential Exhibit 23 at ¶¶ 9-11.
Through this substantial pharmacological development
risk, effort and investment, Amarin has built and is
continuing to build a successful, branded FDAapproved pharmaceutical product that helps patients
who have been diagnosed with persistent high or very
high triglyceride levels.
219. By contrast, Proposed Respondents market
their Synthetic Omega-3 Products as non-prescription
“dietary supplements,” which exploits the Vascepa®
brand and creates non-prescription competition and
product substitution by the Synthetically Produced
Omega-3 Products marketed illegally as “dietary
supplements.” These products are largely untested and
much less stringently regulated, despite the fact that
they are accompanied by claims by the Proposed
Respondents that such products reduce triglyceride
levels. By labeling and promoting Synthetically
Produced Omega-3 Products as “dietary supplements”
when, in fact, they are unapproved “new drugs,”
Proposed Respondents are diluting the Vascepa® brand
and its status and notoriety as an FDA-approved drug
and profiting from Amarin’s substantial efforts and
investments – all without using their own resources,

App. 219
investing their own time or money, or exerting similar
efforts of their own.
220. For example, a 2015 article on the
NutraceuticalsWorld website entitled Omega-3s:
Turning the Tide & Watching the Current, explained
how Omega-3 manufacturers exploit the presence of
Vascepa® and other prescription drugs in the market
at the expense of Amarin and the Vascepa® brand. The
article explains that “[t]he presence in the market of
prescriptions forms of omega-3 esters such as Lovaza,
Vascepa and Epanova gives an extra level of confidence
even in the absence of [a Reference Daily Intake] or
unqualified health claim.” Exhibit 75.
221. In another article entitled Lovaza: A Wolf in
Sheep’s Clothing, a Nordic Naturals sales manager was
quoted as saying that the presence of FDA-approved
pharmaceuticals in the market is “very positive”
because “it validates the use of omega 3s in a clinical
application.” Exhibit 76. Another market participant
agreed, noting that if pharmaceutical companies
“want[] to spend millions of dollars advertising the
health benefits of fish oil on TV, it can do nothing but
benefit all of us. I’m in.” Exhibit 76.
222. The Proposed Respondents’ conflation of
Amarin’s FDA-approved Vascepa® product with their
Synthetically Produced Omega-3 Products has caused
confusion in the marketplace about the distinction
between “drugs” and “dietary supplements” to the
detriment of the Vascepa® brand. A survey conducted
by Fairleigh Dickenson University’s Public Mind Poll
entitled, “What’s In Your Supplements? Even The
Experts Are Stumped,” reported that “[a]mong those

App. 220
physicians and pharmacists who had recommended a
non-prescription omega-3 product to patients, more
than four in five (85%) believed incorrectly that they
had recommended an FDA-approved OTC product
. . . .” Exhibit 77. Notably, there are no legally
marketed OTC drugs containing omega-3 fatty acids.
223. Companies like Proposed Respondent Innovix
Pharma intentionally add to the confusion by
promoting their products with claims that make direct
comparisons to FDA-approved drugs (e.g., “Most fish
oils are not the same as Lovaza. But some Are! A few
over-the counter pharmaceutical grade fish oils [sic] are
just as potent, pure and effective at reducing
triglycerides as Lovaza,” see OmegaVia Website,
Exhibit 44; see also OmegaVia Website 2, Exhibit 45
(making implicit comparisons of OmegaVia’s so-called
“pharmaceutical grade fish oil” products to both
Vascepa® and Lovaza®)).
224. These and other statements made by the
Proposed Respondents in conjunction with the
importation and sale of the Synthetically Produced
Omega-3 Products have damaged or diluted the
Vascepa® brand causing injury and threatened injury
to Amarin.
B. Lost Sales And Market Share
225. Amarin has lost sales and market share as a
result of Proposed Respondents’ unfair acts and unfair
methods of competition in multiple channels of
distribution. The Synthetically Produced Omega-3
Products can be purchased off the shelf at retail
establishments, such as grocery stores, pharmacies, big

App. 221
box stores, and over the Internet, without restriction.
In addition, the Synthetically Produced Omega-3
Products can be purchased through doctor
prescriptions. By contrast, Vascepa® can only be
distributed pursuant to a prescription.
226. The ubiquitous presence of the Proposed
Respondents’ products in retail and consumer
distribution channels has injured or threatened Amarin
with injury. For example, in 2012, Amarin
commissioned Hall & Partners, a New York City-based
market research firm to conduct a consumer direct-toconsumer market research program for Vascepa®. The
sample included a total of 810 individuals with high
triglycerides (200-499 mg/dL) and very high
triglycerides (500+ mg/dL). When asked “[w]hich of the
following medications are you currently taking to treat
high triglycerides, whether treated alone or with
another condition?,” 41% responded that they took a
prescription omega-3 product and 54% responded that
they took a fish oil dietary supplement. Confidential
Exhibit 78.
227. Proposed Respondents’ unfair acts and unfair
methods of competition also have resulted in lost sales
and lost market share for Amarin’s Vascepa® product
in the physician prescription channel of distribution. In
particular, a TVG Marketing Research & Consulting
Study conducted in late 2015 indicates that physicians
are more than three times more likely (28 percent to 8
percent) to recommend “Omega-3 Fish Oil Dietary
Supplements” instead of prescribing Vascepa® when
treating patients with elevated triglycerides.
Confidential Exhibit 79. Moreover, certain

App. 222
Distributors, like Nordic Naturals, have an entire line
of purported “Professional Products,” that are
specifically marketed to healthcare professionals.
Exhibits 80. Proposed Respondents have induced
doctors to recommend and patients to purchase
Respondents’ products in the mistaken belief that they
are equivalent to FDA-approved products, with the
threat or effect of lost sales and lost market share to
Vascepa®.
228. Proposed Respondents’ sales of Synthetically
Produced Omega-3 Products resulting from unfair acts
and unfair methods of competition have injured or
threatened Amarin with injury. In the absence of
Proposed Respondents’ unfair acts and unfair methods
of competition, sales of Vascepa® would displace a
significant percentage of Proposed Respondents’ sales
of Synthetically Produced Omega-3 Products in the
direct-to-consumer channel of distribution, as
consumers would seek prescriptions for Vascepa and
other FDA-approved triglyceride-lowering drugs. And
in the absence of Proposed Respondents’ unfair acts
and unfair methods of competition, sales of Vascepa®
or other FDA-approved prescription triglyceridelowering drugs would displace all of Proposed
Respondents’ sales of Synthetically Produced Omega-3
Products in the physician prescription channel of
distribution.
229. Amarin has the capacity and/or inventory to
supply the entire U.S. market demand for the
Synthetically Produced Omega-3 Products (and
similarly situated products), and Proposed

App. 223
Respondents’ unfair acts prevent Amarin from making
these sales. Confidential Exhibit 70 at ¶ 23.
C. Lost Profits And Price Erosion
230. Proposed Respondents’ unfair acts and unfair
methods of competition have contributed to Amarin’s
lost profits and to the price erosion of Vascepa®. FDA
regulates “drugs” more stringently than “dietary
supplements”: drugs are subject to FDA approval, 21
U.S.C. § 505; and drug approval triggers the need for
complying with the FDCA’s drug registration and
listing requirements, 21 U.S.C. § 360, the FDCA’s drug
manufacturing requirements, 21 U.S.C. § 351, and
certain user fees. 21 U.S.C. § 379h. Moreover, FDA
regulates drug labeling, promotional materials, and
advertising stringently. FDA reviews drug labeling and
approves claims that can be made regarding the
product’s use and conditions of use. 21 U.S.C. §§ 321(p),
505; 21 C.F.R. § 314.81. And promotional materials and
advertising are submitted to FDA at the time of
dissemination. Further, prescription drugs, such as
Vascepa® can only be distributed pursuant to a
prescription. 21 U.S.C. § 353(b).
231. By illegally importing and selling
Synthetically Produced Omega-3 Products, the
Proposed Respondents are able to avoid the substantial
costs of obtaining FDA approval, maintaining FDA
approval (i.e., certain user fees), and complying with
FDA’s drug registration, listing, labeling/advertising,
and manufacturing requirements. By contrast, Amarin
has had to incur substantial costs in obtaining and
maintaining. FDA approval for Vascepa®, and for
complying with FDA’s various requirements.

App. 224
232. All of Amarin’s product revenue is derived
from product sales of 1-gram and 0.5-gram size
capsules of Vascepa®, net of allowances, discounts,
incentives, rebates, chargebacks and returns. Amarin
sells product to a limited number of major wholesalers
and selected regional wholesalers and specialty
pharmacy providers (collectively “Vascepa®
Distributors”) who resell the product to retail
pharmacies for purposes of their reselling the product
to fill patient prescriptions that are issued by
authorized medical professionals. The commercial
launch of 1-gram size Vascepa® capsules in the United
States occurred in January 2013 and a smaller 0.5gram size capsule was introduced in October 2016.
Since 2014, Amarin has recognized revenue based on
sales to its Vascepa® Distributors. Net product
revenues based on sales of Vascepa® to distributors
totaled $79.3 million and $58.1 million during the six
months ended June 30, 2017 and 2016, respectively.
Amarin’s revenues would have been higher but for the
Proposed Respondents’ unfair acts and unfair methods
of competition.
233. Amarin has not yet reached profitability on
sales of Vascepa®, and anticipates incurring losses for
an indefinite period of time. For the fiscal years ended
December 31, 2016, 2015, and 2014, Amarin reported
losses of approximately $86.4 million, $49.1 million,
and $56.4 million, respectively, and the company has
an accumulated deficit as of December 31, 2016 of $1.2
billion. For the three months ended March 31, 2017
and 2016, Amarin reported losses of approximately
$20.9 million and $29.8 million, respectively.

App. 225
234. This cumulated deficit in operating losses is
typical of pharmaceutical companies that introduce a
new drug into the market. They reflect the fact that to
legally enter the pharmaceutical market with a drug
like Vascepa® involves years of development, hundreds
of millions of dollars in research and development
costs, and several years of operating losses, as well as
the risk of development failure. Pharmaceutical
companies like Amarin typically recover their
development costs over time through increasing
volumes of sales. Amarin’s losses, however, are
exacerbated by Proposed Respondents’ conduct. Put
differently, Amarin’s operating losses would have been
smaller, or Amarin would have become profitable more
quickly, but for the Proposed Respondents’ unfair acts
or unfair methods of competition.
235. The details of Amarin’s production volumes
and inventories of Vascepa® are contained in
Confidential Exhibit 70, at ¶¶ 121-23. Amarin has
entered into long-term supply agreements with
multiple FDA-approved API suppliers and
encapsulators, which include the potential for capacity
expansion aimed at creating sufficient volumes to meet
future demand for Vascepa®. Amarin’s ability to meet
those growth projections (and to achieve profitability)
is inhibited by Proposed Respondents’ unfair acts and
unfair methods of competition.
236. Proposed Respondents’ sales of the
Synthetically Produced Omega-3 Products resulting
from unfair acts and unfair methods of competition also
have had a substantial adverse impact on Vascepa®
pricing. While Vascepa® pricing may be affected by

App. 226
insurance coverage and offered discounts, the fact that
Vascepa® and Proposed Respondents’ products are sold
in the same or similar channels of distribution also has
adverse impacts on Vascepa® pricing. Amarin
Corporation plc 2016 10K Statement at 41, attached as
Exhibit 81.
237. The adverse price effects of the Synthetically
Produced Omega-3 Products also is evident from
Amarin’s coupon discount sales program. According to
that program, a consumer with commercial insurance
can pay as little as $9.00 for a 90-day supply
prescription of Vascepa®. Exhibit 25. The percentage
of Vascepa® prescriptions covered by Amarin’s coupon
program is set forth in the attached Confidential
Exhibit 23. Amarin’s coupon program was designed to
make Vascepa price competitive with Synthetically
Produced Omega-3 Products and to discourage
physicians and pharmacists from directing consumers
to purchase Synthetically Produced Omega-3 Products
based on price. As a result, Amarin has suffered price
erosion from the unfairly traded Synthetically
Produced Omega-3 Products with respect to at least the
sales covered by Amarin’s coupon program.
238. In sum, the Proposed Respondents’
importation and sale of Synthetically Produced Omega3 Products has injured and/or threatened Amarin with
substantial injury by (i) damaging the Vascepa® brand
by exploiting Vascepa®’s status as an FDA-approved
drug, (ii) causing lost sales and market share to
Vascepa, and (iii) diminishing Amarin’s profitability
and eroding Vascepa®’s prices.

App. 227
XII.

RELIEF

WHEREFORE, by reason of the foregoing,
Complainants request that the Commission:
A. Institute an immediate investigation pursuant
to Section 337 of the Tariff Act of 1930, as amended, 19
U.S.C. § 1337, with respect to the Proposed
Respondents’ violations of Section 337 based on the
importation and sale in the United States of the
Synthetically Produced Omega-3 Products;
B. Schedule and conduct a hearing on permanent
relief pursuant to 19 U.S.C. § 1337(d) and (f) of the
Tariff Act of 1930, as amended;
C. Find that Synthetically Produced Omega-3
Products are violating Section 337 of the Tariff Act
because they violate the Lanham Act and the
standards set forth in the FDCA in that they are sold
as “dietary supplements” in the United States, without
meeting the definition of “dietary supplement” in the
FDCA. Further find that the Synthetically Produced
Omega-3 Products are violating Section 337 of the
Tariff Act because they meet the definition of “drugs,”
under the FDCA, by virtue of the fact that they are
articles: (i) recognized in the USP/NF, (ii) intended to
affect disease (e.g., they are marketed with drug
comparison claims, as well as other “disease” claims),
see Tables 1 and 2, (iii) intended to affect the
structure or function of the body (e.g., they are
marketed with claims that they support healthy heart,
brain, and joint function, among other
structure/function claims), see Tables 1 and 2, and/or

App. 228
(D) intended for use as a component of any articles
specified in clauses (i)-(iii). 21 U.S.C. § 321(g)(1).
D. Issue a permanent General Exclusion Order
excluding from entry into the United States all
Synthetically Produced Omega-3 Products pursuant to
19 U.S.C. § 1337(d);
E. Issue a permanent Limited Exclusion Order
specifically directed to each named Proposed
Respondent and its subsidiaries and affiliates,
pursuant to 19 U.S.C. § 1337(d), excluding from entry
into the United States the Synthetically Produced
Omega-3 Products through direct or indirect means;
F. Issue a permanent cease-and-desist order
pursuant to 19 U.S.C. § 1337(f), prohibiting each
Proposed Respondent and its subsidiaries and affiliates
from directly or indirectly engaging in the importation,
the use, the offering for sale, the sale after importation,
or otherwise transferring within the United States, the
Synthetically Produced Omega-3 Products;
G. Require Respondents to post a bond to secure
Complainants’ interests during any Presidential review
of a Commission exclusion order; and
H. Issue such other and further relief as the
Commission deems just and proper under the law,
based upon the facts determined by the investigation
and the authority of the Commission.
Respectfully submitted,
/s/Jeffrey M. Telep
Jeffrey M. Telep

App. 229
Lisa M. Dwyer
David J. Farber
Kevin M. Dinan
Patrick J. Togni
Elizabeth E. Owerbach
KING & SPALDING LLP
1700 Pennsylvania A venue, NW
Suite 200
Washington, DC 20006-4706
Telephone: (202) 737-0500
Fax: (202) 626-3737
Amarin Pharma, Inc. and Amarin
Pharmaceuticals Ireland Ltd.
Date: August 30, 2017
31013996.v6

App. 230
UNITED STATES INTERNATIONAL
TRADE COMMISSION
Investigation No. 337-TA- ___
________________________________
In The Matter of
)
)
Certain Synthetically Produced,
)
Predominantly EPA Omega-3
)
Products In Ethyl Ester Or
)
Re-esterified Triglyceride Form
)
________________________________ )
VERIFICATION OF COMPLAINT
I, Steven Ketchum, am Senior Vice President,
President of Research and Development, and Chief
Scientific Officer for Amarin Pharma, Inc., and am
authorized to execute this verification on behalf of
Complainants, Amarin Pharma, Inc. and Amarin
Pharmaceuticals Ireland Ltd. I have read the
Complaint and am aware of its contents. To the best of
my knowledge, information, and belief and based upon
reasonable inquiry under the circumstances, I hereby
certify that
1. The allegations contained in the Complaint are
well grounded in fact and have evidentiary
support, or are likely to have evidentiary
support after a reasonable opportunity for
further investigation or discovery;
2. The claims and other legal contentions set forth
in the Complaint are warranted by existing laws
or by a good faith, non-frivolous argument for

App. 231
extension, modification, or reversal of existing
law, or by the establishment of new law; and
3. The Complaint is not being filed for any
improper purpose, such as to harass or to cause
unnecessary delay or needless increase in the
cost of litigation.
Dated: August 25, 2017
/s/Steven Ketchum
Steven Ketchum, Ph.D.
Senior Vice President, President of
Research and Development, and Chief
Scientific Officer Amarin Pharma, Inc.
DMSLIBRARY01\30934728.v1

App. 232

APPENDIX E
DEPARTMENT OF HEALTH &
HUMAN SERVICES
Food and Drug Administration
10903 New Hampshire Avenue
Silver Spring, MD 20993-0002
OCT 06 2017
Hon. Lisa R. Barton
Secretary
U.S. International Trade Commission
500 E Street, S.W.
Washington, DC 20436
Re:

Certain Synthetically Produced,
Predominantly EPA Omega-3
Products in Ethyl Ester or Reesterified Triglyceride Form, Docket
No. 3247

Dear Secretary Barton:
On behalf of the United States Food and Drug
Administration (“FDA”), we write to express FDA’s
views to the Commission on the above-referenced
Complaint.1 FDA respectfully submits that the

1

The Office of Unfair Import Investigations (“OUII”),
Complainants (Amarin Pharma, Inc. and Amarin Pharmaceuticals
Ireland Ltd.), and the Council for Responsible Nutrition, a trade

App. 233
Commission should decline to initiate the requested
investigation. As pled, Complainants’ claims–unfair
methods of competition under the Tariff Act based on
false advertising under the Lanham Act and violations
of the Federal Food, Drug, and Cosmetic Act (“FDCA”)–
can succeed only if the Commission finds that
Respondents’ products are unapproved “new drugs”
rather than “dietary supplements” under the FDCA.
The Complaint here is predicated on open questions of
law and policy on which FDA has not reached final
conclusions.2 Any such findings by the Commission on
those issues may conflict with later determinations by
FDA. Further, through the Complaint, Complainants
attempt an unlawful private FDCA enforcement action
based on Complainants’ allegations, not on FDA’s
findings. As detailed below, because Congress has
authorized only FDA to initiate FDCA enforcement
actions, the FDCA precludes claims that would require
the adjudicator to interpret, apply, or enforce the
FDCA. For Complainants to succeed on any of their
claims, the Commission would have to do all three of
those things.

association representing dietary supplement manufacturers, have
sought FDA’s views on this matter.
2

As explained below, Complainants’ suggestion that their
arguments here “do not turn on open questions of law or policy”
under the FDCA, see Amarin Juris. Br. at 24, is mistaken.

App. 234
A. FDA Has Not Determined Whether The
Challenged Products Are Drugs Or Dietary
Supplements.
The FDCA and its implementing regulations set
forth the legal definitions of “drugs,” “new drugs,” and
“dietary supplements,” as well as legal requirements
for, among other things, the distribution of such
products in interstate commerce. See, e.g., 21 U.S.C.
§§ 321(g)(1), (p), 355, 21 C.F.R. Part 314 (drugs and
new drugs); 21 U.S.C. §§ 321(ff), 350b, 21 C.F.R. Part
190 (dietary supplements). Congress has delegated to
FDA the authority to determine whether products are
“drugs,” “new drugs,” and/or “dietary supplements.”
See, e.g., 21 U.S.C. §§ 355, 350b; see generally
Weinberger v. Hynson, Westcott & Dunning, Inc., 412
U.S. 609, 627 (1973) (“The heart of the new procedures
designed by Congress [for determining whether a
product is a ‘new drug’] is the grant of primary
jurisdiction to FDA.”); Hi-Tech Pharms, Inc. v. Hodges
Consulting, Inc., 230 F. Supp. 3d 1323, 1331 (N.D. Ga.
2016) (the determination of whether a product
marketed as a “dietary supplement” is instead a “new
drug” is one that “Congress has delegated exclusively
to the FDA”).
The FDA statutory scheme is undeniably
“complex.”3 For example, to be a dietary supplement, a
3

See, e.g., Boehringer Ingelheim Pharma GMBH & Co. v. FDA, 195
F. Supp. 3d 366, 380 (D.D.C. 2016) (noting FDA’s “long experience
in administering this complex statute”); Hi-Tech Pharms, Inc., 230
F. Supp. 3d 1323 at 1331; see also Hynson, Westcott & Dunning,
Inc., 412 U.S. at 627 (noting that Congress created an “expert
agency”—FDA—to administer the FDCA).

App. 235
product must, among other things, contain one or more
“dietary ingredients.” 21 U.S.C. § 32l(ff)(1). “Dietary
ingredients” include, among other things, “a dietary
substance for use by man to supplement the diet by
increasing the total dietary intake,” or “a concentrate,
metabolite, constituent, extract, or combination of any”
other dietary ingredient or ingredients. 21 U.S.C.
§ 321(ff)(1)(E)&(F).4 And a manufacturer wishing to
market a dietary supplement which contains a “new
dietary ingredient” (“NDI”)—defined as a dietary
ingredient that was not marketed in the United States
before October 15, 1994—must submit a pre-market
notification to FDA unless the NDI and any other
dietary ingredients in the dietary supplement “have
been present in the food supply as an article used for
food in a form in which the food has not been
chemically altered.” 21 U.S.C. § 350b; see also 21 C.F.R.
§ 190.6.
Because of this complex statutory scheme,
determinations of whether a product is a dietary
supplement require case-specific analysis, as very
small differences in factors such as an ingredient’s
chemical structure or history of presence in the food
supply can mean the difference between dietaryingredient status and non-dietary-ingredient status. In
other words, the determination requires, among other
things, a careful and thorough scientific review of the
ingredients of the product at issue as well as review of
the history of those ingredients. Any determination by
the Commission on those issues in this case may
4

See also 21 U.S.C. § 321(ff)(1)(A)-(D)&(F) (addressing additional
substances that qualify as “dietary ingredients”).

App. 236
conflict with later determinations by FDA on the same
issues.
Moreover, FDA is in the process of developing a
guidance document for industry on when a dietary
supplement ingredient is an NDI, when the
manufacturer of a dietary ingredient or supplement
should submit an NDI notification, the evidence needed
to document the safety of an NDI, appropriate methods
for establishing the identity of an NDI, and related
issues. FDA guidance documents “describe the agency’s
interpretation of or a policy on a regulatory issue,” 21
C.F.R. § 10.115(b), and are one of the tools Congress
gave to the agency for the administering the FDCA, see
21 U.S.C. § 371(h)(1)(A) (the “Secretary shall develop
guidance documents with public participation,” and
those documents “present the views of the Secretary on
matters under the jurisdiction of the Food and Drug
Administration”).
FDA initially published a draft guidance document
on NDI issues for public comment in 2011. See 76 F.R.
39111, Draft Guidance for Industry; Dietary
Supplements: New Dietary Ingredient Notifications and
Related Issues; Availability (Jul. 5, 2011). FDA received
thousands of comments on the initial draft guidance,
and issued a revised draft guidance in 2016. See 81
F.R. 53486, Dietary Supplements; New Dietary
Ingredient Notifications and Related Issues: Revised
Draft Guidance for Industry; Availability (Aug. 12,

App. 237
2016).5 To date, FDA has received over 300 comments
on the revised draft guidance, some of which address
issues raised in the Complaint. Accordingly, a
Commission finding on issues raised in the Complaint
could conflict with later-finalized FDA guidance.
In the revised draft guidance, FDA stated its
willingness to compile an authoritative list of preOctober 15, 1994, dietary ingredients based on
independent and verifiable data to be supplied by
industry. Comments submitted regarding the revised
draft guidance generally support the idea that FDA
should develop a list of pre-October 15, 1994, dietary
ingredients, but reflect varying opinions on the
standard of evidence for demonstrating that an
ingredient was marketed before October 15, 1994, and
on the process by which ingredients should be added to
the list. Because FDA believes that public discussion of
these issues will be beneficial to the agency in
developing the list, FDA held a public meeting on these
issues on October 3, 2017. See 82 F.R. 42098,
Development of a List of Pre-Dietary Supplement
Health and Education Act Dietary Ingredients; Public
Meeting; Request for Comments (Sept. 6, 2017). A
Commission finding on issues raised in the Complaint
here could conflict with any later FDA-finalized list of
pre-October 15, 1994, dietary ingredients.
Furthermore, FDA is concerned that initiation of
the investigation requested by Complainants could

5

The 2016 revised draft guidance is available on FDA’s website at
www.fda.gov/downloads/food/guidanceregulation/guidancedocum
entsregultory information/ucm515733.pdf.

App. 238
create an incentive for other parties to file similar
complaints about other FDA-regulated products. FDA’s
regulatory authority is not limited to foods (which
include dietary supplements) and drugs. Under
complex statutory and regulatory regimes, FDA also
regulates a broad range of other types of products,
including biologics, blood products, cosmetics, medical
devices, medical foods, radiation-emitting devices,
tobacco products, vaccines, and animal drugs. Just like
in this case, Commission investigations involving those
types of products would present the possibility of the
Commission reaching findings that conflict with FDA
findings.
Accordingly, even if Complainants have pled a
viable claim (which, as explained below, they have not),
FDA believes that the Commission should decline to
initiate an investigation under principles of comity to
FDA—the federal agency that has the congressionallydelegated authority to determine the status of the
products at issue. Complainants contend that the
requested investigation will not intrude on FDA’s
jurisdiction because the Tariff Act provides that the
Commission will “consult with, and seek advice from,”
relevant federal agencies, including FDA. See Amarin
Juris. Br. at 18 (quoting 19 U.S.C. § 1337(b)(2)). But
the Tariff Act also requires “expeditious adjudication”
and conclusion of investigations “at the earliest
practical time” after initiation of the investigation. See
19 U.S.C. § 1337(b)(1). FDA respectfully submits that
consultation with FDA during such an expedited
process is not an adequate substitute for FDA’s normal
regulatory process.

App. 239
B. Private Parties Have No Private Right of
Action Under The FDCA
Because FDA is the expert agency responsible for
determining whether products comply with the FDCA,
Congress gave FDA a number of enforcement tools to
address the distribution of products in violation of the
FDCA. For example, FDA may initiate a civil
injunction action against a firm distributing such
products. See 21 U.S.C. §§ 331(a)-(d), 332. In such an
action, a district court can enjoin the firm from
continuing to distribute the product at issue. See, e.g.,
United States v. Lane Labs-USA, Inc., 324 F. Supp. 2d
547 (D.N.J. 2004). Other enforcement mechanisms
include seizure of violative products, civil money
penalties, and criminal prosecution of individuals and
firms. 21 U.S.C. §§ 331, 333, 334; see also, e.g., Heckler
v. Chaney, 470 U.S. 821, 835 (1985) (discussing
enforcement mechanisms available to FDA); United
States v. Undetermined Quantities of Articles of Drug,
145 F. Supp. 2d 692 (D. Md. 2001) (seizure of
unapproved new drugs); United States v. Kaminski,
2008 WL 1886008 (S.D. Ohio Apr. 28, 2008) (criminal
prosecution for distribution of unapproved new drugs).6

6

FDA may take other steps short of enforcement action to address
products that appear to be violative. For example, FDA may issue
import alerts to detain violative products at the border. See 21
U.S.C. § 381(a). FDA may also issue a Warning Letter to the firm
identifying violations of the FDCA and asking the firm to take
voluntary corrective action. See FDA Regulatory Procedures
Manual, p. 4-2 (Mar. 2017) (available at www.fda.gov). A Warning
Letter is “informal and advisory,” and “FDA does not consider
Warning Letters to be final agency action.” Id. at 4-3; see also
Holistic Candlers and Consumers Ass’n v. FDA, 664 F.3d 940 (D.C.

App. 240
But while Congress gave FDA these and other tools
to enforce the FDCA, Congress prohibited private
parties from bringing actions to enforce the FDCA. See
21 U.S.C. § 337(a) (“all such proceedings for the
enforcement, or to restrain violations, of [the FDCA]
shall be by and in the name of the United States”); see
also, e.g., Buckman Co. v. Plaintiffs’ Legal Comm., 531
U.S. 341, 349 n.4 (2001) (“The FDCA leaves no doubt
that it is the Federal Government rather than private
litigants who are authorized to file suit for
noncompliance with the [FDCA.]”); In re Darvocet,
Darvon & Propoxyphene Prods. Liab. Litig., 756 F.3d
917, 936 (6th Cir. 2014) (“because the FDA has
exclusive power to enforce the FDCA, there is no
private right to enforce the statute”).
The reason that the FDCA prohibits private
enforcement actions—including unfair trade practice
and false advertising actions that seek to enforce the
FDCA—is straightforward. FDA cannot administer and
enforce the FDCA effectively if core FDA issues—such
as whether a product is a “new drug” or a “dietary
supplement” under the FDCA—are decided in actions
brought by private parties. After all, “Congress’s
decision to centralize authority to determine the
legality of drug sales in the FDA was obviously
intended to provide uniformity of administration” of the
FDCA, JHP Pharms., LLC v. Hospira, Inc., 52 F. Supp.
3d 992, 1005 (C.D. Cal. 2014) (quotation and citation
omitted), and allowing private parties to bring
enforcement actions—either in courts or in other
Cir. 2012) (finding that FDA Warning Letter was not final agency
action).

App. 241
federal agencies—threatens such uniformity of
administration. See also Hynson, Westcott & Dunning,
Inc., 412 U.S. at 624 (noting FDA “cannot administer
the Act intelligently and rationally unless it has
authority to determine what drugs are ‘new drugs’
under [21 U.S.C. § 321(p)].”).
Indeed, in keeping with these principles, less than
a year ago (and more than two years after the Supreme
Court’s POM Wonderful decision) the Commission’s
Staff correctly recognized: “the Staff believes that a
cause of action is likely not precluded by the FDCA if
it does not require the Commission to directly apply,
enforce, or interpret the FDCA.” See Staff Response to
Respondents’ Motion for Summary Determination
Dismissing Claims Precluded by the FDCA in In the
Matter of Certain Potassium Chloride Powder Prods.,
Inv. No. 337-TA-1013, EDIS Doc. I.D. 593245 at 4 n.2
(Oct. 21, 2016) (emphasis added). A fortiori, the FDCA
would preclude such a claim if—as is the case here— it
required the Commission to directly apply, enforce, or
interpret the FDCA.
Similarly, even after POM Wonderful, courts
continue to routinely recognize that because the FDCA
prohibits private enforcement actions, the FDCA
“preclude[s] Lanham Act claims” where, “in order to
determine the falsity or misleading nature of the
representation at issue, the court would be required to
interpret and apply FDCA statutory [and] regulatory
provisions.” Hi-Tech Pharms, Inc., 230 F. Supp. 3d at
1330 (quotation and citation omitted). See also, e.g.,
Intra-Lock Intern., Inc. v. Choukroun, 2015 WL
11422285, *7 (S.D. Fla. May 4, 2015) (“because the

App. 242
FDCA forbids private rights of action under the
statute, a private action brought under the Lanham
Act may not be pursued when the claim would require
litigation of the alleged underlying FDCA violation in
circumstances where the FDA has not itself concluded
there was such a violation”) (quoting PhotoMedex, Inc.
v. Irwin, 601 F.3d 919, 924 (9th Cir. 2010)); Church &
Dwight Co, Inc. v. SPD Swiss Precision Diagnostics,
104 F. Supp. 3d 348, 361 (S.D.N.Y. 2015) (“POM
Wonderful did not disturb the longstanding proposition
that private parties may not use the Lanham Act as a
vehicle to enforce the FDCA. That is, because the
FDCA does not contain a private right of action, claims
that require a court to interpret, apply, or enforce the
FDCA remain precluded.”);7 Catheter Connections, Inc.
v. Ivera Med Corp., 2014 WL 3536573, *4 (D. Utah. Jul.
17, 2014) (“because no private right of action exists
under the FDCA, a plaintiff may not use the Lanham
Act as an alternative vehicle by which to seek redress
for an FDCA violation,” and Lanham Act “claims that
require direct interpretation and application of the
FDCA are not properly recognized because such

7

Although Complainants’ “Jurisdictional Brief” relies heavily on
POM Wonderful LLC v. Coca-Cola Co., 134 S. Ct. 2228 (2014), that
case is inapposite here. In POM Wonderful, the Court ruled that
the FDCA did not preclude a private party from bringing a
Lanham Act claim alleging that certain fruit juice labeling was
misleading even though FDA regulates juice labels. Unlike this
case, however, POM Wonderful did not require the tribunal to
interpret, apply, or enforce the FDCA. And, as the above-cited
cases demonstrate, even after POM Wonderful, courts have
adhered to the principle that the FDCA precludes Lanham Act
claims when those claims amount to attempts to interpret, apply,
or enforce the FDCA.

App. 243
matters are more appropriately addressed by the
FDA”) (quoting Cottrell, Ltd. v. Biotrol, Int’l, 191 F.3d
1248, 1254-55 (10th Cir. 1999)).
The Complaint requires interpretation, application,
and enforcement of the FDCA. Specifically,
Complainants’ claims—whether styled as a Tariff Act
claim, a Lanham Act claim, or an FDCA claim—all
depend on the allegation that the products at issue are
falsely labeled as “dietary supplements” because they
do not meet the FDCA definition of “dietary
supplements” and instead meet the FDCA definition of
“new drugs.” See, e.g., Complaint at ¶ 60 (alleging that
labeling the products “as ‘dietary supplements’ is
literally false because these products (i) cannot meet
the definition of ‘dietary supplement” in section 201(ff)
of the FDCA, 21 U.S.C. § 321(ff) and (ii) are being
referred to as ‘dietary supplements’ to hide the fact
that they are actually unapproved ‘new drugs.”’); ¶ 120
(alleging that Tariff Act and Lanham Act claim is
based on false statements that the products can be
used in “‘dietary supplements’ when these products are
actually unapproved ‘new drugs.”’).8 In short, in order
to resolve any of Complainants’ claims, the Commission
will necessarily have to step into the shoes of the FDA
to interpret, apply, and enforce the FDCA. But the
FDCA precludes such action.

8

See also, e.g., ¶¶ 58, 61-68, 70-71, 79, 82, 84-88, 92-93, 95-100,
102, 106-107, 109-111, 113, 116-120, 124-127, 131-134, 138-141,
144-146, 151-154, 158-161, 168-169, 171-172, 178-180, 184, 186187, 191-193, 197-198, 200-202 (all citing the FDCA).

App. 244
Finally, we note that FDA has, in the past,
addressed questions regarding the regulatory status of
certain products through the agency’s citizen petition
process. See 21 C.F.R. §§ 10.25(a), 10.25(b) (“FDA has
primary jurisdiction to make initial determinations on
issues within in statutory mandate”); 10.30;9 see also,
e.g., 70 F.R. 69976, Request for Comment on Status of
Pyridoxamine (Nov. 18, 2005); FDA Response to Citizen
Petition, Docket No. FDA-2005-P-0259 at p.3 (Jan. 12,
2005) (“FDA has concluded that a product containing
pyridoxamine is not a dietary supplement under the
Act because pyridoxamine is excluded from the dietary
supplement definition under the prior market clause in
21 U.S.C. § 321(ff)(3)(B)(ii).”).10
For these reasons, FDA respectfully requests that
the Commission decline to initiate the requested
investigation.
Sincerely,
/s/Anna K. Abram
Anna K. Abram
Deputy Commissioner for
Policy, Planning, Legislation, and Analysis
U.S. Food and Drug Administration

9

Generally, FDA must respond to a citizen petition within 180
days, although that response may be a tentative response. See 21
C.F.R. § 10.30(e)(2)(iv).

10

Available at https://www.regulations.gov/document?D=FDA2005-P-0259-0004.

App. 245
/s/Rebecca K. Wood
Rebecca K. Wood
Chief Counsel
U.S. Food and Drug Administration
***
[Certificate of Service Omitted in the
Printing of this Appendix]

